Nos. 19-422 and 19-563

In the Supreme Court of the United States
PATRICK J. COLLINS, ET AL., PETITIONERS
v.
STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY,
ET AL.
STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY,
ET AL., PETITIONERS
v.
PATRICK J. COLLINS, ET AL
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

JOINT APPENDIX

JEFFREY B. WALL
Acting Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record
for the Federal Parties

CHARLES JUSTIN COOPER
Cooper & Kirk, PLLC
1523 New Hampshire Ave., N.W.
Washington, D.C. 20036
ccooper@cooperkirk.com
(202) 220-9600

Counsel of Record
for the Plaintiffs

PETITIONS FOR WRITS OF CERTIORARI FILED: SEPT. 25, 2019 AND OCT. 25, 2019
CERTIORARI GRANTED: JULY 9, 2020

TABLE OF CONTENTS

Page
Court of appeal docket entries (17-20364) .............................. 1
District court docket entries (4:16cv3113) ......................... 18
Plaintiffs’ complaint for declaratory and injunctive
relief (Oct. 20, 2016) ............................................................. 24
Excerpts from Memorandum of Defendants Federal
Housing Finance Agency as Conservator for Fannie
Mae and Freddie Mac and FHFA Director Melvin L.
Watt in Support of Motion to Dismiss (Jan. 9, 2017) ....... 120
Exhibit A: Amended and Restated Senior
Preferred Stock Purchase Agreements
(Sept. 26, 2008) .......................................................... 121
Exhibit B: Senior Preferred Stock Certificates
(Sept. 7, 2008) ............................................................ 176
Exhibit C: Second Amendment to Amended and
Restated Senior Preferred Stock Purchase
Agreements (Dec. 24, 2009) ..................................... 212
Exhibit D: Third Amendment to Amended and
Restated Senior Preferred Stock Purchase
Agreements (Aug. 17, 2012) .................................... 233

(I)

UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

Docket No. 17-20364
PATRICK J. COLLINS; MARCUS J. LIOTTA;
WILLIAM M. HITCHCOCK, PLAINTIFFS-APPELLANTS
v.
STEVEN T. MNUCHIN, SECRETARY, U.S. DEPARTMENT
OF TREASURY; DEPARTMENT OF THE TREASURY;
FEDERAL HOUSING FINANCE AGENCY; MELVIN L.
WATT; JOSEPH M. OTTING, ACTING DIRECTOR OF THE
FEDERAL HOUSING FINANCE AGENCY; MARK A.
CALABRIA, DIRECTOR OF THE FEDERAL HOUSING
FINANCE AGENCY, DEFENDANTS-APPELLEES
DOCKET ENTRIES
DATE

PROCEEDINGS

5/30/17 US CIVIL CASE docketed. NOA filed by
Appellants Mr. Patrick J. Collins, Mr. William
M. Hitchcock and Mr. Marcus J. Liotta
[17-20364] (CAG)
* * * * *
7/19/17 APPELLANT’S BRIEF FILED # of Copies
Provided: 0 A/Pet’s Brief deadline satisfied.
Appellee’s Brief due on 08/18/2017 for Appellees Department of the Treasury, Federal
Housing Finance Agency, Steven T. Mnuchin,
Secretary, U.S. Department of Treasury and
Melvin L. Watt. Paper Copies of Brief due
on 07/25/2017 for Appellants Patrick J. Collins,
William M. Hitchcock and Marcus J. Liotta.
(1)

2
DATE

PROCEEDINGS

[17-20364] REVIEWED AND/OR EDITED
—The original text prior to review appeared
as follows: APPELLANT’S BRIEF FILED
by Mr. Patrick J. Collins, Mr. William M.
Hitchcock and Mr. Marcus J. Liotta. Date of
service: 07/19/2017 via email—Attorney for
Appellants: Barnes, Cooper, Flores, Patterson, Thompson; Attorney for Appellees:
Cayne, Dameris, Katerberg, Phillips, Sinzdak,
Wright [17-20364] (Charles Justin Cooper)
* * * * *
7/19/17 RECORD EXCERPTS FILED. # of Copies
Provided: 0 Paper Copies of Record Excerpts due on 07/25/2017 for Appellants Patrick J. Collins, William M. Hitchcock and Marcus J. Liotta.
[17-20364] REVIEWED
AND/OR EDITED—The original text prior to
review appeared as follows: RECORD EXCERPTS FILED by Appellants Mr. Patrick
J. Collins, Mr. William M. Hitchcock and Mr.
Marcus J. Liotta. Date of service: 07/19/2017
via email—Attorney for Appellants: Barnes,
Cooper, Flores, Patterson, Thompson; Attorney for Appellees: Cayne, Dameris, Katerberg, Phillips, Sinzdak, Wright [17-20364]
(Charles Justin Cooper)
9/8/17

* * * * *
APPELLEE’S BRIEF FILED # of Copies
Provided: 0 E/Res’s Brief deadline satisfied.
Paper Copies of Brief due on 09/18/2017 for

3
DATE

9/8/17

PROCEEDINGS

Appellees Department of the Treasury and
Steven T. Mnuchin, Secretary, U.S. Department of Treasury. [17-20364] REVIEWED
AND/OR EDITED—The original text prior to
review appeared as follows: APPELLEE’S
BRIEF FILED by Department of the Treasury and Mr. Steven T. Mnuchin, Secretary,
U.S. Department of Treasury. Date of service: 09/08/2017 via email—Attorney for Appellants: Barnes, Cooper, Flores, Patterson,
Thompson; Attorney for Appellees: Cayne,
Dameris, Hoffman, Katerberg, Phillips, Sinzdak, Varma, Wright [17-20364] (Abby Christine Wright)
APPELLEE’S BRIEF FILED # of Copies
Provided: 0 E/Res’s Brief deadline satisfied.
Paper Copies of Brief due on 09/18/2017 for
Appellees Federal Housing Finance Agency
and Melvin L. Watt.. Reply Brief due on
09/22/2017 for Appellants Patrick J. Collins,
William M. Hitchcock and Marcus J. Liotta
[17-20364] REVIEWED AND/OR EDITED
—The original text prior to review appeared
as follows: APPELLEE’S BRIEF FILED
by Federal Housing Finance Agency and Mr.
Melvin L. Watt. Date of service: 09/08/2017
via email—Attorney for Appellants: Barnes,
Cooper, Flores, Patterson, Thompson; Attorney for Appellees: Cayne, Dameris, Hoffman, Katerberg, Phillips, Sinzdak, Varma,
Wright [17-20364] (Howard N. Cayne)

4
DATE

9/8/17

PROCEEDINGS

RECORD EXCERPTS FILED. # of Copies
Provided: 0 Paper Copies of Record Excerpts due on 09/18/2017 for Appellees Federal
Housing Finance Agency and Melvin L. Watt.
[17-20364] REVIEWED AND/OR EDITED
—The original text prior to review appeared
as follows: RECORD EXCERPTS FILED
by Appellees Federal Housing Finance Agency
and Mr. Melvin L. Watt. Date of service:
09/08/2017 via email—Attorney for Appellants:
Barnes, Cooper, Flores, Patterson, Thompson;
Attorney for Appellees:
Cayne, Dameris,
Hoffman, Katerberg, Phillips, Sinzdak, Varma,
Wright [17-20364] (Howard N. Cayne)

* * * * *
9/22/17 APPELLANT’S REPLY BRIEF FILED Reply Brief deadline satisfied. Paper Copies of
Brief due on 10/03/2017 for Appellants Patrick
J. Collins, William M. Hitchcock and Marcus
J. Liotta. [17-20364] REVIEWED AND/OR
EDITED—The original text prior to review
appeared as follows: APPELLANT’S REPLY BRIEF FILED by Mr. Patrick J. Collins, Mr. William M. Hitchcock and Mr. Marcus J. Liotta. Date of service: 09/22/2017
via email—Attorney for Appellants: Barnes,
Cooper, Flores, Patterson, Thompson; Attorney for Appellees: Cayne, Dameris, Hoffman, Katerberg, Phillips, Sinzdak, Varma,
Wright [17-20364] (Charles Justin Cooper)
*

*

*

*

*

5
DATE

PROCEEDINGS

10/10/17 RECORD ON APPEAL FILED. Electronic
Pleadings, 5; ROA deadline satisfied.
[17-20364] (DDL)
12/1/17 SUPPLEMENTAL AUTHORITIES (FRAP
28 j) FILED by Appellees Federal Housing
Finance Agency and Mr. Melvin L. Watt Date
of Service: 12/01/2017 via email—Attorney
for Appellants: Barnes, Cooper, Flores, Patterson, Thompson; Attorney for Appellees:
Cayne, Hoffman, Katerberg, Phillips, Sinzdak,
Varma, Wright [17-20364] (Howard N. Cayne)
12/7/17 RESPONSE filed to the 28j letter filed by Appellees Federal Housing Finance Agency and
Mr. Melvin L. Watt in 17-20364 [17-20364] REVIEWED AND/OR EDITED—The original
text prior to review appeared as follows: RESPONSE filed by Appellants Mr. Patrick J.
Collins, Mr. William M. Hitchcock and Mr.
Marcus J. Liotta to the 28j letter filed by Appellees Federal Housing Finance Agency and
Mr. Melvin L. Watt in 17-20364 Date of Service: 12/07/2017 via email—Attorney for Appellants: Barnes, Cooper, Flores, Patterson,
Thompson; Attorney for Appellees: Cayne,
Hoffman, Katerberg, Phillips, Sinzdak, Varma,
Wright [17-20364] (Charles Justin Cooper)
2/1/18

* * * * *
SUPPLEMENTAL AUTHORITIES (FRAP
28 j) FILED by Appellees Department of the
Treasury and Mr. Steven T. Mnuchin, Secretary, U.S. Department of Treasury Date of

6
DATE

2/2/18

2/6/18

2/6/18

PROCEEDINGS

Service: 02/01/2018 via email—Attorney for
Appellants: Barnes, Cooper, Flores, Patterson, Thompson; Attorney for Appellees:
Cayne, Hoffman, Katerberg, Phillips, Sinzdak,
Stern, Varma, Wright [17-20364] (Gerard J.
Sinzdak)
SUPPLEMENTAL AUTHORITIES (FRAP
28 j) FILED by Appellees Federal Housing
Finance Agency and Mr. Melvin L. Watt Date
of Service: 02/02/2018 via email—Attorney
for Appellants: Barnes, Cooper, Flores, Patterson, Thompson; Attorney for Appellees:
Cayne, Hoffman, Katerberg, Phillips, Sinzdak,
Stern, Varma, Wright [17-20364] (Howard N.
Cayne)
RESPONSE filed by Appellants Mr. Patrick
J. Collins, Mr. William M. Hitchcock and Mr.
Marcus J. Liotta to the 28j Letter filed by Appellees Federal Housing Finance Agency and
Mr. Melvin L. Watt in 17-20364 Date of Service: 01/06/2018 via email—Attorney for Appellants: Barnes, Cooper, Flores, Patterson,
Thompson; Attorney for Appellees: Cayne,
Hoffman, Katerberg, Phillips, Sinzdak, Stern,
Varma, Wright [17-20364] (David H. Thompson)
RESPONSE filed by Appellants Mr. Patrick
J. Collins, Mr. William M. Hitchcock and Mr.
Marcus J. Liotta to the 28j Letter filed by Appellees Mr. Steven T. Mnuchin, Secretary,
U.S. Department of Treasury and Department

7
DATE

PROCEEDINGS

of the Treasury in 17-20364 Date of Service:
02/06/2018 via email—Attorney for Appellants: Barnes, Cooper, Flores, Patterson,
Thompson; Attorney for Appellees: Cayne,
Hoffman, Katerberg, Phillips, Sinzdak, Stern,
Varma, Wright [17-20364] (David H. Thompson)
3/7/18 ORAL ARGUMENT HEARD before Judges
Stewart, Haynes, Willett. Arguing Person Information Updated for: Robert J. Katerberg
arguing for Appellee Federal Housing Finance Agency; Arguing Person Information
Updated for: Gerard J. Sinzdak arguing for
Appellee Department of the Treasury; Arguing Person Information Updated for: David
H. Thompson arguing for Appellant Patrick J.
Collins, Appellant William M. Hitchcock
[17-20364] (SME)
5/8/18 SUPPLEMENTAL AUTHORITIES (FRAP
28 j) FILED by Appellees Federal Housing
Finance Agency and Mr. Melvin L. Watt Date
of Service: 05/08/2018 via email—Attorney
for Appellants: Barnes, Cooper, Flores, Patterson, Thompson; Attorney for Appellees:
Cayne, Hoffman, Katerberg, Phillips, Sinzdak,
Stern, Varma, Wright [17-20364] (Howard N.
Cayne)
5/21/18 05/21/2018 RESPONSE filed to the 28j Letter
filed by Appellees Federal Housing Finance
Agency and Mr. Melvin L. Watt in 17-20364
[17-20364] REVIEWED AND/OR EDITED—

8
DATE

PROCEEDINGS

The original text prior to review appeared as
follows:
RESPONSE filed by Appellants
Mr. Patrick J. Collins, Mr. William M. Hitchcock and Mr. Marcus J. Liotta to the 28j Letter filed by Appellees Federal Housing Finance Agency and Mr. Melvin L. Watt in
17-20364 Date of Service:
05/21/2018 via
email—Attorney for Appellants:
Barnes,
Cooper, Flores, Patterson, Thompson; Attorney for Appellees:
Cayne, Hoffman, Katerberg, Phillips, Sinzdak, Stern, Varma,
Wright [17-20364] (David H. Thompson)
6/25/18 SUPPLEMENTAL AUTHORITIES (FRAP
28 j) FILED by Appellants Mr. Patrick J. Collins, Mr. William M. Hitchcock and Mr. Marcus J. Liotta Date of Service: 06/25/2018 via
email—Attorney for Appellants:
Barnes,
Cooper, Flores, Patterson, Thompson; Attorney
for Appellees: Cayne, Hoffman, Katerberg,
Phillips, Sinzdak, Stern, Varma, Wright
[17-20364] (David H. Thompson)
6/27/18 RESPONSE filed by Appellees Federal Housing Finance Agency and Mr. Melvin L. Watt to
the 28j Letter filed by Appellants Mr. Patrick
J. Collins, Mr. Marcus J. Liotta and Mr. William M. Hitchcock in 17-20364 Date of Service:
06/27/2018 via email—Attorney for Appellants: Barnes, Cooper, Flores, Patterson,
Thompson; Attorney for Appellees: Cayne,
Hoffman, Katerberg, Phillips, Sinzdak, Stern,
Varma, Wright [17-20364] (Howard N. Cayne)

9
DATE

PROCEEDINGS

7/11/18 SUPPLEMENTAL AUTHORITIES (FRAP
28j) FILED by Appellees Federal Housing Finance Agency and Mr. Melvin L. Watt Date of
Service: 07/11/2018 via email—Attorney for
Appellants: Barnes, Cooper, Flores, Patterson, Thompson; Attorney for Appellees:
Cayne, Hoffman, Katerberg, Phillips, Sinzdak,
Stern, Varma, Wright [17-20364] (Howard N.
Cayne)
7/16/18 RESPONSE filed by Appellants Mr. Patrick
J. Collins, Mr. William M. Hitchcock and Mr.
Marcus J. Liotta to the 28j Letter filed by Appellees Federal Housing Finance Agency and
Mr. Melvin L. Watt in 17-20364 Date of Service: 07/16/2018 via email—Attorney for Appellants: Barnes, Cooper, Flores, Patterson,
Thompson; Attorney for Appellees: Cayne,
Hoffman, Katerberg, Phillips, Sinzdak, Stern,
Varma, Wright [17-20364] (David H. Thompson)
7/16/18 PUBLISHED OPINION FILED. [17-20364
Affirmed, Reversed and Remanded] Judge:
CES, Judge: CH, Judge: DRW. Mandate
issue date is 09/07/2018 [17-20364] (This opinion includes URL material that is archived by
the Fifth Circuit Court of Appeals Library,
and made available at http://www.lb5.uscourts.
gov/ArchivedURLS/.) (EAB)
7/16/18 Judgment Entered And Filed. [17-20364]
(Eab)

10
DATE

PROCEEDINGS

Each party
7/16/18 COSTS TAXED AGAINST:
bear its own costs. [17-20364] (EAB)
8/2/18 PETITION for rehearing en banc [8841431-2]
Number of Copies: 0. Mandate issue date
canceled. Paper Copies of Rehearing due on
08/08/2018 for Appellants Patrick J. Collins,
William M. Hitchcock and Marcus J. Liotta..
Date of Service: 08/02/2018 [17-20364] REVIEWED AND/OR EDITED—The original
text prior to review appeared as follows: PETITION filed by Appellants Mr. Patrick J.
Collins, Mr. William M. Hitchcock and Mr. Marcus J. Liotta for rehearing en banc [8841431-2].
Date of Service: 08/02/2018 via email—Attorney for Appellants: Barnes, Cooper, Flores,
Patterson, Thompson; Attorney for Appellees:
Cayne, Hoffman, Katerberg, Phillips, Sinzdak,
Stern, Varma, Wright [17-20364] (Charles
Justin Cooper)
* * * * *
8/17/18 COURT DIRECTIVE ISSUED requesting a
response to the Petition for rehearing en banc
filed by Appellants Mr. Patrick J. Collins, Mr.
Marcus J. Liotta and Mr. William M. Hitchcock in 17-20364. Response/Opposition due
on 08/27/2018. [17-20364] (CAG)
* * * * *
9/13/18 RESPONSE/OPPOSITION filed by Department of the Treasury and Mr. Steven T.
Mnuchin, Secretary, U.S. Department of
Treasury [8873933-1] to the Court Order

11
DATE

PROCEEDINGS

Court directive requesting a response, Petition for rehearing en banc filed by Appellants
Mr. Patrick J. Collins, Mr. William M. Hitchcock and Mr. Marcus J. Liotta Date of Service:
09/13/2018 via email—Attorney for Appellants: Barnes, Cooper, Flores, Patterson,
Thompson; Attorney for Appellees: Cayne,
Hoffman, Katerberg, Phillips, Sinzdak, Stern,
Varma, Wright. [17-20364] (Abby Christine
Wright)
9/13/18 RESPONSE/OPPOSITION filed by Federal
Housing Finance Agency and Mr. Melvin L.
Watt [8874134-1] to the Court Order Court directive requesting a response, Petition for rehearing en banc filed by Appellants Mr. Patrick J. Collins, Mr. William M. Hitchcock and
Mr. Marcus J. Liotta Date of Service:
09/13/2018 via email—Attorney for Appellants:
Barnes, Cooper, Flores, Patterson, Thompson;
Attorney for Appellees: Cayne, Hoffman, Katerberg, Phillips, Sinzdak, Stern, Varma,
Wright. [17-20364] (Howard N. Cayne)
11/12/18 COURT ORDER granting Petition for rehearing en banc filed by Appellees Federal Housing
Finance Agency and Mr. Melvin L. Watt,
granting Petition for rehearing en banc filed
by Appellants Mr. Patrick J. Collins, Mr. Marcus J. Liotta and Mr. William M. Hitchcock
A/Pet Supplemental Brief due on 12/12/2018
for Appellants Patrick J. Collins, William M.
Hitchcock and Marcus J. Liotta.. E/Res Sup-

12
DATE

PROCEEDINGS

plemental Brief due on 01/11/2019 for Appellees Department of the Treasury, Federal
Housing Finance Agency, Steven T. Mnuchin,
Secretary, U.S. Department of Treasury and
Melvin L. Watt..
Miscellaneous due on
11/26/2018 for Appellants Patrick J. Collins,
William M. Hitchcock and Marcus J. Liotta
and Appellees Department of the Treasury,
Federal Housing Finance Agency, Steven T.
Mnuchin, Secretary, U.S. Department of
Treasury and Melvin L. Watt to transmit 22
copies of their opening briefs and record excerpts; reopening case [8918227-2] [17-20364]
(GAM)
* * * * *
12/12/18 APPELLANT’S SUPPLEMENTAL BRIEF
FILED. # of Copies Provided: 0 A/Pet’s
Supplemental Brief deadline satisfied. Paper Copies of Brief due on 12/18/2018 for Appellants Patrick J. Collins, William M. Hitchcock and Marcus J. Liotta. [17-20364] REVIEWED AND/OR EDITED—The original
text prior to review appeared as follows: APPELLANT’S SUPPLEMENTAL BRIEF
FILED by Mr. Patrick J. Collins, Mr. William
M. Hitchcock and Mr. Marcus J. Liotta. Date
of service: 12/12/2018 via email—Attorney
for Appellants: Barnes, Cooper, Flores, Patterson, Thompson; Attorney for Appellees:
Cayne, Hoffman, Katerberg, Phillips, Sinzdak,

13
DATE

PROCEEDINGS

Stern, Varma, Wright [17-20364] (Charles
Justin Cooper)
* * * * *
1/11/19 APPELLEE’S SUPPLEMENTAL BRIEF
FILED # of Copies Provided: 0 E/Res’s
Supplemental Brief deadline satisfied. Paper Copies of Brief due on 01/22/2019 for Appellees Department of the Treasury and Steven T. Mnuchin, Secretary, U.S. Department
of Treasury. [17-20364] REVIEWED AND/
OR EDITED—The original text prior to review appeared as follows:
APPELLEE’S
SUPPLEMENTAL BRIEF FILED by Department of the Treasury and Mr. Steven T.
Mnuchin, Secretary, U.S. Department of
Treasury Date of service:
01/11/2019 via
email—Attorney for Appellants:
Barnes,
Cooper, Flores, Patterson, Thompson; Attorney for Appellees: Cayne, Hoffman, Katerberg, Mooppan, Phillips, Sinzdak, Stern,
Varma, Wright [17-20364] (Gerard J. Sinzdak)
1/14/19 APPELLEE’S SUPPLEMENTAL BRIEF
FILED # of Copies Provided: 0 E/Res’s
Supplemental Brief deadline satisfied. Paper Copies of Brief due on 01/22/2019 for Appellees Federal Housing Finance Agency and
Joseph M. Otting, Acting Director of the Federal Housing Finance Agency. [17-20364]
REVIEWED AND/OR EDITED—The original text prior to review appeared as follows:
APPELLEE’S SUPPLEMENTAL BRIEF

14
DATE

PROCEEDINGS

FILED by Federal Housing Finance Agency
and Joseph M. Otting, Acting Director of the
Federal Housing Finance Agency Date of service: 01/14/2019 via email—Attorney for Appellants: Barnes, Cooper, Flores, Patterson,
Thompson; Attorney for Appellees: Cayne,
Hoffman, Katerberg, Mooppan, Phillips, Sinzdak, Stern, Varma, Wright [17-20364] (Robert
J. Katerberg)
* * * * *
1/18/19 SUPPLEMENTAL REPLY BRIEF FILED
by Mr. Patrick J. Collins, Mr. William M.
Hitchcock and Mr. Marcus J. Liotta Date of
service: 01/16/2019 # of Copies Provided: 0
Paper Copies of Brief due on 01/19/2019 (Overnight) for Appellants Patrick J. Collins, William M. Hitchcock and Marcus J. Liotta.
[17-20364] (CAS)
* * * * *
1/23/19 EN BANC ORAL ARGUMENT HEARD
Stewart, Jones, Smith, Dennis, Owen, Elrod,
Southwick, Haynes, Graves, Higginson, Costa,
Willett, Ho, Duncan, Engelhardt, Oldham En
Banc;. Arguing Person Information Updated
for: Robert J. Katerberg arguing for Appellee Federal Housing Finance Agency, Et Al;
Arguing Person Information Updated for:
Hashim M. Mooppan arguing for Appellee Department of the Treasury, Et Al; Arguing Person Information Updated for:
David H.

15
DATE

PROCEEDINGS

Thompson arguing for Appellant Patrick J.
Collins, Et Al. [17-20364] (PFT)
* * * * *
2/28/19 SUPPLEMENTAL AUTHORITIES (FRAP
28 j) FILED Date of Service:
02/28/2019
[17-20364] REVIEWED AND/OR EDITED
—The original text prior to review appeared
as follows: SUPPLEMENTAL AUTHORITIES (FRAP 28j) FILED by Appellees Federal Housing Finance Agency and Joseph M.
Otting, Acting Director of the Federal Housing Finance Agency Date of Service:
02/28/2019 via email—Attorney for Appellants: Barnes, Cooper, Flores, Patterson,
Thompson; Attorney for Amici Curiae:
Bayne, Mapes, Nelson, Wydra; Attorney for
Appellees:
Cayne, Hoffman, Katerberg,
Mooppan, Phillips, Sinzdak, Stern, Varma,
Wright [17-20364] (Robert J. Katerberg)
3/21/19 RESPONSE filed by Appellants Mr. Patrick
J. Collins, Mr. William M. Hitchcock and Mr.
Marcus J. Liotta to the 28j Letter filed by Appellees Federal Housing Finance Agency and
Joseph M. Otting, Acting Director of the Federal Housing Finance Agency Date of Service:
03/21/2019 via email—Attorney for Appellants:
Barnes, Cooper, Flores, Patterson, Thompson;
Attorney for Amici Curiae: Bayne, Mapes,
Nelson, Wydra; Attorney for Appellees:

16
DATE

PROCEEDINGS

Cayne, Hoffman, Katerberg, Mooppan, Phillips, Sinzdak, Stern, Varma, Wright [17-20364]
(David H. Thompson)
* * * * *
7/11/19 SUPPLEMENTAL AUTHORITIES (FRAP
28j) FILED by Appellants Mr. Patrick J. Collins, Mr. William M. Hitchcock and Mr. Marcus J. Liotta Date of Service: 07/11/2019 via
email—Attorney for Appellants:
Barnes,
Cooper, Flores, Patterson, Thompson; Attorney for Amici Curiae: Bayne, Mapes, Nelson, Wydra; Attorney for Appellees: Cayne,
Hoffman, Katerberg, Mooppan, Phillips, Sinzdak, Stern, Varma, Wright [17-20364] (David
H. Thompson)
* * * * *
7/16/19 RESPONSE filed by Appellees Mark A. Calabria, Director of the Federal Housing Finance Agency and Federal Housing Finance
Agency to the 28j Letter filed by Appellants
Mr. Patrick J. Collins, Mr. William M. Hitchcock and Mr. Marcus J. Liotta Date of Service:
07/16/2019 via email—Attorney for Appellants:
Barnes, Cooper, Flores, Patterson, Thompson;
Attorney for Amici Curiae: Bayne, Mapes,
Nelson, Wydra; Attorney for Appellees:
Cayne, Hoffman, Katerberg, Mooppan, Phillips, Sinzdak, Stern, Varma, Wright [17-20364]
(Robert J. Katerberg)

17
DATE

9/6/19

9/6/19

PROCEEDINGS

PUBLISHED OPINION FILED. [17-20364
Affirmed in Part, Reversed in Part and Remanded] Judge: DRW, Judge: CH, Judge:
SKD, Judge: ASO, Judge: SAH, Judge:
GJC Mandate issue date is 10/29/2019
[17-20364] (This opinion includes URL material that is archived by the Fifth Circuit Court
of Appeals Library, and made available at
http://www.lb5.uscourts.gov/ArchivedURLS/.)
(DTG)
JUDGMENT ENTERED AND FILED.
Costs Taxed Against: Each party bear its
own costs. [17-20364] (DTG)

* * * * *
10/29/19 MANDATE ISSUED. Mandate issue date
satisfied. [17-20364] (CAG)
*

*

*

*

*

18
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
(HOUSTON)

Docket No. 4:16cv3113
PATRICK J. COLLINS; MARCUS J. LIOTTA;
WILLIAM M. HITCHCOCK, PLAINTIFFS
v.
SECRETARY JACOB J. LEW; DEPARTMENT OF THE
TREASURY, FEDERAL HOUSING FINANCE AGENCY;
MELVIN L. WATT, DEFENDANTS
DOCKET ENTRIES
DATE

10/20/16

1/9/17

DOCKET
NUMBER

1

23

PROCEEDINGS

COMPLAINT against All Defendants (Filing fee $ 400 receipt number 0541-17405638) filed by Patrick J Collins, Marcus J. Liotta,
William M. Hitchcock. (Attachments: # 1 Civil Cover Sheet)
(Flores,
Charles)
(Entered:
10/20/2016)
* * * * *
MOTION to Dismiss by Federal
Housing Finance Agency, Melvin
L. Watt, filed. Motion Docket
Date 1/30/2017.
(Attachments:
# 1 Proposed Order) (Dameris,
Thad) (Entered: 01/09/2017)

19
DATE

DOCKET
NUMBER

1/9/17

24

1/9/17

25

1/9/17

26

2/9/17

32

PROCEEDINGS

MEMORANDUM In Support of
Motion to Dismiss re: 23 MOTION to Dismiss by Federal
Housing Finance Agency, Melvin
L. Watt, filed.
(Attachments:
# 1 Exhibit A, # 2 Exhibit B, # 3
Exhibit C, # 4 Exhibit D, # 5 Exhibit E, # 6 Exhibit F, # 7 Exhibit
G) (Dameris, Thad) (Entered:
01/09/2017)
MOTION to Dismiss by Department of the Treasury, Jacob J.
Lew, filed. Motion Docket Date
1/30/2017. (Attachments: # 1
Proposed Order) (Zimpleman,
Thomas) (Entered: 01/09/2017)
MEMORANDUM in Support re:
25 MOTION to Dismiss by Department of the Treasury, Jacob J.
Lew, filed. (Attachments: # 1
Exhibit A, # 2 Exhibit B, # 3 Exhibit C, # 4 Exhibit D) (Zimpleman,
Thomas)
(Entered:
01/09/2017)
* * * * *
RESPONSE in Opposition to 23
MOTION to Dismiss, 25 MOTION
to Dismiss, filed by Patrick J Collins, William M. Hitchcock, Marcus J. Liotta. (Attachments: #
1 Appendix, # 2 Proposed Order)

20
DATE

2/9/17

DOCKET
NUMBER

33

2/27/17

35

2/27/17

36

2/27/17

37

PROCEEDINGS

(Flores,
Charles)
(Entered:
02/09/2017)
MOTION for Summary Judgment
on Their Constitutional Claim by
Patrick J Collins, William M.
Hitchcock, Marcus J. Liotta, filed.
Motion Docket Date 3/2/2017.
(Flores,
Charles)
(Entered:
02/09/2017)
* * * * *
Cross MOTION for Summary
Judgment by Federal Housing Finance Agency, Melvin L. Watt,
filed.
Motion
Docket
Date
3/20/2017. (Dameris, Thad) (Entered: 02/27/2017)
MEMORANDUM and Response
re: 33 MOTION for Summary
Judgment on Their Constitutional
Claim, 35 Cross MOTION for
Summary Judgment by Federal
Housing Finance Agency, Melvin
L. Watt, filed.
(Attachments:
# 1 Appendix) (Dameris, Thad)
(Entered: 02/27/2017)
REPLY in Support of 23 MOTION
to Dismiss, filed by Federal Housing Finance Agency, Melvin L.
Watt. (Attachments: # 1 Appendix) (Dameris, Thad) (Entered: 02/27/2017)

21
DATE

DOCKET
NUMBER

2/27/17

38

3/20/17

3/21/17

4/3/17

41

45

48

PROCEEDINGS

REPLY in Support of 25 MOTION
to Dismiss, filed by Department of
the Treasury, Jacob J. Lew.
(Kishore, Deepthy) (Entered:
02/27/2017)
* * * * *
REPLY in Support of 33 MOTION
for Summary Judgment on Their
Constitutional Claim, 35 Cross
MOTION for Summary Judgment, filed by Patrick J Collins,
William M. Hitchcock, Marcus J.
Liotta. (Attachments: # 1 Exhibit A) (Flores, Charles) (Entered: 03/20/2017)
* * * * *
SURREPLY to 23 MOTION to
Dismiss, 25 MOTION to Dismiss,
filed by Patrick J Collins, William
M. Hitchcock, Marcus J. Liotta.
(Attachments: # 1 Exhibit A)
(Flores,
Charles)
(Entered:
03/21/2017)
* * * * *
RESPONSE to 45 Surreply to Motion Concerning the D.C. Circuit’s
Perry Capital Decision, filed by
Department of the Treasury, Federal Housing Finance Agency, Jacob J. Lew, Melvin L. Watt.

22
DATE

DOCKET
NUMBER

4/3/17

49

4/10/17

50

4/13/17

51

5/22/17

52

5/22/17

53

5/25/17

54

PROCEEDINGS

(Dameris,
Thad)
(Entered:
04/03/2017)
REPLY in Support of 35 Cross
MOTION for Summary Judgment, filed by Federal Housing Finance Agency, Melvin L. Watt.
(Dameris,
Thad)
(Entered:
04/03/2017)
NOTICE of Supplemental Authority by Patrick J Collins, William
M. Hitchcock, Marcus J. Liotta,
filed. (Attachments: # 1 Exhibit A) (Flores, Charles) (Entered: 04/10/2017)
RESPONSE to 50 Notice (Other)
of Supplemental Authority, filed
by Federal Housing Finance
Agency, Melvin L. Watt. (Dameris,
Thad) (Entered: 04/13/2017)
MEMORANDUM AND ORDER
(Signed by Judge Nancy F Atlas)
Parties notified. (sashabranner,
4) (Entered: 05/22/2017)
FINAL JUDGMENT. Case terminated on 5/22/2017 (Signed by
Judge Nancy F Atlas) Parties notified.
(sashabranner, 4) (Entered: 05/22/2017)
NOTICE OF APPEAL to US
Court of Appeals for the Fifth Cir-

23
DATE

DOCKET
NUMBER

PROCEEDINGS

cuit re: 52 Memorandum and Order, 53 Final Judgment by Patrick
J Collins, William M. Hitchcock,
Marcus J. Liotta (Filing fee $ 505,
receipt number 0541-18424602),
filed.
(Flores, Charles) (Entered: 05/25/2017)
*

*

*

*

*

24
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION

J. PATRICK COLLINS, MARCUS J. LIOTTA,
AND WILLIAM M. HITCHCOCK , PLAINTIFFS
v.
THE FEDERAL HOUSING FINANCE AGENCY,
IN ITS CAPACITY AS CONSERVATOR OF THE FEDERAL
NATIONAL MORTGAGE ASSOCIATION AND THE
FEDERAL HOME LOAN MORTGAGE CORPORATION,
MELVIN L. WATT, IN HIS OFFICIAL CAPACITY AS
DIRECTOR OF THE FEDERAL HOUSING FINANCE
AGENCY, THE DEPARTMENT OF THE TREASURY,
AND JACOB J. LEW, IN HIS OFFICIAL CAPACITY AS
SECRETARY OF THE TREASURY, DEFENDANTS
Filed: Oct. 20, 2016
PLAINTIFFS’ COMPLAINT FOR DECLARATORY
AND INJUNCTIVE RELIEF

Plaintiffs J. Patrick Collins, Marcus J. Liotta, and
William M. Hitchcock (“Plaintiffs”), by and through
their undersigned counsel, hereby allege as follows:
I.
INTRODUCTION

1.
In August 2012, at a time when the housing
market was recovering from the financial crisis and the
Federal National Mortgage Association and the Federal
Home Loan Mortgage Corporation (respectively, “Fannie” and “Freddie,” and, together, the “Companies”)

25
had returned to stable profitability, the federal government took for itself the entire value of the rights held by
Plaintiffs and Fannie’s and Freddie’s other private shareholders by forcing these publicly-traded, shareholderowned Companies to turn over their entire net worth
(i.e., all contributed capital by shareholders, all retained
earnings, and all future profits), less a small and diminishing capital reserve, to the federal government on a
quarterly basis forever—an action the government called
the “Net Worth Sweep” and that effectively nationalizes
the Companies. Plaintiffs bring this action to put a
stop to the federal government’s naked, unauthorized,
and ongoing expropriation of private property rights.
2.
Fannie and Freddie are two of the largest privately owned insurance companies in the world. They
are not banks. Unlike the big banks, Fannie and Freddie did not commit any consumer fraud in the run-up to
the financial crisis. The Companies do not originate
mortgages and they do not deal directly with individual
homeowners. Instead, Fannie and Freddie insure trillions of dollars of mortgages and provide essential liquidity to the residential mortgage market. The Companies have helped tens of millions of American families
buy, rent, or refinance homes even during the toughest
economic times when banks and other lenders shun
mortgage risk. Fannie and Freddie operate for profit,
and their debt and equity securities are privately owned
and publicly traded. The Companies’ shareholders include community banks, charitable foundations, mutual
funds, insurance companies, pension funds, and countless individuals, including Plaintiffs.
3.
During the 2008 financial crisis, Fannie and Freddie helped save America’s home mortgage system and

26
resuscitated our national economy by continuing to provide liquidity when credit and insurance markets froze
solid. Among other things, federal regulators encouraged the Companies to initiate massive purchases of
home mortgages and mortgage bonds to stem declines
in those markets and alleviate pressures on the balance
sheets of private firms, particularly overburdened banks.
Throughout the financial crisis, Fannie and Freddie
were capable of meeting all of their obligations to insureds and creditors and were capable of absorbing any
losses that they might reasonably incur as a result of the
downturn in the financial markets. As mortgage insurers, Fannie and Freddie are designed to generate ample
cash to cover their operating expenses—and indeed this
was the case for the Companies throughout the financial
crisis. In contrast to other market participants, the
Companies took a relatively conservative approach to
investing in mortgages during the national run up in
home prices from 2004 to 2007. As a result, the Companies (i) experienced substantially lower mark-to-market
credit losses during the financial crisis than other mortgage insurers, (ii) were never in financial distress, and
(iii) remained in a comparatively strong financial condition. Indeed, the Companies’ ability to pay any outstanding claims—a fundamental principle for all insurers —was
never in doubt. Despite the Companies’ relative financial health, the Department of the Treasury (“Treasury”)
implemented a deliberate strategy to seize the Companies and operate them for the exclusive benefit of the
federal government.
4.
In July 2008, Congress enacted the Housing
and Economic Recovery Act of 2008 (“HERA”). HERA
created the Federal Housing Finance Agency (“FHFA”)

27
(Treasury and FHFA are sometimes collectively referred to herein as the “Agencies”) to replace Fannie’s
and Freddie’s prior regulator and authorized FHFA to
appoint itself as conservator or receiver of the Companies in certain statutorily specified circumstances.
Under HERA, FHFA is an independent agency headed
by a single Director who is only removable by the President for cause. As conservator, HERA charges FHFA
to rehabilitate Fannie and Freddie by taking action to
put the Companies in a sound and solvent condition
while preserving and conserving their assets. Only as
receiver does HERA authorize FHFA to wind up the affairs of Fannie and Freddie and liquidate them. HERA’s
distinctions between the authorities granted to conservators and receivers are consistent with longstanding laws
and practices of financial regulation.
5.
HERA also granted Treasury temporary authority to invest in the Companies’ stock until December
31, 2009. Congress made clear that in exercising this
authority Treasury was required to consider the “need
to maintain [Fannie’s and Freddie’s] status as . . .
private, shareholder-owned compan[ies].”
6.
These limitations on FHFA’s and Treasury’s authority make clear that Congress did not intend for the
Agencies to operate Fannie and Freddie in perpetuity,
and certainly not for the exclusive financial benefit of
the federal government.
7.
On September 6, 2008—despite prior public
statements assuring investors that the Companies were
in sound financial shape—FHFA abruptly forced Fannie and Freddie into conservatorship. Under HERA,
and as FHFA confirmed in its public statements beginning in September 2008, conservatorship is necessarily

28
temporary, and FHFA must conduct the conservatorships with the objective of returning the Companies to
normal business operations. At the time, neither of the
Companies was experiencing a liquidity crisis, nor did
they suffer from a short-term fall in operating revenue.
Moreover, the Companies had access to separate credit
facilities at the Federal Reserve and at the Treasury,
and the Companies held hundreds of billions of dollars
in unencumbered assets that could be pledged as collateral if necessary. Nevertheless, FHFA forced the Companies into conservatorship to further the government’s
unspoken policy objectives. Indeed, a receivership
that liquidates the Companies would have more economic value to the private shareholders than the conservatorship as it was structured and operated in practice.
8.
Immediately after the Companies were forced
into conservatorship, Treasury exercised its temporary
authority under HERA to enter into agreements with
FHFA to purchase securities of Fannie and Freddie
(“Preferred Stock Purchase Agreements,” “Purchase
Agreements,” or “PSPAs”) in lieu of permitting the
Companies to access the available credit facilities. Under these PSPAs, Treasury received an entirely new
class of securities in the Companies, known as Senior
Preferred Stock (“Government Stock”), which came
with very favorable terms for Treasury. At the outset,
Treasury received $1 billion of Government Stock (via
one million shares) in each Company and warrants to acquire 79.9% of the common stock of the Companies at a
nominal price in return for its commitment to acquire
Government Stock in the future.
9.
The PSPAs served a function similar to the
credit facilities described above, but carried much more

29
punitive terms. If Treasury acquired additional Government Stock, such purchases would not add to the one
million shares held by Treasury, but would instead increase the liquidation preference of Treasury’s stock—
the economic equivalent of purchases of stock. The
purpose and effect of this arrangement was to attempt
to evade the sunset of Treasury’s purchase authority in
December 2009.
10. The Government Stock entitled Treasury to collect dividends at an annualized rate of 10% if paid in cash
or 12% if paid in kind. The Government Stock was entitled to receive cash dividends from each Company only
to the extent declared by the Board of Directors “in its
sole discretion, from funds legally available therefor.”
If the Companies did not wish to—or legally could not—
pay a cash dividend, the unpaid dividends on the Government Stock could be capitalized (or paid “in kind”) by
increasing the liquidation preference of the outstanding
Government Stock—an option Treasury publicly acknowledged in the fact sheet it released upon entering into the
PSPAs. Therefore, the Companies were never required
to pay cash dividends on Government Stock. There
was never any threat that the Companies would become
insolvent by virtue of making cash dividend payments,
both because dividends could be paid with stock and because state law (which the Companies are subject to)
prohibits the payment of dividends if it would render a
company insolvent. Unlike most preferred stock, which
imposes temporal limits on a company’s ability to exercise a payment in kind option, the PSPAs specifically allowed the Companies to utilize this mechanism throughout the life of the agreements, thereby foreclosing any
possibility that they would exhaust Treasury’s funding

30
commitment because of a need to make a dividend payment to Treasury.
11. The Government Stock diluted, but did not eliminate, the economic interests of the Companies’ private
shareholders. The warrants to purchase 79.9% of the
Companies’ common stock gave Treasury “upside” via
economic participation in the Companies’ profitability,
but this upside would be shared with preferred shareholders (who had to be paid before any payment could
be made on common stock purchased with Treasury’s
warrants) and private common shareholders (who retained rights to 20.1% of the Companies’ residual value).
James Lockhart, the Director of FHFA, accordingly assured Congress shortly after imposition of the conservatorship that Fannie’s and Freddie’s “shareholders are
still in place; both the preferred and common shareholders have an economic interest in the companies” and
that “going forward there may be some value” in that
interest.
12. Under FHFA’s supervision, the Companies were
forced to excessively write down the value of their assets, primarily due to FHFA’s wildly pessimistic assumptions about potential future losses over many years.
Despite the Companies’ objections, FHFA flagrantly
disregarded standard insurance company accounting
principles and caused the Companies to incur substantial non-cash accounting losses in the form of gargantuan loan loss provisions. To be clear, tens of billions of
dollars of these provisions—processed immediately by the
Companies as expenses—were completely unnecessary
since the potential loan losses never materialized into
actual losses. Nonetheless, by June 2012, the Agencies
had forced Fannie and Freddie to issue $161 billion in

31
Government Stock to make up for the balance-sheet deficits caused by the Agencies’ unrealistic and overly pessimistic accounting decisions, even though there was no
indication that the Companies’ actual cash expenses
could not be met by their cash receipts. The Companies were further forced to issue an additional $26 billion
of Government Stock so that Fannie and Freddie would
be able to pay cash dividends to Treasury even though,
as explained above, the Companies were never required
to pay cash dividends. Finally, because (i) the Companies were forced to issue Government Stock to Treasury
that they did not need to continue operations and (ii) the
structure of Treasury’s financial support did not permit
the Companies to repay and redeem the Government
Stock outstanding, the amount of the dividends owed on
the Government Stock was artificially—and permanently
—inflated.
13. As a result of these transactions, Treasury
amassed a total of $189 billion in Government Stock.
But based on the Companies’ performance in the second
quarter of 2012, it was apparent that there was still
value in the Companies’ private shares. The Agencies’
attempt to drown the Companies’ other shareholders by
extending to the Companies a concrete “life preserver”
had failed. By that time, the Companies were thriving
and could easily pay 10% annualized cash dividends on
the Government Stock without drawing additional capital from Treasury. And based on the improving housing market and the high quality of the newer loans
backed by the Companies, it was apparent that they had
returned to stable profitability. Indeed, the Agencies
had specific information from the Companies demonstrating that this return to profitability was inevitable
because the Companies would soon be reversing many

32
of the non-cash accounting losses they had incurred under FHFA’s supervision. In light of that information
and the broad-based recovery in the housing industry
that had occurred by the middle of 2012, the Agencies
fully understood that the Companies were on the precipice of generating huge profits, far in excess of the dividends owed on the Government Stock. Moreover,
when the Net Worth Sweep was suddenly imposed on
the Companies in August 2012, the financial crisis had
clearly passed and there was absolutely no need for
“drastic emergency action” by the Agencies.
14. The Agencies were not content to share the
value of the Companies with private shareholders and
were committed to ensuring that, unlike all other companies that received financial assistance from the federal government during the financial crisis, Fannie and
Freddie would be operated for the exclusive benefit of
the federal government. Indeed, unbeknownst to the
public, Treasury had secretly resolved “to ensure existing common equity holders will not have access to any
positive earnings from the [Companies] in the future.”
By the middle of 2012, however, it was apparent that
even the large amount of Government Stock outstanding
—the proverbial “concrete life preserver”—would not
achieve this unlawful policy goal.
15. Therefore, on August 17, 2012, just days after
the Companies announced their record-breaking quarterly earnings, the Agencies unilaterally imposed the
Net Worth Sweep to expropriate for the federal government the value of Fannie and Freddie shares held by
private investors. Treasury itself said that the Net
Worth Sweep was intended to ensure that “every dollar
of earnings that Fannie Mae and Freddie Mac generate

33
will benefit taxpayers.” With the stroke of a pen, the
Agencies had nationalized the Companies and taken all
the value of the Companies for Treasury, thereby depriving the private shareholders of all their economic
rights, well in excess of the authority granted to the
FHFA as conservator. Indeed, under the Net Worth
Sweep private shareholders are guaranteed never to receive any return of their investments or any return on
their investments (i.e., in the form of dividends). No
equivalent wipeout of private shareholder investments
was imposed on other financial institutions that received
assistance during the 2008 financial crisis, much less
four years after that crisis was over.
16. The Companies received no incremental investment by Treasury or other meaningful consideration in
return for the Net Worth Sweep, which restricts them
to a small and diminishing maximum capital level above
which any profits they generate must be paid over to
Treasury. All of this was in blatant violation of “the
path laid out under HERA,” which, as even Treasury
acknowledged internally, was for FHFA to rehabilitate
Fannie and Freddie, thus allowing them to “becom[e]
adequately capitalized” and “exit conservatorship as
private companies.”
17. Despite the transparent fact that the Net Worth
Sweep was designed to expropriate private property
rights, the government has claimed both in public and
before the courts that the Net Worth Sweep was necessary to prevent the Companies from falling into a “death
spiral” in which the Companies’ increasing dividend obligations to Treasury would consume Treasury’s remaining funding commitment to the Companies. For

34
example, on the date the Net Worth Sweep was announced FHFA publicly stated that “the continued payment of a fixed dividend could have called into question
the adequacy of the financial commitment contained in
the PSPAs.” And in litigation in the Court of Federal
Claims, Fairholme Funds, Inc. v. United States, No. 13465C (the “CFC case”), the Government has asserted
that the Net Worth Sweep was necessary because Fannie and Freddie “found themselves in a death spiral.”
This made-for-litigation defense narrative is wholly unsubstantiated.
18. Defendants’ factual account for the Net Worth
Sweep is misleading and belied by inconvenient truths.
As an initial matter, the government did not impose the
Net Worth Sweep at a time when the Companies were
struggling to generate enough income to pay the dividend on Treasury’s stock. Rather, the Net Worth Sweep
was imposed just days after the Companies disclosed
that they had returned to stable profitability and had
earned several billion dollars more than was necessary
to pay the Treasury dividend in cash. And it was by then
virtually inevitable, thanks to a strengthening housing
market and the improving quality of loans guaranteed
by the Companies, that they would soon reverse the noncash accounting adjustments that were responsible for
the great majority of the losses that they had experienced in the preceding years, thereby generating massive profits. More importantly, quite apart from the
Companies’ improved financial outlook, the Companies
were contractually protected from a scenario in which
their dividend obligation to Treasury could cause a death
spiral: the Companies were entitled under the PSPAs
to pay dividends to Treasury “in kind,” with additional
senior preferred stock, rather than in cash.

35
19. Given these facts, it is clear from the government’s false death spiral narrative either that the Agencies that adopted the Net Worth Sweep were incompetent or that worry about the Companies exhausting
Treasury’s funding commitment was not the true reason
for the Net Worth Sweep. Materials produced in discovery in the CFC case rule out incompetence. Indeed,
that discovery has revealed that the Net Worth Sweep
was adopted not out of a concern that the Companies
would earn too little, but rather out of concern that the
Companies would make too much and thus would complicate the Administration’s plans to keep Fannie and
Freddie in perpetual conservatorship and to prevent
their private shareholders from seeing any return on
their investments. As a senior White House official
stated in an email to a senior Treasury official on the day
the Net Worth Sweep was announced, “we’ve closed off
[the] possibility that [Fannie and Freddie] ever[] go
(pretend) private again.” That same official stated in
another email that Peter Wallison of the American Enterprise Institute, who spoke with Bloomberg News
about the Net Worth Sweep, was “exactly right on substance and intent” when he said that “[t]he most significant issue here is whether Fannie and Freddie will come
back to life because their profits will enable them to recapitalize themselves and then it will look as though it is
feasible for them to return as private companies backed
by the government. . . . What the Treasury Department seems to be doing here . . . is to deprive them of
all their capital so that doesn’t happen.” An internal
Treasury document dated August 16, 2012, expressed the
same sentiment: “By taking all of their profits going forward, we are making clear that the GSEs will not ever be
allowed to return to profitable entities. . . . ”

36
20. Extensive evidence supports this understanding of the purpose and effect of the Net Worth Sweep.
Perhaps the most striking relates to a meeting that occurred on August 9, 2012, between senior Treasury officials, including Under Secretary Mary Miller, and Fannie’s executive management team. At the August 9
meeting, Treasury was given very specific, non-public
information about Fannie’s deferred tax assets: Fannie CFO Susan McFarland testified in a deposition in
the CFC case that she told Under Secretary Miller that
release of the valuation allowance on her company’s deferred tax assets likely would happen in mid-2013 and
that it likely would generate profits in the range of $50
billion—a forecast that proved remarkably accurate.
It thus is no surprise that Ms. McFarland also testified
that Fannie was not on the precipice of any purported
“death spiral” when the Net Worth Sweep was announced in mid-August 2012.
21. The Agencies knew in advance of Treasury’s
August 9 meeting with Fannie that the company was
likely entering a period of “golden years” of earnings.
In July 2012, the minutes of a Fannie executive management meeting during which that precise sentiment was
expressed were circulated broadly within FHFA, including to Acting Director Edward DeMarco. Projections attached to those minutes showed that Fannie expected that its dividend payments to Treasury would exceed its draws under the PSPAs by 2020 and, more important for the implausible “death spiral” narrative, that
over $115 billion of Treasury’s commitment would remain after 2022. Fannie management shared similar
projections with Treasury in advance of the August 9
meeting described above.

37
22. Fannie’s July 2012 projections did not account
for reversal of the Company’s massive deferred tax assets valuation allowance.
As Ms. McFarland predicted, that item alone would add over $50 billion dollars
to Fannie’s balance sheet. Treasury was keenly aware
of this impending addition to earnings. Indeed, by late
May 2012 Treasury was privately discussing with its
consultant the topic of returning the deferred tax asset
to Fannie’s and Freddie’s balance sheets, and a key item
on Treasury’s agenda for the August 9 meeting was how
quickly Fannie forecasted releasing its reserves.
23. Treasury’s knowledge of Fannie’s expectations
for its deferred tax assets wholly discredits the declaration FHFA submitted to another district court asserting
that “neither the Conservator nor Treasury envisioned
at the time of the Third Amendment that Fannie Mae’s
valuation allowance on its deferred tax assets would be
reversed in early 2013, resulting in a sudden and substantial increase in Fannie Mae’s net worth, which was
paid to Treasury in mid-2013 by virtue of the net worth
dividend.” That declaration was signed under penalty
of perjury by Mario Ugoletti, who participated in the
creation and implementation of the PSPAs while at
Treasury, later moved to FHFA, and at the time of the
Net Worth Sweep served as the principal liaison with
Treasury concerning the PSPAs. Yet in his deposition
in the CFC case, Mr. Ugoletti expressly contradicted his
sworn declaration, disclaiming any knowledge at the
time of the Net Worth Sweep of Treasury’s understanding of the deferred tax asset issue, and he also denied
knowing what anyone else at FHFA thought about the
issue at that time. This evidence shows that Mr. Ugo-

38
letti’s earlier declaration is unreliable and that Defendants’ public explanation for the Net Worth Sweep is inaccurate.
24. The Net Worth Sweep was announced just
eight days after Treasury’s August 9, 2012, meeting with
Fannie—and internal email traffic indicates that Treasury was making a “renewed push” to finalize the Net
Worth Sweep the same day it met with Fannie’s management. In light of all of this, it is utterly implausible
for the Agencies to claim that there was imminent concern of a “death spiral” when the Net Worth Sweep was
announced. Indeed, in an internal document authored
the day before the sweep was announced, Treasury specifically identified the Companies’ improving operating
performance and the potential for near-term earnings to
exceed the 10% dividend as reasons for imposing the Net
Worth Sweep.
25. The Net Worth Sweep has resulted in a massive
and unprecedented financial windfall for the federal
government at the expense of the Companies’ private
shareholders. From the fourth quarter of 2012, the first
fiscal quarter subject to the Net Worth Sweep, through
the second quarter of 2016, the most recently reported
fiscal quarter, Fannie and Freddie generated $195 billion in comprehensive income. But rather than using
those profits to prudently build capital reserves and prepare to exit conservatorship, Fannie and Freddie instead have been forced to pay $195 billion in “dividends”
to the federal government under the Net Worth Sweep
—$124 billion more than the government would have received under the original PSPAs. Adding Net Worth
Sweep dividends to the dividends Fannie and Freddie
had already paid, Treasury has now recouped a total of

39
over $250 billion—$63 billion more than it invested in the
Companies. Yet, according to the Agencies, the amount
of outstanding Government Stock remains firmly fixed
at $189 billion, and the Agencies continue to insist that
Treasury has the right to all of Fannie’s and Freddie’s
future earnings in perpetuity.
26. Since the Net Worth Sweep was imposed, the
Companies’ dividend payments to Treasury have so far
exceeded the 10% cash dividend they paid under the
prior arrangement that, had they instead used the excess Net Worth Sweep dividends to pay down the principal of Treasury’s investment, Treasury’s remaining investment would today be less than $20 billion. In other
words, the Companies have been so immensely profitable in recent years that they could have continued to pay
a 10% cash divided on Treasury’s investment and still
had sufficient funds left over to retire most of Treasury’s senior preferred stock. The Agencies anticipated
these profits, and they purposely adopted the Net
Worth Sweep so that those monies would be transferred
to Treasury’s coffers and not used to rebuild capital at
the Companies.
27. The Net Worth Sweep blatantly transgresses
the limits Congress placed on FHFA’s and Treasury’s
authority. As conservator of Fannie and Freddie,
FHFA is charged with rehabilitating the Companies
with the goal of returning them to private control. The
Net Worth Sweep guarantees that this never can be accomplished. Indeed, contrary to its statutory requirements and statements that it made when the conservatorship was initiated, FHFA has now indicated that it
will operate Fannie and Freddie for the exclusive bene-

40
fit of the government until Congress adopts housing finance legislation. Holding the Companies hostage in a
perpetual conservatorship while awaiting potential legislative action was never an option for FHFA contemplated under HERA. And Treasury’s decision to exchange its existing equity stake in the Companies for the
new and different equity stake granted to it by the Net
Worth Sweep years after its temporary authority to acquire the Companies’ stock had expired is a direct affront to HERA’s plain requirements.
28. By entering the Net Worth Sweep, FHFA violated HERA in at least four ways. First, FHFA failed
to act as a “conservator”—indeed it has acted as an anticonservator—because no conservator is allowed to brazenly confiscate billions of dollars from companies under
its care and then funnel all that cash to a sister federal
agency. Second, FHFA is required to put Fannie and
Freddie in a sound and solvent condition, but the Net
Worth Sweep perversely pushes the Companies to the
edge of insolvency by stripping the capital out of the
Companies on a quarterly basis. Third, FHFA is required to preserve and conserve Fannie’s and Freddie’s
assets, but the Net Worth Sweep requires the dissipation of assets by forcing the Companies to pay their net
worth to Treasury every three months. Fourth, FHFA
is charged with rehabilitating Fannie and Freddie and
seeking to return them to private control, but the Net
Worth Sweep has the intent and effect of making any
such outcome impossible.
29. FHFA’s duties as conservator are similar to
those of a physician—to heal, rehabilitate, and always
act with a view to what is best for those in its care.
FHFA chose instead to slowly poison its patients; first

41
by ordering the Companies to make accounting decisions that gratuitously ran up their dividend obligations
to Treasury, and later by compelling the Companies to
simply turn over their entire net worth—all existing
capital and future profits—to Treasury in perpetuity.
These are not the actions of a conservator.
30. FHFA’s adoption of the Net Worth Sweep was
also unlawful for an even more fundamental reason:
the Constitution’s separation of powers does not permit
an independent agency with far-reaching powers such as
FHFA to be headed by a single Director rather than a
multi-member Board. HERA’s concentration of power
in one person who is only removable by the President
for cause is unconstitutional, and the Net Worth Sweep
must be vacated because it was adopted by this unconstitutionally structured agency.
31. Treasury’s violation of HERA is straightforward: the Net Worth Sweep, by changing the fundamental economic characteristics of Treasury’s investment, created new securities, and HERA explicitly prohibited Treasury from acquiring Fannie and Freddie securities in 2012. After 2009, Congress authorized Treasury only to “hold, exercise any rights received in connection with, or sell” the Companies’ securities, and the
Net Worth Sweep does not fit into any of these carefully
circumscribed categories. 12 U.S.C. § 1719(g)(2)(D).
32. This Court must set aside the Net Worth Sweep
and restore to Plaintiffs the property rights the federal
government has unlawfully expropriated for itself.

42
II.
JURISDICTION AND VENUE

33. This action arises under the Administrative
Procedure Act (“APA”), 5 U.S.C. §§ 551-706, HERA,
PUB. L. NO. 110-289, 122 Stat. 2654 (2008) (codified at 12
U.S.C. §§ 1455, 1719, 4617), and the U.S. Constitution.
The Court has subject-matter jurisdiction under 28
U.S.C. § 1331. The Court is authorized to issue the relief sought pursuant to 5 U.S.C. §§ 702, 705, and 706.
34. Venue is proper in this Court under 28 U.S.C.
§ 1391(e)(1)(C) because this is an action against officers
and agencies of the United States, Plaintiffs reside in
this judicial district, and no real property is involved in
the action.
III.
PARTIES

35. Plaintiff J. Patrick Collins is a citizen of the
United States and a resident of Montgomery County,
Texas. Mr. Collins has continuously owned shares of
Freddie’s preferred stock since before the Net Worth
Sweep was announced in 2012 and has continuously
owned shares of Fannie’s preferred stock since before
the conservatorship was imposed in 2008.
36. Plaintiff Marcus J. Liotta is a citizen of the
United States and a resident of Dallas County, Texas.
Mr. Liotta owns shares of common stock in both Companies.
37. Plaintiff William M. Hitchcock is a citizen of the
United States and a resident of Harris County, Texas.
Mr. Hitchcock owns shares of Fannie’s preferred stock.

43
38. Defendant FHFA is, and was at all relevant
times, an independent agency of the United States Government headed by a single Director or acting Director
and subject to the APA. See 5 U.S.C. § 551(1). FHFA
was created on July 30, 2008, pursuant to HERA.
FHFA is located at Constitution Center, 400 7th Street,
S.W., Washington, D.C. 20024.
39. Defendant Melvin L. Watt is the Director of
FHFA. His official address is Constitution Center, 400
7th Street, S.W., Washington, D.C. 20024. He is being
sued in his official capacity. In that capacity, Director
Watt has overall responsibility for the operation and management of FHFA. Director Watt, in his official capacity, is therefore responsible for the conduct of FHFA
that is the subject of this Complaint and for the related
acts and omissions alleged herein.
40. Defendant Department of the Treasury is, and
was at all times relevant hereto, an executive agency of
the United States Government subject to the APA. See
5 U.S.C. § 551(1). Treasury is located at 1500 Pennsylvania Avenue, N.W., Washington, D.C. 20220.
41. Defendant Jacob J. Lew is the Secretary of the
Treasury. His official address is 1500 Pennsylvania Avenue, N.W., Washington, D.C. 20220. He is being sued in
his official capacity. In that capacity, Secretary Lew has
overall responsibility for the operation and management
of Treasury. Secretary Lew, in his official capacity, is
therefore responsible for the conduct of Treasury that
is the subject of this Complaint and for the related acts
and omissions alleged herein.

44
IV.
FACTUAL ALLEGATIONS
Fannie and Freddie

42. Fannie is a for-profit, stockholder-owned corporation organized and existing under the Federal National
Mortgage Act. Freddie is a for-profit, stockholderowned corporation organized and existing under the
Federal Home Loan Corporation Act. The Companies’
business includes purchasing and guaranteeing mortgages originated by private banks and bundling the
mortgages into mortgage-related securities that can be
sold to investors.
43. Fannie and Freddie are owned by private shareholders and their securities are publicly traded. Fannie was chartered by Congress in 1938 and originally operated as an agency of the Federal Government. In
1968, Congress reorganized Fannie into a for-profit corporation owned by private shareholders. Freddie was
established by Congress in 1970 as a wholly-owned subsidiary of the Federal Home Loan Bank System. In 1989,
Congress reorganized Freddie into a for-profit corporation owned by private shareholders.
44. Before being forced into conservatorship, both
Fannie and Freddie had issued common stock and several series of preferred stock that were marketed and
sold to community banks, insurance companies, and countless other institutional and individual investors. The
several series of preferred stock of the Companies are
in parity with each other with respect to their claims on
income (i.e., dividend payments) and claims on assets
(i.e., liquidation preference or redemption price), but
they have priority over the Companies’ common stock

45
for these purposes. The holders of common stock are
entitled to the residual economic value of the firms.
45. Prior to 2007, Fannie and Freddie were consistently profitable. In fact, Fannie had not reported a
full-year loss since 1985, and Freddie had never reported a full-year loss since becoming owned by private
shareholders. In addition, both Companies regularly
declared and paid dividends on their preferred and common stock.
Fannie and Freddie Are Forced into Conservatorship

46. The Companies were well-positioned to weather
the decline in home prices and financial turmoil of 2007
and 2008. While banks and other financial institutions
involved in the mortgage markets had heavily invested
in increasingly risky mortgages in the years leading up
to the financial crisis, Fannie and Freddie had taken a
more conservative approach that meant that the mortgages that they insured (primarily 30-year fixed rate
conforming mortgages) were far safer than those insured by the nation’s largest banks. And although both
Companies recorded losses in 2007 and the first two
quarters of 2008—losses that largely reflected a temporary decline in the market value of their holdings caused
by declining home prices—both Companies continued to
generate enough cash to easily pay their debts and retained billions of dollars of capital that could be used to
cover any future losses. Neither Company was in danger of insolvency. Indeed, during the summer of 2008,
both Treasury Secretary Henry Paulson and Office of
Federal Housing and Enterprise Oversight (“OFHEO”)
Director James Lockhart publicly stated that Fannie
and Freddie were financially healthy. For example, on
July 8, 2008, Director Lockhart told CNBC that “both of

46
these companies are adequately capitalized, which is our
highest criteria.” Two days later, on July 10, Secretary Paulson testified to the House Committee on Financial Services that Fannie’s and Freddie’s “regulator
has made clear that they are adequately capitalized.”
And on July 13, Director Lockhart issued a statement
emphasizing that “the Enterprises’ $95 billion in total
capital, their substantial cash and liquidity portfolios,
and their experienced management serve as strong supports for the Enterprises’ continued operations.”
47. Thanks to their healthy financial condition, the
Companies in mid-2008 had the capacity to raise additional capital through the financial markets. Indeed,
at this time Fannie had roughly $700 billion in unencumbered liquid assets that were available to be pledged as
collateral for purposes of raising capital, and it had identified a number of private investors who were prepared
to provide additional capital.
48. The Companies’ sound financial condition in the
weeks leading up to imposition of the conservatorships
is further illustrated by the decision by Fannie’s Board
of Directors to declare dividends on both its preferred
and common stock in August 2008 and by FHFA’s subsequent decision as conservator to direct Fannie to pay
those dividends out of cash available for distribution in
late September 2008. It is a fundamental principle of
corporate law that a company may not declare dividends
when it is insolvent, and dividends that a company improperly declares when insolvent may not be lawfully
paid. Fannie’s Board thus could not have lawfully declared dividends in August 2008 unless the Company
was solvent at that time, and the Board’s decision to declare those dividends showed its confidence that Fannie

47
was financially healthy. Furthermore, it is evident
that both FHFA and Treasury agreed that Fannie was
solvent when it declared dividends in August 2008 because, rather than halting or voiding the dividends that
the outgoing Fannie Board had declared, both agencies
publicly took the position that Fannie was legally obligated to pay them even after conservatorship was imposed in early September 2008.
49. Despite (or perhaps because of ) the Companies’
comparatively strong financial position amidst the crisis, the Agencies initiated a long-term policy of seeking
to seize control of Fannie and Freddie and operate them
for the exclusive benefit of the federal government. To
that end, as early as March 2008, Treasury was internally discussing “potential costs and benefits of nationalization” of the Companies. Around the same time, a
Treasury official was the off-the-record source for a
Barron’s article that inaccurately claimed that the Companies’ books overstated assets and understated liabilities.
50. During the summer of 2008, Treasury officials
promoted short-selling of the Companies’ stock by leaking word to the press that Treasury might seek to place
the Companies into conservatorship. On July 21, 2008,
Treasury Secretary Paulson personally delivered a similar message to a select group of investment managers
during a private meeting at Eton Park Capital Management. Although at odds with Treasury’s on-the-record
statements to the press, the leaks and tips had the intended effect of manipulating the market prices of the
Companies’ securities—driving down the Companies’
stock prices and creating a misperception among investors that the Companies were in financial distress.

48
51. Also during the summer of 2008, Congress passed
HERA, which established FHFA as the successor to
OFHEO, the Companies’ prior regulator. Unlike its
predecessor, FHFA is an “independent” agency, 12
U.S.C. § 4511(a), and it is headed by a single Director
who is only removable “for cause by the President,” id.
§ 4512(b)(2). Under HERA, FHFA enjoys “[g]eneral
supervisory and regulatory authority” over Fannie,
Freddie, and the Federal Home Loan Banks, 12 U.S.C.
§ 4511(b); 12 U.S.C. 4501 note—institutions that play a
vital role in the Nation’s housing sector by providing
more than $5.8 trillion in funding to U.S. mortgage markets and financial institutions. FHFA is thus the primary regulator for the U.S. housing sector, which is responsible for between 15% and 18% of annual Gross Domestic Product.
52. HERA authorized FHFA to place the Companies into either conservatorship or receivership under
certain statutorily prescribed and circumscribed conditions. In enacting HERA, Congress took FHFA’s conservatorship mission verbatim from the Federal Deposit
Insurance Act (“FDIA”), see 12 U.S.C. § 1821(d)(2)(D),
which itself incorporated a long history of financial supervision and rehabilitation of troubled entities under
common law. HERA and the FDIA, as well as the common law concept on which both statutes draw, treat conservatorship as a process designed to stabilize a troubled institution with the objective of returning it to normal business operations. Like any conservator, when
FHFA acts as a conservator under HERA it has a fiduciary duty to safeguard the interests of the Companies
and their shareholders.

49
53. According to HERA, FHFA “may, as conservator, take such action as may be—(i) necessary to put the
regulated entity in a sound and solvent condition, and
(ii) appropriate to carry on the business of the regulated
entity and preserve and conserve the assets and property of the regulated entity.” 12 U.S.C. § 4617(b)(2)(D).
Thus, as Mr. Ugoletti has testified, preserving and conserving the Companies’ assets is “a fundamental part of
conservatorship.” FHFA has likewise acknowledged
that “[t]he purpose of conservatorship is to preserve and
conserve each company’s assets and property and to put
the companies in a sound and solvent condition,” and
“[t]o fulfill the statutory mandate of conservator, FHFA
must follow governance and risk management practices
associated with private-sector disciplines.”
FHFA,
REPORT TO CONGRESS 2009 at i, 99 (May 25, 2010).
54. FHFA’s powers and duties as conservator must
be read in harmony with its regulatory duties, one of the
most important of which is “to ensure that [the Companies] operate[ ] in a safe and sound manner, including
maintenance of adequate capital.”
12 U.S.C.
4513(a)(1)(B) (emphasis added). Thus, whether acting
as conservator or regulator, FHFA is obligated to seek
to ensure that the Companies are in a sound financial
condition, and by definition, soundness includes maintaining adequate capital.
55. As FHFA has acknowledged, HERA requires
and mandates FHFA as conservator to preserve and
conserve Fannie’s and Freddie’s assets and to restore
them to a sound and solvent condition. FHFA 2009 Annual Report to Congress at 99 (May 25, 2010), http://goo.
gl/YOOgzC (“The statutory role of FHFA as conserva-

50
tor requires FHFA to take actions to preserve and conserve the assets of the Enterprises and restore them to
safety and soundness.”); FHFA Strategic Plan at 7
(Feb. 21, 2012), http://goo.gl/uXreKX. (acknowledging
“ ‘preserve and conserve’ mandate”). Indeed, former
Director Lockhart indicated in a written statement to
Congress that, “[a]s conservator, FHFA’s most important
goal is to preserve the assets of Fannie Mae and Freddie
Mac over the conservatorship period. That is our statutory responsibility.” The Present Condition and Future Status of Fannie Mae and Freddie Mac: Hearing
Before the H. Comm. on Fin. Servs., Subcomm. of Capital Markets, Ins. & Gov’t Sponsored Enters. 111th
Cong. (2009); see also FHFA, STRATEGIC PLAN 20092014, at 33, http://goo.gl/UjCxf6 (FHFA as conservator
“preserves and conserves the assets and property of the
Enterprises . . . and facilitates their financial stability and emergence from conservatorship.”); Letter
from Edward DeMarco, Acting Director, FHFA to Senators at 1 (Nov. 10, 2011), http://goo.gl/hbBe25 (“By law,
the conservatorships are intended to rehabilitate [Fannie and Freddie] as private firms.”).
56. Under HERA, conservatorship is a status distinct from receivership, with very different purposes,
responsibilities, and restrictions. When acting as a receiver, but not when acting as a conservator, FHFA is
authorized and obliged to “place the regulated entity in
liquidation and proceed to realize upon the assets of the
regulated entity.”
Id. § 4617(b)(2)(E).
The only
“post-conservatorship outcome[] . . . that FHFA
may implement today under existing law,” by contrast,
“is to reconstitute [Fannie and Freddie] under their current charters.” Letter from Edward J. DeMarco, Act-

51
ing Director, FHFA, to Chairmen and Ranking Members of the Senate Committee on Banking, Housing, and
Urban Affairs and to the House Committee on Financial
Services 7 (Feb. 2, 2010). In other words, receivership
is aimed at winding down a company’s affairs and liquidating its assets, while conservatorship aims to rehabilitate it and return it to normal operation. This distinction between the purposes and authorities of a receiver
and a conservator is a well-established tenet of financial
regulation and common law. In our nation’s history,
there has never been an example of a regulator forcing
a healthy, profitable company to remain captive in a perpetual conservatorship (in this instance, for almost eight
years) while facilitating the looting and plundering of
the company’s assets by another federal agency and
simultaneously avoiding the organized claims process of
a receivership.
57. In promulgating regulations governing its operations as conservator versus receiver of the Companies, FHFA specifically acknowledged the distinctions
in its statutory responsibilities as conservator and as receiver: “A conservator’s goal is to continue the operations of a regulated entity, rehabilitate it and return it
to a safe, sound and solvent condition.” 76 Fed. Reg. at
35,730. In contrast, when FHFA acts as a receiver, the
regulation specifically provides that “[t]he Agency, as
receiver, shall place the regulated entity in liquidation.
. . . ” 12 C.F.R. § 1237.3(b) (emphasis added). Consistent with this interpretation of HERA, a FHFA Advisory Bulletin describes “the conservator’s or receiver’s
powers and responsibilities” as including “in the case of
a conservator, to put the regulated entity in a sound and

52
solvent condition, and to carry on its business and preserve and conserve its assets, and in the case of a receiver, to liquidate the regulated entity.”
58. On September 6, 2008, FHFA directed the Companies’ boards to consent to conservatorship. Given
that the Companies were not in financial distress and
were in no danger of defaulting on their debts, the Companies’ directors were confronted with a Hobson’s choice:
face intense scrutiny from federal agencies for rejecting
conservatorship or submit to the demands of Treasury
and FHFA. The Agencies ultimately obtained the Companies’ consent by threatening to seize them if they did
not acquiesce and by informing them that the Agencies
had already selected new CEOs and had teams ready to
move in and take control.
59. In publicly announcing the conservatorship,
FHFA committed itself to operate Fannie and Freddie
as a fiduciary until they are stabilized. As FHFA acknowledged, the Companies’ stock remains outstanding
during conservatorship and “continue[s] to trade,” FHFA
Fact Sheet, Questions and Answers on Conservatorship
3, https://goo.gl/DV4nAt, and Fannie’s and Freddie’s
stockholders “continue to retain all rights in the stock’s
financial worth,” id. Director Lockhart testified before
Congress that Fannie’s and Freddie’s “shareholders are
still in place; both the preferred and common shareholders have an economic interest in the companies” and
that “going forward there may be some value” in that
interest. Sept. 25, 2008, Hearing, U.S. House of Representatives, Committee on Financial Servs, H.R. Hrg.
110-142 at 29-30, 34.
60. FHFA also emphasized that the conservatorship
was temporary: “Upon the Director’s determination

53
that the Conservator’s plan to restore the [Companies]
to a safe and solvent condition has been completed successfully, the Director will issue an order terminating
the conservatorship.” FHFA Fact Sheet, Questions and
Answers on Conservatorship 2. Investors were entitled
to rely on these official statements of the purposes of the
conservatorship, and public trading in Fannie’s and
Freddie’s stock was permitted to, and did, continue.
61. In short, the Companies were not in financial distress when they were forced into conservatorship. The
Companies’ boards acquiesced to conservatorship based
on the understanding that FHFA, like any other conservator, would operate the Companies as a fiduciary with
the goal of preserving and conserving their assets and
managing them in a safe and solvent manner. And in
publicly announcing the conservatorships, FHFA confirmed that the Companies’ private shareholders continued to hold an economic interest that would have value,
particularly as the Companies generated profits in the
future.
FHFA and Treasury Enter into the Purchase Agreements

62. On September 7, 2008, Treasury and FHFA,
acting in its capacity as conservator of Fannie and Freddie, entered into the Preferred Stock Purchase Agreements.
63. In entering into the Purchase Agreements, Treasury exercised its temporary authority under HERA to
purchase securities issued by the Companies. See 12
U.S.C. §§ 1455(l), 1719(g). To exercise that authority,
the Secretary of the Treasury (“Secretary”) was required to determine that purchasing the Companies’ securities was “necessary . . . to provide stability to

54
the financial markets; . . . prevent disruptions in the
availability of mortgage finance; and . . . protect the
taxpayer.” 12 U.S.C. §§ 1455(l)(1)(B), 1719(g)(1)(B).
In making those determinations, the Secretary was required to consider six factors:
(i) The need for preferences or priorities regarding payments to the Government.
(ii) Limits on maturity or disposition of obligations
or securities to be purchased.
(iii) The [Companies’] plan[s] for the orderly resumption of private market funding or capital market access.
(iv) The probability of the [Companies] fulfilling the
terms of any such obligation or other security, including repayment.
(v) The need to maintain the [Companies’] status
as . . . private shareholder-owned compan[ies].
(vi) Restrictions on the use of [the Companies’] resources, including limitations on the payment of dividends and executive compensation and any such
other terms and conditions as appropriate for those
purposes.
Id. §§ 1455(l)(1)(C), 1719(g)(1)(C) (emphasis added).
64. In analyzing HERA, the Congressional Budget
Office emphasized that only “before the temporary authority expired” could Treasury “provide funds to the
[Companies].” CBO’s Estimate of Cost of the Administration’s Proposal to Authorize Federal Financial Assistance for the Government-Sponsored Enterprises for
Housing at 2-3 (July 22, 2008) available at https://goo.
gl/pWawgv. “Consequently, if the Treasury purchased

55
equity in Fannie Mae or Freddie Mac, that purchase
cost would also be recorded on the budget as budget authority and outlays in 2009 or during the first few
months of fiscal year 2010, before the temporary financial assistance authority expired.” Id. at 7.
65. Treasury’s authority under HERA to purchase
the Companies’ securities expired on December 31,
2009. See 12 U.S.C. §§ 1455(l)(4), 1719(g)(4). After
that date, HERA authorized Treasury only “to hold, exercise any rights received in connection with, or sell”
previously purchased securities. Id. §§ 1455(l)(2)(D),
1719(g)(2)(D). HERA’s legislative history underscores
the temporary nature of that authority. Secretary
Paulson testified to Congress that HERA would give
“Treasury an 18-month temporary authority to purchase
—only if necessary—equity in either of these two [Companies].” Recent Developments in U.S. Financial Markets and Regulatory Responses to Them: Hearing before
the Comm. on Banking, Housing and Urban Dev., 100th
Cong. (2008) (statement of Henry M. Paulson, Secretary, Dep’t of the Treasury) at 5 (emphasis added). In
response to questioning from Senator Shelby, Secretary
Paulson reiterated that Treasury’s authority to purchase Fannie and Freddie stock was intended to be a
“short-term” solution that would expire at “the end of
2009.” Id. at 11-12.
66. Treasury’s PSPAs with Fannie and Freddie are
materially identical. Under the original unamended
agreements, Treasury committed to provide up to $100
billion to each Company to ensure that it maintained a
positive net worth. In particular, for quarters in which
either Company’s liabilities exceed its assets under Gen-

56
erally Accepted Accounting Principles, the PSPAs authorize Fannie and Freddie to draw upon Treasury’s
commitment in an amount equal to the difference between its liabilities and assets.
67. In return for Treasury’s funding commitment,
Treasury received 1 million shares of Government Stock
in each Company and warrants to purchase 79.9% of the
common stock of each Company at a nominal price.
Exercising these warrants would entitle Treasury to up
to 79.9% of all future profits of the Companies, subject
to the Companies’ obligation to satisfy their dividend obligations with respect to the preferred stock and to
share the remaining 20.1% of those profits with private
common shareholders. As Treasury noted in entering
the PSPAs, the warrants “provide potential future upside to the taxpayers.” Action Memorandum for Secretary Paulson (Sept. 7, 2008).
68. Treasury’s Government Stock in each Company
had an initial liquidation preference of $1 billion. This
liquidation preference increases by one dollar for each
dollar the Companies receive from Treasury pursuant to
the PSPAs. In the event the Companies liquidate, Treasury is entitled to recover the full liquidation value of its
shares before any other shareholder may recover anything.
69. Upon entering the PSPAs, Treasury did not
disburse any funds to the Companies. It is only when
Fannie and Freddie draw upon the funding commitment
that funds are disbursed, and Treasury’s liquidation preference is increased accordingly. Thus, when Treasury
disburses funds to Fannie and Freddie under the funding commitment it effectively purchases additional Government Stock. Secretary Paulson has admitted that

57
when Treasury provides money to Fannie and Freddie
under the PSPAs, it is “purchasing preferred shares.”
PAULSON, ON THE BRINK 168. See also Action Memorandum for Secretary Paulson (Sept. 7, 2008) (“Treasury’s [PSPA] provides for the purchase of up to $100 billion in [Government Stock] from each [Company] to help
ensure that they each maintain a positive net worth.”).
70. In addition to the liquidation preference, the
original unamended PSPAs provided for Treasury to receive either a cumulative cash dividend equal to 10% of
the value of the outstanding liquidation preference or a
stock dividend. If the Companies decided not to pay
the dividend in cash, the value of the dividend would be
added to the liquidation preference—effectively amounting to an in-kind dividend payment of additional Government Stock. After an in-kind dividend payment, the
dividend rate would increase to 12% until such time as
full cumulative dividends were paid in cash, at which
point the rate would return to 10%. The plain terms of
the PSPAs thus make clear that Fannie and Freddie
never were required to pay a cash dividend to Treasury
but rather had the discretion to pay dividends in kind.
See, e.g., U.S. TREASURY DEP’T OFFICE OF PUB. AFFAIRS, FACT SHEET: TREASURY SENIOR PREFERRED
STOCK PURCHASE AGREEMENT, Sept. 7, 2008 (“The senior preferred stock shall accrue dividends at 10% per
year. The rate shall increase to 12% if, in any quarter,
the dividends are not paid in cash. . . . “); Treasury
Presentation to the U.S. Securities and Exchange Commission, GSE Preferred Stock Purchase Agreements
(PSPA), Overview and Key Considerations at 9, June 13,
2012 (“Dividend Rate Cash 10%; if elected to be paid in
kind (‘PIK’) 12%.”). Moreover, there was never any

58
risk that payment of dividends would render the Companies insolvent since it would have been illegal under
state law for either Company to pay a dividend that
would render it insolvent.
71. Numerous materials prove beyond any reasonable doubt that the Agencies recognized that the PSPAs
were designed, as their express terms plainly provide,
to allow the payment of dividends in kind—in additional
senior preferred stock—rather than in cash. Jeff Foster, one of the architects of the Net Worth Sweep at
Treasury, has testified in a deposition in the CFC case
that he could not identify any “problems of the circularity [in dividend payments that] would have remained
had the [payment-in-kind] option been adopted.” In an
internal October 2008 email to Mario Ugoletti—who was
then a Treasury official, but later moved to FHFA and
was a key point of contact with Treasury in the development of the Net Worth Sweep—another Treasury official indicated that Treasury’s consultant wanted to know
“whether we expect [Fannie and Freddie] to pay the
preferred stock dividends in cash or to just accrue the
payments.” Mr. Ugoletti did not forget about this feature of the PSPAs when he moved to FHFA. Indeed,
he acknowledged the option to pay dividends “in kind”
in an email that he sent the very day the Net Worth
Sweep was announced. In a similar vein, a document
attached to a September 16, 2008, email between FHFA
officials expressly states that PSPA dividends may be
“paid in-kind.” In an October 2008 email to Treasury
and FHFA officials, a Treasury consultant sought to
clarify whether Fannie and Freddie “intend[ed] to pay
cash at 10 percent or accrue at 12 percent as a matter of
policy.” An internal Treasury document says that the
dividend rate “may increase to the rate of 12 percent if,

59
in any quarter, the dividends are not paid in cash.”
And an internal FHFA document says that Treasury’s
senior stock pays “10 percent cash dividend (12 percent
payment-in-kind).”
72. Documents that the Agencies placed in the public
domain also support this understanding of the paymentin-kind option. Upon entering the PSPAs Treasury released a fact sheet stating that, “[t]he senior preferred
stock shall accrue dividends at 10% per year. The rate
shall increase to 12% if, in any quarter, the dividends are
not paid in cash. . . . ” U.S. TREASURY DEP’T OFFICE OF PUB. AFFAIRS , FACT S HEET: TREASURY SENIOR PREFERRED STOCK PURCHASE AGREEMENT (Sept.
7, 2008), https://goo.gl/ynb3TC; see also Treasury
Presentation to SEC, GSE Preferred Stock Purchase
Agreements (PSPA), Overview and Key Considerations
at 9, June 13, 2012 (Treasury presentation stating that
dividend rate of the PSPAs would be 12% “if elected to
be paid in kind”).
73. The Companies shared this understanding of
the terms of their agreements with Treasury. Fannie’s
and Freddie’s CFOs have testified in the CFC case that
they were aware of the payment-in-kind option. Various Freddie documents say that “[t]he dividend becomes
12% if Freddie Mac is unable to pay the dividend through
organic income,” that “[t]he senior preferred stock will
pay quarterly cumulative dividends at a rate of 10% per
year or 12% in any quarter in which dividends are not
paid in cash,” that Treasury’s stock “[p]ays quarterly
cumulative dividend rate at 10% per year, or 12% in any
quarter in which dividends are not paid in cash,” and
that Treasury’s stock “will pay quarterly cumulative

60
dividends at a rate of 10% per year, or 12% in any quarter in which dividends are not paid in cash.” Similarly,
Fannie documents say that “Treasury’s preferred stock
“has an annual dividend rate of 10%, which could increase to 12% if not paid in cash,” and that “[i]f at any
time . . . the Company does not pay the cash dividends in a timely manner, . . . the annual dividend
rate will be 12%.”
74. Moreover, even if the Agencies and the Companies had taken a different view of the express terms of
the PSPAs, there was never any risk that payment of
dividends would render the Companies insolvent since it
would have been illegal for either Company to pay a dividend that would render it insolvent.
75. An in-kind dividend payment would not decrease Treasury’s funding commitment because only
when the Companies receive “funding under the Commitment” does its size decrease. Fannie and Freddie
Amended and Restated Senior Preferred Stock Purchase Agreements (“PSPA”) § 1. Thus, as the Congressional Research Service has acknowledged, under
the PSPAs’ original terms the Companies could “pay a
12% annual senior preferred stock dividend indefinitely.”
N. ERIC WEISS, CONG. RESEARCH SERV.,
RL34661, FANNIE MAE’S AND FREDDIE MAC ’S FINANCIAL PROBLEMS (Aug. 10, 2012). In other words, because of the payment-in-kind option, there was no risk—
none whatsoever—that the PSPAs would force Fannie
and Freddie to exhaust Treasury’s funding commitment
to facilitate the payment of dividends.
76. Finally, the PSPAs provided for the Companies
to pay Treasury a quarterly periodic commitment fee

61
“intended to fully compensate [Treasury] for the support provided by the ongoing Commitment.” PSPA
§ 3.2(a). The periodic commitment fee was to be set for
five-year periods by agreement of the Companies and
Treasury, but Treasury had the option to waive it for up
to a year at a time. Treasury has exercised this option
and has never received a periodic commitment fee under
the PSPAs. Even if the fee had been charged, the Companies were always free under the express terms of the
PSPAs to pay the fee in-kind with additional senior preferred stock rather than in cash, a fact that Freddie’s
auditor recognized in a document produced in the CFC
case. See PSPA § 3.2(c) (“At the election of Seller, the
Periodic Commitment Fee may be paid in cash or by
adding the amount thereof ratably to the liquidation
preference of each outstanding share of Senior Preferred Stock. . . . ”).
77. The PSPAs were “structure[d]” to “enhance the
probability of both Fannie Mae and Freddie Mac ultimately repaying amounts owed.” Action Memorandum for Secretary Paulson (Sept. 7, 2008). Nevertheless, while Treasury’s commitment remains outstanding, Fannie and Freddie generally are prohibited from
paying down amounts added to the liquidation preference due to draws from Treasury’s commitment. See
Fannie and Freddie Government Stock Certificates
§ 3(a).
78. The PSPAs prohibit Fannie and Freddie from
declaring and paying dividends on any securities junior
to Treasury’s Government Stock unless full cumulative
dividends have been paid to Treasury on its Government
Stock for the then-current and all past dividend periods.

62
79. In approving the exercise of Treasury’s temporary authority under HERA to purchase securities of
the Companies, Treasury Secretary Paulson determined
(1) “[u]nder conservatorship, Fannie Mae and Freddie
Mac will continue to operate as going concerns”; (2)
“Fannie Mae and Freddie Mac may emerge from conservatorship to resume independent operations”; and (3)
“[c]onservatorship preserves the status and claims of
the preferred and common shareholders.” Action Memorandum for Secretary Paulson (Sept. 7, 2008). But as
explained below, the Net Worth Sweep annihilates the
status and claims of the Companies’ preferred and common shareholders.
Treasury and FHFA Amend the Purchase Agreements
To Increase Treasury’s Funding Commitment

80. On May 6, 2009, the Agencies amended the terms
of the Purchase Agreements to increase Treasury’s
funding commitment to both Fannie and Freddie. In
particular, under the amendment Treasury’s total commitment to each Company increased from $100 billion to
$200 billion.
81. On December 24, 2009—one week before Treasury’s temporary authority under HERA expired—the
Agencies again amended the terms of Treasury’s funding commitment. Instead of setting that commitment
at a specific dollar amount, the second amendment established a formula to allow Treasury’s total commitment to each Company to exceed (but not fall below)
$200 billion depending upon any deficiencies experienced in 2010, 2011, and 2012, and any surplus existing
as of December 31, 2012.

63
82. Treasury’s authority under HERA then expired
on December 31, 2009. As Treasury acknowledged, expiration of this authority meant that its “ability to make
further changes to the PSPAs . . . [was] constrained.”
Action Memorandum for Secretary Geithner at 3 (Dec.
22, 2009).
The Agencies Force Accounting Changes To Increase
the Companies’ Draws From Treasury

83. Beginning in the third quarter of 2008—when
FHFA took control of the Companies as conservator—
the conservator began to make wildly pessimistic and
unrealistic assumptions about the Companies’ future financial prospects. Those assumptions triggered adjustments to the Companies’ balance sheets, most notably write-downs of significant tax assets and the establishment of large loan loss reserves, which caused the
Companies to report non-cash losses. Although reflecting nothing more than faulty accounting assumptions about the Companies’ future prospects and having
no effect on the cash flow the Companies were generating, these non-cash losses temporarily decreased the
Companies’ reported net worth by hundreds of billions
of dollars. For example, in the first year and a half after imposition of the conservatorship, Fannie reported
$127 billion in losses, but only $16 billion of that amount
reflected actual credit-related losses. Upon information
and belief, FHFA directed Fannie and Freddie to record these excessive non-cash losses, which resulted in
excessive purchases of Government Stock by Treasury.
84. By the end of 2011, the Companies’ reported net
worth had fallen by $100 billion as a result of the decision made shortly after imposition of the conserva-

64
torship to write down the value of their deferred tax assets. A deferred tax asset is an asset that may be used
to offset future tax liability. Under Generally Accepted
Accounting Principles, if a company determines that it
is unlikely that some or all of a deferred tax asset will be
used, the company must establish a “valuation allowance” in the amount that is unlikely to be used. In
other words, a company must write down a deferred tax
asset if it is unlikely to be used to offset future taxable
profits. Shortly after FHFA took control of the Companies, FHFA made the implausible assumption that
the Companies would never again generate taxable income and that their deferred tax assets were therefore
worthless. That incomprehensibly flawed decision dramatically reduced the Companies’ reported net worth.
85. The decision to designate excessive loan loss reserves was another important factor in the artificial decline in the Companies’ reported net worth during the
early years of conservatorship. Loan loss reserves are
an entry on the Companies’ balance sheets that reduces
their reported net worth to reflect anticipated losses on
the mortgages they own. Beginning when FHFA took
control of the Companies in the third quarter of 2008 and
continuing through 2009, the Companies were forced to
provision additional loan loss reserves far in excess of
the credit losses they were actually experiencing. The
extent to which excess loan loss reserve provisioning reduced the Companies’ net worth is dramatically illustrated by the following chart, which compares Fannie’s
loan loss reserve provisioning to its actual credit losses
for 2006 through 2014. As the chart shows, FHFA
caused Fannie to make grossly excessive loan loss reserve provisions in 2008 and 2009. The excessive nature of these loan loss provisions was readily apparent

65
by 2012, and the inevitable reversals would flow through
to income on Fannie’s balance sheet.

86. Despite the fact that the Companies’ mortgage
portfolios were safer than the similar portfolios held by
banks involved in the mortgage business, banks were
much more accurate—and, with the consent of their regulators, far less aggressive—in reducing their net worth
to reflect expected loan losses. The following chart illustrates this fact:

66

87. To date, the Companies have drawn a total of
$187 billion from Treasury, in large part to fill the holes
in the Companies’ balance sheets created by these artificial non-cash losses imposed under conservatorship.
Including Treasury’s initial $1 billion liquidation preference in each Company, Treasury’s liquidation preference for its Government Stock amounts to approximately $117 billion for Fannie and approximately $72
billion for Freddie. Approximately $26 billion of these
combined amounts were drawn simply to pay the 10%
dividend payments owed to Treasury. (In other words,
FHFA requested draws to pay Treasury this $26 billion
in cash that was not otherwise available rather than
electing to pay the dividends in kind. Had the dividends been paid in kind, FHFA would not have had to
draw from—and, consequently, reduce the remaining
size of—Treasury’s commitment to pay them.) Thus,
Treasury actually disbursed approximately $161 billion
to the Companies, primarily reflecting temporary changes
in the valuation estimates of assets and liabilities.

67
The Companies Return to Profitability and Stability

88. As explained above, the “losses” Fannie and
Freddie experienced under conservatorship were driven
primarily by temporary and unrealistically pessimistic
accounting decisions, not by a failure to generate enough
revenue to cover their expenses. Indeed, although
they reported significant declines in their net worth as
a result of highly questionable accounting decisions,
throughout the conservatorship they have had more
than enough cash reserves and operational revenues to
cover their expenses.
89. By 2012, Fannie and Freddie began generating
consistent profits notwithstanding the anchor of their
overstated loss reserves and the write-down of their deferred tax assets. Fannie has not drawn on Treasury’s
commitment since the fourth quarter of 2011, and Freddie has not drawn on Treasury’s commitment since the
first quarter of 2012. In fact, in the first two quarters
of 2012, the Companies posted sizable profits totaling
more than $11 billion.
90. By 2012, the Companies were well-positioned to
continue generating robust profits for the foreseeable
future. Fannie’s and Freddie’s financial results are
strongly influenced by home prices. And as FHFA’s own
Home Price Index shows, the market reached its bottom
in 2011:

68

91. The improving housing market was coupled
with stricter underwriting standards at Fannie and
Freddie. As a result—and as the Agencies knew—
Fannie- and Freddie-backed loans issued after 2008 had
dramatically lower serious delinquency rates than loans
issued between 2005 and 2008. The strong quality of
these newer “vintages” of loans boded well for Fannie’s
and Freddie’s future financial prospects.
92. Together, the Companies’ return to robust
profitability and the stable recovery of the housing market showed in early 2012 that the Companies could in
time redeem Treasury’s Government Stock and that
value remained in their preferred and common stock.
Indeed, a presentation sent to senior Treasury officials
in February 2012 indicated that “Fannie and Freddie
could have the earnings power to provide taxpayers with
enough value to repay Treasury’s net cash investments
in the two entities.” The Companies’ financial performance and outlook only further improved in the ensuing
months. In the weeks leading up to the Net Worth

69
Sweep, one Treasury official observed that Freddie’s
second quarter 2012 results were “very positive,” and a
report circulated among senior FHFA officials said that
the agency deserved a “high five” for the Companies’
strong financial outlook.
93. Furthermore, as a result of Fannie’s and Freddie’s return to sustained profitability, it was clear that
the overly pessimistic accounting decisions weighing
down the Companies’ balance sheets would have to be
reversed. Indeed, by early August 2012, the Agencies
knew that Fannie and Freddie were poised to generate
massive profits well in excess of the Companies’ dividend obligations to Treasury—profits that would make
the $11 billion the Companies generated in the first half
of 2012 look small by comparison.
94. By August 2012, the Agencies knew that the
Companies’ reserves for loan losses far exceeded their
actual losses. These excess loss reserves artificially depressed the Companies’ net worth, and reversing them
would increase the Companies’ net worth accordingly.
Indeed, on July 19, 2012, a Treasury official observed
that the release of loan loss reserves could “increase the
[Companies’] net [worth] substantially.” And the Agencies were focused on this issue. An internal briefing
memorandum prepared for Under Secretary Miller in
advance of the August 9, 2012 meetings with Fannie and
Freddie executives reveals that the number one question Treasury had for the Companies was “how quickly
they forecast releasing credit reserves.” And a handwritten note on a presentation from the August 9 meeting with Freddie says to “expect material release of loan
loss reserves in the future.” FHFA also knew that loan

70
loss reserve releases would boost the Companies’ profits
going forward, as FHFA officials attended a meeting of
Freddie’s Loan Loss Reserve Governance Committee
on August 8, 2012. FHFA’s knowledge of the status of
the Companies’ loan loss reserves is also dramatically
illustrated by a July 2012 FHFA presentation showing
that starting in 2008 the Companies had set aside loan
loss reserves far in excess of their actual losses.
95. Another principal driver of the outsized profits
that the Companies would inevitably generate was the
mandated release of the Companies’ deferred tax assets
valuation allowances. By mid-2012, Fannie and Freddie had combined deferred tax assets valuation allowances of nearly $100 billion. Under relevant accounting rules, those valuation allowances would have to be
reversed if the Companies determined that it was more
likely than not that they would generate taxable income
and therefore be able to use their deferred tax assets.
The Treasury Department was intimately familiar with
these issues, having seen such a reversal in February
2012 in connection with its massive investment in AIG.
In 2011, it was also known within Fannie that the valuation allowance would be reversed; the only question was
the timing.
96. Indeed, by the time the Net Worth Sweep was
announced, it was apparent to the Agencies that Fannie
and Freddie would soon be in a position to reverse the
valuation allowances for their deferred tax assets. On
July 13, 2012, Bradford Martin, Principal Advisor in
FHFA’s Office of Conservatorship Operations, broadly
circulated within FHFA minutes from a July 9, 2012

71
Fannie executive management meeting. The recipients of the email included Acting Director DeMarco and
Mr. Ugoletti. The minutes stated that Fannie Treasurer David Benson “referred to the next 8 years as likely
to be ‘the golden years of GSE earnings.’ ” Projections
were attached to the email containing the following
slide:

72
97. Those projections expressly stated the assumption that Fannie would not be paying taxes because it
would be using its deferred tax assets—and if Fannie
was expecting to use its deferred tax assets, it would
have to release the valuation allowance it had established for them. FHFA knew this; indeed, FHFA accountants were monitoring the Companies’ deferred tax
assets situation, and FHFA knew that the Companies’
audit committees were assessing the status of the valuation allowances on a quarterly basis. In addition, Ms.
McFarland testified in the CFC case that in July 2012
she would have mentioned the potential release of the
valuation allowance at a Fannie executive committee
meeting attended by at least one FHFA official, and she
also testified that FHFA was on notice of a statement
she made to Under Secretary Miller on August 9, 2012
regarding the potential release of the valuation allowance before the Agencies entered the third amendment
to the PSPAs on August 17, 2012.
98. Like FHFA, Treasury was in possession of information showing that the Companies would soon generate substantial profits, thus making it inevitable that
they would release their deferred tax asset valuation allowances. In November 2011, Treasury consultant
Grant Thornton prepared projections based on September 2011 data reporting combined profits of over $20 billion in 2014, with annual profits then gradually declining
to a long-term figure of about $13.5 billion. Profits of
this magnitude necessarily would have led to the reversal of the valuation allowances. And Treasury took notice. Hand-written notes on a Grant Thornton document produced by Treasury displaying Freddie’s results through the first quarter of 2012 anticipate that
Freddie could release its valuation allowance “probably

73
[in] 2013, 2014.” And the agenda for a meeting indicates that by May 2012 Treasury and Grant Thornton
were discussing “[r]eturning the deferred tax asset to
the GSE balance sheets” and that Treasury planned to
discuss this issue with FHFA and the Companies in
early June.
99. The manager of Grant Thornton’s valuation
services to Treasury, Anne Eberhardt, admitted in a
deposition in the CFC case that the projections based on
September 2011 data were no longer valid 11 months
later, and Fannie’s CFO, Susan McFarland, has testified that it was particularly important to have fresh financial forecasts at that time. Mr. Ugoletti and Ms.
Eberhardt likewise have testified to the importance of
using up-to-date financial information, and Mr. DeMarco testified that FHFA as conservator was “constantly responding to a changing economic environment.” And as Mr. DeMarco also testified, one change
that took place between September 2011 and midAugust 2012 “was strengthening in the housing market.”
Thus, by August 2012, it was apparent that the outdated
Grant Thornton projections drastically underestimated
Fannie’s and Freddie’s earning capacity. (Mr. Ugoletti also has admitted that FHFA’s own projections
consistently were overly pessimistic leading up to August 2012.) Treasury and FHFA knew this, and they
knew that reversal of the deferred tax asset valuation
allowances was mandated by applicable accounting rules
and was imminent. As previously detailed, this fact
came into sharp focus on August 9, 2012, when Under
Secretary Miller and other senior Treasury officials had
meetings with the senior executives of both Fannie and
Freddie. During the meeting with Fannie’s management, Treasury was presented with ten-year projections

74
substantially similar to those that Fannie had previously
shared with FHFA, showing the Company earning an
average of more than $11 billion per year from 2012
through 2022 and having over $116 billion left of Treasury’s funding commitment at the end of that time period.
Those projections are reproduced below:

75
100. Furthermore, Treasury learned that Fannie’s
near-term earnings likely would be even higher than
those in the projections due to the release of the Companies’ deferred tax assets valuation allowance. During the August 9 meeting, Fannie CFO Susan McFarland informed Treasury that the criteria for reversing
the deferred tax assets valuation allowance could be met
in the not-so-distant future. And when asked for more
specifics by Under Secretary Miller, Ms. McFarland
stated that the reversal would be probably in the $50billion range and probably sometime mid-2013, an assessment that proved remarkably accurate.
101. While Mr. Ugoletti stated in a sworn declaration in the United States District Court for the District
of Columbia that “neither the Conservator nor Treasury
envisioned at the time of the Third Amendment that
Fannie Mae’s valuation allowance on its deferred tax assets would be reversed in early 2013,” his deposition testimony in the CFC case contradicts that statement: “I
don’t know who else in FHFA or what they knew about
the potential for that [i.e., that the deferred tax assets
might be written back up in 2013], but . . . our accountants were monitoring this situation, they were
monitoring . . . whether to revalue, they had to do it
all the time, revalue or not revalue, and I do not recall
knowing about that this was going to be an issue until
really ’13 when it became imminent that, oh, this has to
happen now, and I don’t know what anybody else
thought about it.” And when asked whether he knew
“what Treasury thought about it,” he answered, “I do
not.”
102. In sum, by August 2012 the Agencies knew that
Fannie and Freddie were poised to add tens of billions

76
of dollars of deferred tax assets to their balance sheets
and to reverse billions of dollars of loan loss reserves.
These inevitable accounting decisions, coupled with
Fannie’s and Freddie’s strong earnings from their dayto-day operations, meant that Fannie and Freddie
would generate earnings well in excess of the Companies’ dividend obligations to Treasury for the foreseeable future.
103. In addition to the release of loan loss reserves
and deferred tax assets valuation allowances, Fannie
and Freddie also had sizeable assets in the form of
claims and suits brought by FHFA as conservator relating to securities law violations and fraud in the sale of
private-label securities to Fannie and Freddie between
2005 and 2007. Although federal regulators were aware
of the probable value of these claims even before the
Companies were placed in conservatorship, the Companies were not permitted to aggressively pursue these
claims against many of the Nation’s largest banks until
the financial crisis had ended. In 2013 and 2014, the
Companies recovered over $18 billion from financial institutions via settlements of such claims and suits. The
Companies, FHFA, and Treasury knew in August 2012
that the Companies would reap substantial profits from
such settlements.
FHFA and Treasury Amend the PSPAs To Expropriate
Private Shareholders’ Investment and Ensure Fannie
and Freddie Cannot Exit Conservatorship

104. On August 17, 2012, within days after the Companies had announced their return to profitability and
just as it was becoming clear that they had regained the
earnings power to redeem Treasury’s Government Stock
and exit conservatorship, the Agencies unilaterally

77
amended the PSPAs for a third time. At the time that
this third amendment was under consideration, Fannie
and Freddie were experiencing a dramatic turnaround
in their profitability. Due to rising house prices and
reductions in credit losses, in early August 2012 the
Companies reported significant income for the second
quarter 2012 and neither required a draw from Treasury
under the PSPAs. What is more, the Agencies knew
that Fannie and Freddie were poised to generate massive profits from the reversal of overly pessimistic accounting decisions made in the early years of the conservatorships. But rather than fulfilling its statutory
responsibility as conservator to return the Companies to
sound and solvent business operations and, ultimately,
to private control, FHFA entered into the Net Worth
Sweep with Treasury, which transfers all of the Companies’ substantial profits to Treasury, prevents them from
ever exiting government control, and deprives private
shareholders of any residual value in the Companies.
105. The timing of the Net Worth Sweep was driven
by the Companies’ return to profitability. Given that
return to profitability, there was no imminent risk that
Fannie and Freddie would be depleting Treasury’s funding commitment—that risk was at its lowest point since
the start of the conservatorships. Communications within both FHFA and Treasury in the months leading up to
the Net Worth Sweep confirm that fact by indicating
that the Companies’ bond investors regarded Treasury’s funding commitment as sufficient. Rather than
worry over exhausting Treasury’s funding commitment,
the “risk” that concerned the Agencies—indeed, their
expectation—was that Fannie and Freddie would recognize extraordinary profits that would allow them to

78
begin rebuilding their capital levels and position themselves to exit conservatorship and deliver value to their
private shareholders.
106. But notwithstanding the Agencies’ statutory
duties, the Administration had decided that Fannie and
Freddie would not be allowed to exit conservatorship in
their current form. Allowing Fannie and Freddie to
rebuild their capital levels, however, would make that
political decision more difficult to explain and sustain.
It is thus not surprising that a document prepared for
internal Treasury consumption and dated August 16,
2012 listed the Companies’ “improving operating performance” and the “potential for near-term earnings to exceed the 10% dividend” as reasons for “putting in place
a better deal for taxpayers” by promptly adopting the
Net Worth Sweep. And it also is not surprising that
FHFA perceived a “renewed push” from Treasury to
implement the Net Worth Sweep on August 9, 2012.
107. Communications involving White House official
Jim Parrott provide further proof that the Net Worth
Sweep was intended to keep Fannie and Freddie under
the government’s control and to dash the hopes of private investors of ever seeing any return on their investments. At the time of the Net Worth Sweep, Mr. Parrott was a senior advisor at the National Economic
Council, where he led a team of advisors charged with
counseling President Obama and the cabinet on housing
issues. He worked closely with Treasury in the development and rollout of the Net Worth Sweep. Indeed,
the day after the Net Worth Sweep was announced, he
emailed Treasury officials congratulating them on achieving an important policy goal: “Team Tsy, You guys did

79
a remarkable job on the PSPAs this week. You delivered on a policy change of enormous importance that’s
actually being recognized as such by the outside world
. . . , and as a credit to the Secretary and the President. It was a very high risk exercise, which could
have gone sideways on us any number of ways, but it
didn’t.” What Treasury had accomplished, Mr. Parrott’s emails make clear, was guaranteeing that Fannie
and Freddie would remain in perpetual conservatorship
and never again be run for the benefit of their private
shareholders:
•

In an email to a Treasury official on the day the
Net Worth Sweep was announced, Mr. Parrott
stated that “we’ve closed off [the] possibility that
[Fannie and Freddie] ever[] go (pretend) private
again.”

•

That same day, Mr. Parrott received an email
from a market analyst stating that the Net
Worth Sweep “should lay to rest permanently
the idea that the outstanding privately held
pref [ferred stock] will ever get turned back on.”
He forwarded the email to Treasury officials and
commented that “all the investors will get this
very quickly.” (Mr. Ugoletti similarly was not
surprised “that the preferred stock got hammered the day the Net Worth Sweep was announced.”)

•

At 8:30 a.m. on August 17, Mr. Parrott wrote an
email to Alex Pollock, Peter Wallison, and Edward Pinto offering “to walk you through the
changes we’re announcing on the pspas today.
Feel like fellow travelers at this point so I owe it

80
to you.” Pollock, Wallison, and Pinto had written a policy paper for the American Enterprise
Institute in 2011 recommending that “Fannie
Mae and Freddie Mac should be eliminated as
government-sponsored enterprises (GSEs) over
time.”
•

Also on August 17, Mr. Wallison was quoted in
Bloomberg saying the following: “The most
significant issue here is whether Fannie and
Freddie will come back to life because their profits will enable them to re-capitalize themselves
and then it will look as though it is feasible for
them to return as private companies backed by
the government. . . . What the Treasury Department seems to be doing here, and I think it’s
a really good idea, is to deprive them of all their
capital so that doesn’t happen.” In an email to
Wallison that evening, Mr. Parrott stated, “Good
comment in Bloomberg—you are exactly right on
substance and intent.”

Mr. Parrott, who has left the Administration and is now
with the Urban Institute, recently told The Economist
that “[i]n the aftermath of the crisis there was widespread agreement that [Fannie and Freddie] needed to
be replaced or overhauled.” A Funny Form of Conservation, THE ECONOMIST, Nov. 21, 2015, available at
http:goo.gl/gJVJrN. The Net Worth Sweep ensured
that the Companies’ return to profitability did not
threaten this goal.
108. This understanding of the purpose of the Net
Worth Sweep is further supported by the testimony of
Ms. McFarland, Fannie’s CFO at the time. She believed that the Agencies imposed the Net Worth Sweep

81
in response to what she told Treasury on August 9, and
she thought its purpose “was probably a desire not to
allow capital to build up within the enterprises and not
to allow the enterprises to recapitalize themselves.” According to Ms. McFarland, Fannie “didn’t believe that
Treasury would be too fond of a significant amount of
capital buildup inside the enterprises.”
109. As Treasury stated when the Net Worth Sweep
was announced, the dividend sweep of all of the Companies’ net worth requires that “every dollar of earnings
that Fannie Mae and Freddie Mac generate will be used
to benefit taxpayers.” Press Release, U.S. Dep’t of the
Treasury, Treasury Department Announces Further
Steps to Expedite Wind Down of Fannie Mae and Freddie Mac (Aug. 17, 2012). The Net Worth Sweep, in
short, effectively nationalized the Companies and confiscated the existing and potential value of all privately
held equity interests, including the stock held by Plaintiff. Indeed, the government itself has stated in a brief
in another case that an “interest in residual profits is the
defining feature of an equity interest in a corporation.”
Starr International Co. v. United States, at 24, No.
2015-5103 (Fed. Cir. June 1, 2016). After the Net Worth
Sweep, Treasury has the right to all residual profits, and
it hence owns all the equity. All other equity interests
have been eliminated.
110. As a Staff Report from the Federal Reserve
Bank of New York acknowledged, the Net Worth Sweep
“effectively narrows the difference between conservatorship and nationalization, by transferring essentially
all profits and losses from the firms to the Treasury.”
W. Scott Frame, et al., The Rescue of Fannie Mae and
Freddie Mac at 21, FEDERAL RESERVE BANK OF NEW

82
YORK STAFF REPORTS, no. 719 (Mar. 2015). The Economist stated the obvious in reporting that the Net Worth
Sweep “squashe[d] hopes that [Fannie and Freddie]
may ever be private again” and, as a result, “the companies’ status as public utilities . . . appear[ed] crystal
clear.” Fannie Mae and Freddie Mac, Back to Black,
THE ECONOMIST, Aug. 25, 2012, available at http:goo.
gl/1PHMs. Secretary Geithner apparently believed
that even before the Net Worth Sweep was imposed, “we
had already effectively nationalized the GSEs . . . ,
and could decide how to carve up, dismember, sell or restructure those institutions.”
Plaintiff ’s Corrected
Post-Trial Proposed Findings of Fact 26.2.1(a), Starr
Int’l Co. v. United States, No. 1:11-cv-779-TCW (Fed.
Cl. March 2, 2015), ECF No. 430.
111. As a result of the Net Worth Sweep, it is clear
that FHFA will not allow Fannie and Freddie to exit
conservatorship but rather will continue to operate
them essentially as wards of the state, unless and until
Congress takes action. Indeed, FHFA’s website states
that “FHFA will continue to carry out its responsibilities as Conservator” until “Congress determines the future of Fannie Mae and Freddie Mac and the housing
finance market.” FHFA as Conservator of Fannie
Mae and Freddie Mac, http://goo.gl/PjyPZb. This is
consistent with the testimony of former Acting Director
DeMarco, who stated that he had no intention of returning Fannie and Freddie to private control under charters he perceived to be “flawed.” Mr. Ugoletti also testified that FHFA’s objective “was not for Fannie and
Freddie Mac to emerge from conservatorship.” HERA
does not contemplate that FHFA will operate a perpetual conservatorship that is entirely contingent on the

83
hope of unspecified legislative action at some point in
the future.
112. The Net Worth Sweep fundamentally changed
the nature of Treasury’s investment in the Companies.
Instead of quarterly dividend payments at an annual
rate of 10% (if paid in cash) or 12% (if paid in kind) of
the total amount of Treasury’s liquidation preference,
the Net Worth Sweep entitles Treasury to quarterly
payments of all—100%—of the Companies’ existing net
worth and future profits. Beginning January 1, 2013,
the Companies have been required to pay Treasury a
quarterly dividend equal to their entire net worth, minus
a capital reserve amount that starts at $3 billion and decreases to $0 by January 1, 2018.
113. The Net Worth Sweep is particularly egregious
because it makes the Companies unique in financial regulation. All other financial institutions are required to
retain minimum levels of capital that ensure that they
can withstand the vicissitudes of the economic cycle and
are prohibited from paying dividends when they are not
adequately capitalized. The FDIC’s Risk Management
Manual of Examination Policies explains why capital is
critical to any financial institution: “It absorbs losses,
promotes public confidence, helps restrict excessive asset growth, and provides protection to [market participants].” For this reason, in all other contexts financial
regulators work to ensure that financial institutions
maintain minimum capital levels.
114. The Companies, in contrast, are not allowed to
retain capital but instead must pay their entire net worth
over to Treasury as a quarterly dividend. In other
words, whereas other financial institutions are subject
to minimum capital standards, the Net Worth Sweep

84
makes the Companies subject to a capital maximum—
any amount of retained capital that they hold in excess
of a small and diminishing capital buffer is swept to
Treasury on a quarterly basis. The effect of the Net
Worth Sweep is thus to force the Companies to operate
in perpetuity on the brink of insolvency and to immediately nullify the rights of private shareholders to any return of their principal or any return on their principal
(i.e., in the form of dividends). In other contexts, federal regulators understand such an arrangement to be
fundamentally unsafe and unsound. And indeed, HERA
itself recognizes that a fundamental aspect of the Companies’ soundness is the “maintenance of adequate capital.” 12 U.S.C. § 4513(a)(1)(B)(i). Director Watt has
expressed the same view, describing the Companies’ inability to build capital reserves under the Net Worth
Sweep as a “serious risk” that erodes investor confidence in the Companies because they have “no ability to
weather quarterly losses.”
115. This dramatic departure from accepted practices is demonstrated by the following chart, which compares the equity to assets ratio of Fannie and Freddie
to that maintained by large insurers:

85
116. This departure from sound and solvent operation has not gone unnoticed by Congress. Representatives Stephen Lee Fincher and Mick Mulvaney wrote to
Secretary Lew and Director Watt to “express [their]
concerns about [Fannie] and [Freddie] and the effect
that the non-enforcement of statutory capital reserve
requirements will have on the risk they pose to taxpayers.” HERA, the Representatives wrote, “specifically
tasked the newly-created Federal Housing Finance
Agency with establishing and enforcing more stringent
capital standards for Fannie and Freddie. Inexplicably, and in violation of that statute, Fannie and Freddie
currently hold far less capital than required, and according to Treasury’s [PSPAs], are required to reduce their
capital reserves by $600 million a year until they reach
zero on January 1, 2018.” “It is extremely troubling,”
the Congressmen continued, that Fannie and Freddie
“are being specifically directed to deplete their capital
reserves. . . . In a post-Dodd-Frank world, Fannie
and Freddie will be the only significant financial institutions not voluntarily or mandatorily raising their capital; instead, they are being told to lower their capital—
to zero. This does not make sense.” Representative
Michael Capuano recently expressed similar sentiments,
observing that “Fannie and Freddie are basically being
used as a piggy bank by the Treasury, and at some point
they will lose the lawsuits being brought on by investors
and owe someone an awful lot of money.” And Fortune
has reported that the Net Worth Sweep “effectively nationalized” the Companies.
117. Forcing the Companies to operate in an inherently unsafe and unsound condition also has deleterious
effects on their borrowing costs, which is a major expense for both Companies. As former Acting Director

86
DeMarco has admitted, if the Companies are highly leveraged and have a relatively small amount of capital
then, all other things being equal, their cost of borrowing will be higher.
118. The Companies did not receive any meaningful
consideration for agreeing to the Net Worth Sweep. Because the Companies always had the option to pay dividends “in kind” at a 12% interest rate, the Net Worth
Sweep did not provide the Companies with any additional flexibility or benefit. Rather than accruing a dividend at 12% (which never had to be paid in cash), FHFA
unlawfully agreed to make a payment of substantially all
the Companies’ net worth each quarter.
119. The Net Worth Sweep also provides that the
Companies will not have to pay a periodic commitment
fee under the PSPAs while the Net Worth Sweep is in
effect. But Treasury had consistently waived the periodic commitment fee before the Net Worth Sweep, and
it could only set the amount of such a fee with the agreement of the Companies and at a market rate. And that
rate likely would have been, at most, a small fraction of
the outstanding amount of Treasury’s commitment.
Freddie forecasted its “sensitivity” to imposition of a periodic commitment fee as follows: “Our sensitivity to a
commitment fee based on remaining commitment available beginning in 2013 of $149 billion shows that a 25 bps
fee results in a $0.4 billion annual impact on Stockholders’ Equity.” Further, the purpose of the fee was to compensate Treasury for its ongoing support in the form of
the commitment to invest in the Companies’ Government
Stock. By the time of the Net Worth Sweep, the 10 percent return on the Government Stock and the warrants
for 79.9 percent of the common stock provided a more

87
than adequate return on the government’s stand-by
commitment, and thus any additional fee would have
been inappropriate. In August of 2012, the Companies
had returned to stable profitability and were no longer
drawing from Treasury’s commitment.
Given the
Companies’ return to profitability, the market rate for
the periodic commitment fee in 2012, 2013, and 2014
would have been zero. And, of course, by the time of
the Net Worth Sweep, Treasury’s temporary authority
to purchase the Companies’ securities had already expired, making any further purchases contrary to law.
Finally, even if a market-rate fee had been agreed between Treasury and FHFA and imposed pursuant to the
PSPA, the Companies had sufficient market power
to pass the entire amount of this fee through to their
customers—as the Companies do for other operating
and financing costs—without affecting profitability or
the value of the Companies’ equity securities.
120. For the foregoing reasons, Mr. Ugoletti’s statement, in his sworn declaration to the District Court for
the District of Columbia, that the value of the periodic
commitment fee was “incalculably large” is wholly inaccurate. Indeed, Mr. Ugoletti subsequently testified
that he could not recall discussing his idea that the value
of the fee was incalculably large with anyone at FHFA
or Treasury, that he did not know whether anybody
shared that view, that he is neither “an expert on periodic commitment fees,” nor “in the business of calculating” such fees, and that he did not know whether anyone
at FHFA or Treasury ever tried to calculate the value
of the periodic commitment fee. Mr. DeMarco also testified that he could not recall anyone at FHFA attempting to quantify what the periodic commitment fee would
have been in the absence of the Net Worth Sweep.

88
121. As the Agencies anticipated, Fannie and Freddie have been extraordinarily profitable since the imposition of the Net Worth Sweep. From the third quarter
of 2012 through the first quarter of 2016, Fannie and
Freddie have reported total comprehensive income of
$119 billion and $72 billion, respectively.
122. As the Agencies also anticipated, Fannie’s 2013
net income included the release of over $50 billion of the
company’s deferred tax assets valuation allowance. The
release of this valuation allowance underscores Fannie’s
financial strength, as it demonstrates Fannie’s expectation that it will generate sizable taxable income moving
forward. Fannie relied on the following evidence of future profitability in support of the release of its valuation allowance:
•

Its profitability in 2012 and the first quarter of
2013 and expectations regarding the sustainability of these profits;

•

Its three-year cumulative income position as of
March 31, 2013;

•

The strong credit profile of the loans it had acquired since 2009;

•

The significant size of its guaranty book of business and its contractual rights for future revenue from this book of business;

•

Its taxable income for 2012 and its expectations
regarding the likelihood of future taxable income; and

89
•

That its net operating loss carryforwards will
not expire until 2030 through 2031 and its expectation that it would utilize all of these carryforwards within the next few years.

123. Freddie’s 2013 earnings also reflect the Company’s decision to release a sizeable (in excess of $20 billion) deferred tax assets valuation allowance. Freddie
relied on the following evidence in support of its release
of its valuation allowance:
•

Its three-year cumulative income position as of
September 30, 2013;

•

The strong positive trend in its financial performance over the preceding six quarters, including
the quarter ended September 30, 2013;

•

The 2012 taxable income reported in its federal
tax return which was filed in the quarter ended
September 30, 2013;

•

Its forecasted 2013 and future period taxable income;

•

Its net operating loss carryforwards do not
begin to expire until 2030; and

•

The continuing positive trend in the housing
market.

124. The Net Worth Sweep has proven to be immensely profitable for the federal government. The
table below lists only the dividends Fannie and Freddie
have paid under the Net Worth Sweep, and it does not
include dividends paid before that time:

90
Dividend Payments Under the Net Worth Sweep
(in billions)

2013

2014

2015

2016

Total

Fannie

Freddie

Combined

Q1

$4.2

$5.8

$10.0

Q2

$59.4

$7.0

$66.4

Q3

$10.2

$4.4

$14.6

Q4

$8.6

$30.4

$39.0

Q1

$7.2

$10.4

$17.6

Q2

$5.7

$4.5

$10.2

Q3

$3.7

$1.9

$5.6

Q4

$4.0

$2.8

$6.8

Q1

$1.9

$0.9

$2.8

Q2

$1.8

$0.7

$2.5

Q3

$4.4

$3.9

$8.3

Q4

$2.2

$0.0

$2.2

Q1

$2.9

$1.7

$4.6

Q2

$0.9

$0.0

$0.9

Q3

$2.9

$0.9

$3.8

$120.0

$75.3

$195.3

91
125. As the above chart shows, the Companies have
paid Treasury $195.3 billion in “dividends” under the
Net Worth Sweep. Had they instead been paying 10%
cash dividends, they would have paid Treasury approximately $71 billion. The following chart shows how imposition of the Net Worth Sweep dramatically increased
the size of the Companies’ dividend payments to Treasury through the first two quarters of 2016:

92
126. Had the Companies used their quarterly profits
in excess of Treasury’s 10% dividend to partially retire
Treasury’s senior preferred stock, Treasury’s remaining investment in the Companies would today be roughly
$20 billion. But rather than using the Companies’ massive profits to rebuild capital or reduce their dividend
obligations to Treasury, the Net Worth Sweep required
the Companies to simply pay these funds over to Treasury in exchange for nothing. As explained above, the
Agencies knew that the Net Worth Sweep would result
in this massive financial windfall for the federal government.
127. The Net Worth Sweep is squarely contrary to
FHFA’s statutory responsibilities as conservator of
Fannie and Freddie. As conservator FHFA is obligated to “take such action as may be—(i) necessary to
put the regulated entity in a sound and solvent condition; and (ii) appropriate to carry on the business of the
regulated entity and preserve and conserve the assets
and property of the regulated entity.”
12 U.S.C.
§ 4617(b)(2)(D). As FHFA itself has acknowledged,
the agency “has a statutory charge to work to restore a
regulated entity in conservatorship to a sound and solvent condition. . . . ” 76 Fed. Reg. at 35,727. Accordingly, “allowing capital distributions to deplete the
entity’s conservatorship assets would be inconsistent
with the agency’s statutory goals, as they would result
in removing capital at a time when the Conservator is
charged with rehabilitating the regulated entity.” Id.
Thus, FHFA’s own regulations generally prohibit Fannie and Freddie from making a “capital distribution
while in conservatorship,” subject to certain exceptions.
12 C.F.R. § 1237.12(a). Indeed rather than putting
Fannie and Freddie in sound and solvent condition the

93
Net Worth Sweep’s reduction and eventual elimination
of the Companies’ capital reserves increases the likelihood of additional Treasury investment in the Companies while eliminating the possibility that private shareholders will ever receive a return on their investment.
Fannie has acknowledged as much, describing the Net
Worth Sweep as a “risk factor,” Fannie Mae 2012 Annual Report at 46-47 (Form 10-K) (Apr. 2, 2013), http://
goo.gl/rGVpQq, and observing that the Net Worth Sweep
prevents Fannie from “retain[ing] capital to withstand a
sudden, unexpected economic shock.” Press Release,
Statement by Kelli Parsons, Senior Vice President and
Chief Communications Officer, on Stress Test Results
(Apr. 30, 2014), http://goo.gl/g4pSNB.
128. But for the Net Worth Sweep Fannie and Freddie would have over $124 billion of additional capital to
cushion them from any future downturn in the housing
market and to reassure debtholders of the soundness of
their investments. Alternatively, had the Companies
used their profits in excess of Treasury’s 10% dividend
to partially redeem Treasury’s senior preferred stock,
Treasury’s remaining investment would be roughly $20
billion. Instead, because of the Net Worth Sweep, the
Companies are required to operate at the edge of insolvency, with no prospect of ever generating value for private shareholders, rendering the Companies fundamentally unsafe and unsound and more likely to require an
additional—albeit entirely avoidable—government bailout in the future. Depleting capital in this way is antithetical to the basic mission of a conservator. Indeed,
former Acting Director DeMarco has testified that capital levels are “a key component of the safety and soundness of a regulated financial institution” and that, as a
general matter, he thought that there should be more

94
capital in the Companies to increase their safety and
soundness.
129. The Net Worth Sweep’s quarterly sweep of all
net profits thus plainly prevents the Companies from
operating in a sound and solvent manner by prohibiting
them from rebuilding their capital. Nor can distributing the entire net worth of the Companies to Treasury
be reconciled with FHFA’s statutory obligation to preserve and conserve their assets and property.
130. FHFA fully understood that stripping capital
out of a financial institution is the antithesis of operating
it in a sound manner. Its recognition of the importance
of capital levels is demonstrated by an event that took
place shortly after the Net Worth Sweep was announced.
Fannie initially determined that the Company should
reverse its deferred tax assets valuation allowance as of
December 31, 2012. Doing so, however, would reduce the
amount of Treasury’s remaining funding commitment under the formula established by the second amendment to
the PSPAs. FHFA strongly opposed this reduction of
the funding commitment, which it viewed as a form of
capital available to the Companies: “Capital is key driver
for composite rating of critical concerns. The reduction
in capital capacity from the U.S. Treasury and the SPSA
agreements places undue risk on the future of Fannie
Mae in conservatorship.” Indeed, FHFA threatened
Fannie that “if the amount of funds available under the
agreement was reduced as a result of our releasing the
valuation allowance in the fourth quarter of 2012, they
would need to ensure the preservation of our remaining
capital and undertake regulatory actions that could severely restrict our operations, increase our costs, or oth-

95
erwise substantially limit or change our business in order to ensure the continued safety and soundness of our
operations.” As a result of this pressure from FHFA,
Fannie reconsidered its decision and waited until the following quarter to release its valuation allowance, when the
release would no longer affect the size of Treasury’s funding commitment under the PSPAs. Waiting this extra
quarter preserved approximately $34 billion of Treasury’s funding commitment. The Net Worth Sweep, by
contrast, has reduced the capital available to Fannie by
a much larger amount—$124 billion, to date.
131. The Net Worth Sweep is just one example of
FHFA’s efforts to use its status as the Companies’ conservator and regulator to reform the Nation’s housing
finance system by eliminating Fannie and Freddie.
FHFA also directed the Companies to develop the Common Securitization Platform—a de facto merger of the
information technology systems the Companies use to
issue mortgage-backed securities.
FHFA has described the Common Securitization Platform as a “cornerstone[]” of housing finance reform that is intended to
facilitate the entry of new competitors into the mortgage
securitization business. The Common Securitization
Platform is also part of FHFA’s broader effort to force
the Companies to issue “single securities”—mortgagebacked securities with identical characteristics that financial markets will regard as interchangeable. As
with the Common Securitization Platform, the ultimate
goal of FHFA’s single security initiative is to change the
basic structure of the Nation’s housing finance market
to advantage the Companies’ competitors.

96
132. FHFA’s efforts to use its powers to transform
the Nation’s housing finance system are further illustrated by “credit risk transfer” deals the Companies
have agreed to in recent months. Under these deals,
the Companies pay investors to share a portion of the
risk associated with the portfolios of mortgages the
Companies guarantee. Such risk sharing deals are a
priority for FHFA because they further its policy goal
of increasing the role of financial institutions other than
the Companies in the housing finance markets. But
because investors have little interest in participating in
these risk sharing arrangements, the Companies have
been forced to enter into them at FHFA’s direction on
extremely unfavorable terms. As the prospectuses associated with these deals acknowledge, in many instances investors are being paid considerable sums to
enter into risk-sharing arrangements in which the investors would only lose money if mortgage default rates
precipitously rose far beyond the default rates that occurred during the height of the 2008 financial crisis.
Entering into such deals is economically irrational for
the Companies. On information and belief, FHFA understands this fact but is imposing credit risk transfers
on the Companies in order to further its housing finance
reform policy goals.
133. The Net Worth Sweep is likewise one element
of a broader plan to transform the housing finance market and to eliminate Fannie and Freddie. Indeed, a
housing finance reform plan drafted by Treasury in
early 2012 listed “restructur[ing] the PSPAs to allow for
variable dividend payment based on positive net worth”
—i.e., implementing a net worth sweep—as among the
first steps to take in transitioning to the desired outcome.

97
134. Contrary to statutory authority, both Treasury
and FHFA understood the Net Worth Sweep to be a
step toward the liquidation, not the rehabilitation, of the
Companies. This was in stark contrast to FHFA’s
then-Acting Director’s statement two years earlier that,
absent legislative action, “the only [post-conservatorship
option] that FHFA may implement today under existing
law is to reconstitute [Fannie and Freddie] under their
current charters.” February 2, 2010 Letter of Acting
Director DeMarco to Chairmen and Ranking Members
of the Senate Committee on Banking, Housing, and Urban Affairs and the House Committee on Financial Services. Communications between FHFA and Treasury,
however, indicate that by January 2012 the Agencies
shared common goals that included providing the public
and financial markets with a clear plan to wind down
Fannie and Freddie.
135. Statements by both FHFA and Treasury provide further confirmation that the Net Worth Sweep violates FHFA’s statutory restrictions as conservator.
Treasury, for example, said the Net Worth Sweep would
“expedite the wind down of Fannie Mae and Freddie
Mac,” and it emphasized that the “quarterly sweep of
every dollar of profit that each firm earns going forward” would make “sure that every dollar of earnings
that Fannie Mae and Freddie Mac generate will be used
to benefit taxpayers.” Press Release, U.S. Dep’t of the
Treasury, Treasury Department Announces Further
Steps to Expedite Wind Down of Fannie Mae and Freddie Mac (Aug. 17, 2012). Indeed, Treasury emphasized
that the Net Worth Sweep would ensure that the Companies “will be wound down and will not be allowed to
retain profits, rebuild capital, and return to the market
in their prior form.” Id.

98
136. Unbeknownst to the public, as early as December 2010, an internal Treasury memorandum acknowledged the “Administration’s commitment to ensure existing common equity holders will not have access to any
positive earnings from the [Companies] in the future.”
Action Memorandum for Secretary Geithner (Dec. 20,
2010). Just weeks later, however, in another internal
document the author of this memorandum acknowledged that “the path laid out under HERA and the Paulson Treasury when the [the Companies] were put into
conservatorship in September 2008” was for Fannie and
Freddie to “becom[e] adequately capitalized” and “exit
conservatorship as private companies” with “existing
common shareholders” being “substantially diluted”—
but not eliminated. Memorandum from Jeffery A. Goldstein, Undersecretary of Domestic Finance, to Timothy
Geithner, United States Secretary of the Treasury at 4
(Jan. 4, 2011). The memorandum also acknowledged that
any threat to Treasury’s funding commitment from dividend payments potentially could be addressed by “converting [Treasury’s] preferred stock into common or
cutting or deferring payment of the dividend (under legal review).” Id. In other words, the problem Treasury was purportedly trying to solve with the Net Worth
Sweep, a cash dividend too high to be serviced by earnings, could be addressed by other means already known
to Treasury, such as cutting or deferring payment of the
dividend.
137. Several additional facts further show that the
purported “circular dividend” problem the Agencies have
used to explain the Net Worth Sweep was entirely illusory and is a mere pretext for the Agencies’ decision.
First, as explained above, the original terms of the PSPAs
entitled the Companies to pay Treasury’s dividends in

99
kind with additional stock, thus avoiding the need to
make draws on Treasury’s funding commitment to finance cash dividends they could not otherwise afford.
138. Second, the Agencies actually considered an alternative to the arrangement they ultimately adopted
that would have had the Net Worth Sweep only kick in
if Treasury’s remaining funding commitment fell below
$100 billion. The only plausible explanation for the
Agencies’ decision not to embrace that alternative is
that they knew it would allow the Companies to rebuild
capital in contravention of the Agencies’ secret and unauthorized commitment to wipe out private shareholders.
139. Third, the structure and timing of the Net
Worth Sweep—coming when the Companies were about
to add tens of billions of dollars to their balance sheets—
had the effect of reducing the amount of money available
to guarantee that the Companies would maintain a positive net worth. If the Agencies were genuinely concerned about reassuring the Companies’ bond investors
that they would be repaid, the Agencies would have delayed imposing the Net Worth Sweep so long as the
Companies maintained a substantial positive net worth.
Instead, they adopted the Net Worth Sweep at a time
when they knew that its near-term effect would be to
transfer to Treasury massive profits that the Companies
could have otherwise retained as a capital buffer and
used to avoid making draws on Treasury’s funding commitment in any subsequent unprofitable quarters.
FHFA recently acknowledged how the Net Worth Sweep
increases the chances of further draws on Treasury’s
funding commitment, observing that the Companies “are
constrained by the PSPAs from building capital” and

100
that the lack of retained capital combined with “markto-market volatility from the [Companies’] derivatives
portfolio” has the effect of increasing “the likelihood of
negative net worth in future quarters.” Thus, even if
the Agencies believed that the Companies could not generate enough profits in the long term to finance a 10%
dividend on Treasury’s investment, they would not have
imposed the Net Worth Sweep when they did if their
goal was to preserve Treasury’s funding commitment.
Doing so only increased the likelihood of future draws.
140. FHFA Acting Director Edward DeMarco informed a Senate Committee that the “recent changes to
the PSPAs, replacing the 10 percent dividend with a net
worth sweep, reinforce the notion that the [Companies]
will not be building capital as a potential step to regaining their former corporate status.” Edward J. DeMarco, Acting Director, FHFA, Statement Before the
U.S. Sen. Comm. on Banking & Urban Affairs 3 (Apr.
18, 2013). In its 2012 report to Congress, FHFA explained that it had begun “prioritizing [its] actions to
move the housing industry to a new state, one without
Fannie Mae and Freddie Mac.” FHFA, 2012 Rep. at
13. Thus, according to FHFA, the Net Worth Sweep
“ensures all the [Companies’] earnings are used to benefit taxpayers” and “reinforces the fact that the [Companies] will not be building capital.” Id. at 1, 13. In
short, the Net Worth Sweep plainly is central to the
FHFA’s new plan to “wind[] up the affairs of Fannie and
Freddie,” Remarks of Edward J. DeMarco, Getting Our
House in Order at 6 (Wash., D.C., Oct. 24, 2013), and
thus cannot be reconciled with the agency’s statutory
obligations as conservator of Fannie and Freddie.

101
141. While purportedly waiting for Congress to initiate potential legislative action on Fannie and Freddie,
FHFA has resolved to operate the Companies for the
exclusive benefit of the federal government rather than
for the benefit of the Companies themselves and their
private stakeholders. The Net Worth Sweep is only
the most blatant manifestation of this egregious decision, which is reflected in numerous additional FHFA
statements and actions. In short, while HERA directs
FHFA to operate the Companies in a manner that rebuilds their capital and returns them to private control,
FHFA has resolved to operate Fannie and Freddie with
a view toward “minimiz[ing] losses on behalf of taxpayers,” FHFA, A STRATEGIC PLAN FOR ENTERPRISE CONSERVATORSHIPS:
THE NEXT CHAPTER IN A STORY
THAT NEEDS AN ENDING 7 (Feb. 21, 2012)—a goal that
ignores a simple reality: no such losses have been incurred, and Treasury has to date realized a $63 billion
profit on its investment in the Companies. Indeed,
FHFA has made clear that its “overriding objectives”
are to operate Fannie and Freddie to serve the federal
government’s policy goals of “[g]etting the most value
for taxpayers and bringing stability and liquidity to
housing finance . . . . ” Id. at 21. Director Watt
summed up the situation succinctly when stating that he
does not “lay awake at night worrying about what’s fair
to the shareholders” but rather focuses on “what is responsible for the taxpayers.” Nick Timiraos, FHFA’s
Watt ‘Comfortable’ with U.S. Sweep of Fannie, Freddie
Profits, WALL STREET JOURNAL MONEY BEAT BLOG
(May 16, 2014, 3:40 PM), http://goo.gl/Tltl0U.
142. Following FHFA’s lead, Fannie’s management
has publicly acknowledged that it does not routinely

102
consider the interests of private shareholders when operating the company. Timothy Mayopoulos, Fannie’s
CEO, recently said that his company’s management is
“not looking to maximize profits for investors” and that
he is “less interested in what happens to Fannie Mae as
a legal entity.” Fannie has also expressly disavowed
any fiduciary duty to its private shareholders in its SEC
filings. See Fannie Mae 2014 Annual Report at 1
(Form 10-K) (Feb. 20, 2015), http://goo.gl/FZofs6 (“Our
directors do not have any fiduciary duties to any person
or entity except to the conservator and, accordingly, are
not obligated to consider the interests of the company,
[or] the holders of our equity or debt securities . . .
unless specifically directed to do so by the conservator.”).
143. The dramatically negative impact of the Net
Worth Sweep on the Companies’ private shareholders is
demonstrated by Fannie’s results in the first quarter of
2013. At the end of the first quarter Fannie’s net worth
stood at $62.4 billion. Under the prior versions of the
PSPAs, if Fannie chose to declare a cash dividend it
would have been obligated to pay Treasury a dividend of
only $2.9 billion, and the balance—$59.5 billion—would
have been credited to its capital. Private shareholders
would have been entitled to a pro rata share of any additional amount of that residual capital paid out to Treasury in dividends. The Net Worth Sweep, however, required Fannie to pay Treasury $59.4 billion, while private
shareholders received nothing.
144. Contrary to FHFA’s statutory authority, FHFA
has ensured that the Companies cannot operate independently and must remain wards of the federal govern-

103
ment. FHFA has announced that, during the conservatorship, existing statutory and FHFA-directed regulatory capital requirements will not be binding on the
Companies. And at the end of 2012, Fannie had a deficit of core capital in relation to statutory minimum capital of $141.2 billion. This deficit decreased to $88.3 billion by the end of the first quarter of 2013. When adjusted for the $59.4 billion dividend payment to Treasury, however, Fannie’s core capital deficit jumped back
up to $147.7 billion. Thus, because of the Net Worth
Sweep, Fannie was in a worse position with respect to its
core capital—and thus further from being able to generate a return on private shareholders’ investments—than
it was before the record-breaking profitability it achieved
in the first quarter of 2013.
145. Furthermore, under FHFA’s conservatorship
Fannie and Freddie have elected to pay Treasury its
dividend in cash, even though their net worth includes
changes in both cash and non-cash assets. In the first
quarter of 2013, for example, over $50 billion of Fannie’s
profitability resulted from the release of the Company’s
deferred tax assets valuation allowance—the same noncash asset that previously created massive paper losses
for the Company. As a result, Fannie was required to
“fund [its] second quarter dividend payment of $59.4 billion primarily through the issuance of debt securities.”
Fannie, 2013 First Quarter Report, at 42.
146. Borrowing money to pay an enormous dividend
on a non-cash profit (due to an accounting reversal) is
without precedent in a conservatorship. It also is
clearly contrary to FHFA’s statutory obligations as conservator, as FHFA is operating the Companies in an inherently unsafe and unsound manner and hindering the

104
ability of the Companies to restore their financial health
so that they can be returned to normal business operations.
147. FHFA’s decision to direct the Companies to declare and pay Treasury’s dividends in cash not only
forced the Companies to pay out vast sums of cash to
Treasury but also compelled them to make interest payments on subordinated debt that they could have otherwise deferred. When the Companies were forced into
conservatorship, both had significant amounts of outstanding subordinated debt. Under the terms of their
agreements with subordinated debt holders, the Companies were entitled to defer paying interest on that
debt when their retained capital fell below a specified
threshold. If the Companies chose to exercise this option, however, they were contractually obliged not to
pay cash dividends on any stock—including Treasury’s
Government Stock. Despite announcing during the
early days of conservatorship that its capital reserves
had fallen below levels that entitled it to withhold subordinated debt payments, FHFA directed Fannie to
continue making these interest payments, citing the fact
that deferring subordinated debt payments would have
required Fannie to stop paying cash dividends on its
stock. Similarly, Freddie disclosed that FHFA directed it to continue paying interest on its subordinated
debt and not to exercise its contractual right to defer
those payments. FHFA’s decision to direct the Companies to make unnecessary subordinated debt payments that could have been used to build up their capital
reserves shows that it is operating the Companies with
the aim of maximizing dividend payments to Treasury
and with no concern for the soundness and safety of the

105
Companies, the preservation of their assets, or the interests of private shareholders. If FHFA had been
genuinely concerned about preserving the Companies’
assets and avoiding a purported “death spiral” in which
the Companies exhausted Treasury’s funding commitment, it would not have ordered them to make gratuitous payments on their subordinated debt. Instead, it
directed the Companies to make payments to subordinated debtholders so that they could also pay cash dividends to Treasury.
148. The Net Worth Sweep has become a major revenue source for the United States Government at the expense of Plaintiffs and other private shareholders. For
example, the federal government’s record-breaking
$53.2 billion surplus for the month of December 2013
was driven in large part by the $39 billion swept from
Fannie and Freddie. Fannie’s and Freddie’s outsize
dividend payments in 2013 also extended Treasury’s
ability to meet federal obligations during the debt ceiling crisis.
149. As previously noted, Treasury’s temporary statutory authority to purchase the securities of the Companies was conditioned on its consideration of certain statutory factors, including “the need to maintain the [Companies’] status as . . . private shareholder-owned
compan[ies]” and the Companies’ plans “for the orderly
resumption of private market funding or capital market
access.” See 12 U.S.C. §§ 1455(l)(1)(C), 1719(g)(1)(C).
There is no public record that Treasury considered
these factors before executing the Net Worth Sweep,
and Treasury has asserted that it did not need to consider them. Indeed, the terms of the Net Worth Sweep
requiring the quarterly payment of all profits and the

106
winding down of the Companies’ operations are wholly
inconsistent with these factors. There is also no evidence that Treasury adequately considered alternatives
to the Net Worth Sweep that would have been consistent
with its statutory obligations, less harmful to Plaintiffs
and other private shareholders, and more likely to ensure the Companies’ future solvency. Finally, there is
no evidence that Treasury fulfilled the statutory requirement to report exercises of its temporary purchase authority to Congress upon entering the Net Worth Sweep.
See 12 U.S.C. §§ 1455(l)(1)(D); 1719(g)(1)(D).
150. Finally, there is no public record that Treasury
considered whether the Net Worth Sweep is consistent
with its fiduciary duties, and the Companies controlling
shareholder, to Fannie’s and Freddie’s shareholders.
And the Net Worth Sweep is wholly inconsistent with
those duties.
Dividend Payments Under the Purchase Agreements

151. Treasury has disbursed $116.1 billion to Fannie
under the PSPAs, and Treasury has recouped a total of
$151.4 billion from Fannie in the form of purported “dividends.” Treasury has disbursed $71.3 to Freddie under the PSPAs and Treasury has recouped a total of
$99.1 billion from Freddie in the form of purported “dividends.” Combined, Fannie and Freddie have paid
Treasury approximately $63 billion more than they have
received.
152. Yet, under the Net Worth Sweep, these purported dividend payments do not operate to pay down
the liquidation preference or otherwise redeem any of
Treasury’s Government Stock. The liquidation preference of Treasury’s Government Stock in the Companies

107
purportedly remains at approximately $189 billion (due
to the Companies’ draws and the $1 billion initial valuation of Treasury’s Government Stock in each) and will
remain at that amount regardless of how many billions
of dollars the Companies pay to Treasury in dividends
going forward. The Government’s rate of return is infinite, like that of a common equity holder.
153. Indeed, the fundamental nature of the change
in Treasury’s investment resulting from the Net Worth
Sweep is illustrated by the facts that Treasury is now
effectively Fannie’s and Freddie’s sole equity shareholder and that Treasury’s securities in the Companies
are now effectively equivalent to 100% of the Companies’
common stock. After giving effect to the Net Worth
Sweep, Treasury has both the right to receive all profits
of the Companies as well as control over the manner in
which the Companies conduct business. Accordingly,
following the Net Worth Sweep, Treasury’s Government
Stock should be characterized in a manner consistent
with its economic fundamentals as 100% of the Companies’ common stock. Indeed, the Government Stock
must be deemed as common or voided altogether because,
by definition, preferred stock must have preferences
over other classes of stock. See 8 DEL. CODE tit. 8,
§ 151(c); VA. CODE § 13.1-638(C)(4). After the Net
Worth Sweep, of course, the economic rights of other
classes of Fannie and Freddie stock have been effectively eliminated, leaving nothing for the Government
Stock to have preference over. The Government Stock
simply takes everything.
154. That FHFA and Treasury continue to label the
Government Stock as a preferred equity security—or
the imposition of the Net Worth Sweep as a mere

108
“amendment”—is not controlling or persuasive, particularly in light of the fact that the Net Worth Sweep was
not an arms-length business transaction. Rather it
was a self-dealing arrangement between two agencies of
the federal government for the benefit of the federal
government.
Moreover, as explained above, statements by Treasury and FHFA make clear that the Net
Worth Sweep was designed with the intent to grant the
federal government the right to all of Fannie’s and
Freddie’s future profits and to ensure that the Companies will remain under the control of the federal government and never return to the control of their private
shareholders.
CLAIMS FOR RELIEF
COUNT I
FHFA’s Conduct Exceeded Its
Statutory Authority As Conservator

155. Plaintiffs incorporate by reference the allegations of the preceding paragraphs.
156. The APA requires the Court to “hold unlawful
and set aside agency action, findings, and conclusions”
that are “in excess of statutory jurisdiction, authority,
or limitations” or that are “without observance of procedure required by law.” 5 U.S.C. § 706(2)(C), (D). In
addition to the limitations established under the APA,
FHFA’s authority as conservator of the Companies is
strictly limited by statute. See 12 U.S.C. § 4617(b)(2)(D).
157. The Net Worth Sweep is inimical to the very
definition of what it means to be a conservator, which is
a term with a well-established meaning in financial regulation. A conservator is charged with seeking to rehabilitate the company under its control, not to operate

109
the company for its own benefit while stripping it of its
assets.
158. The Net Worth Sweep is in direct contravention
of the statutory command that FHFA as conservator
must undertake those actions “necessary to put the [Companies] in a sound and solvent condition” and “appropriate to carry on the business of the [Companies] and preserve and conserve [their] assets and property.” 12
U.S.C. § 4617(b)(2)(D). Indeed, rather than seeking to
put the Companies in a “sound and solvent” condition
and to preserve and conserve the Companies’ assets and
property, FHFA has expropriated the Companies’ entire net worth for the benefit of the federal government,
to the detriment of private shareholders such as Plaintiff.
159. Furthermore, FHFA’s purpose as conservator
is to seek to rehabilitate Fannie and Freddie, but the
Net Worth Sweep makes such rehabilitation impossible.
Rather, the Net Worth Sweep makes clear that FHFA
and Treasury intend to keep Fannie and Freddie in conservatorship indefinitely, operating them for the sole
benefit of the federal government, unless Congress passes
legislation resolving the situation.
160. FHFA also acted beyond its authority by reinterpreting its statutory duty as a conservator under
HERA to be a duty to taxpayers only and by resolving
to hold Fannie and Freddie in a perpetual conservatorship to be operated for the benefit of the federal government.
161. FHFA’s conduct was therefore outside of
FHFA’s authority under HERA and “in excess of statutory . . . authority” and “without observance of

110
procedure required by law,” and Plaintiffs are therefore
entitled to relief against FHFA pursuant to 5 U.S.C.
§§ 702, 706(2)(C), (D).
COUNT II
Treasury’s Conduct Exceeded Its Statutory Authority

162. Plaintiffs incorporate by reference the allegations of the preceding paragraphs.
163. The APA requires the Court to “hold unlawful
and set aside agency action, findings, and conclusions”
that are “in excess of statutory jurisdiction, authority,
or limitations” or that are “without observance of procedure required by law.” 5 U.S.C. § 706(2)(C), (D). Treasury’s statutory authority to purchase securities issued
by the Companies expired on December 31, 2009. 12
U.S.C. §§ 1455(l)(4), 1719(g)(4). The Net Worth Sweep,
which was executed on August 17, 2012, contravenes this
unambiguous limit on Treasury’s authority.
164. The Net Worth Sweep created an entirely new
security. Under the original Purchase Agreements,
Treasury purchased Government Stock that entitled it
to a 10% cash or 12% in-kind quarterly dividend on an
amount equal to the aggregate liquidation preference of
the Government Stock. The Government Stock was a
fixed return security not otherwise entitled to participate in the unlimited upside of the Companies’ earnings.
By contrast, the Net Worth Sweep entitles Treasury to
a quarterly distribution of all of the Companies’ earnings for as long as they remain in operation. The Net
Worth Sweep thus effected a wholesale change to the
nature of Treasury’s securities after its statutory authority to purchase new securities had expired, and it

111
converted Treasury’s Government Stock into new securities that nationalize the Companies and entitle Treasury to 100% of their net worth as if Treasury were the
outright owner of all common stock in the Companies.
Treasury cannot evade this clear statutory restriction
on its authority to purchase securities of the Companies
by the simple expedient of calling these new securities
an “amendment” to the old securities. As former Acting Director DeMarco has testified, the Net Worth Sweep
amounted to “an exchange [of] one set of compensation
to Treasury for another one.”
165. In addition, before exercising its temporary authority to purchase securities, Treasury is required to
“determine that such actions are necessary to . . .
(i) provide stability to the financial markets; (ii) prevent
disruptions in the availability of mortgage finance; and
(iii) protect the taxpayer.” 12 U.S.C. § 1719(g)(1)(B).
In making the statutorily required determinations,
Treasury must consider such factors as “the [Companies’] plan[s] for the orderly resumption of private market funding or capital market access” and “the need to
maintain the [Companies’] status as . . . private
shareholder-owned compan[ies],” among other factors.
Id. § 1719(g)(1)(C)(iii), (v).
166. These statutory criteria must apply to any and
all “amendments” to the Purchase Agreements. Were
it otherwise, Treasury could fundamentally alter its investments in the Companies at any time, including after
its investment authority has expired and effectively turn
Treasury’s limited, temporary grant of authority to purchase the Companies’ securities under certain conditions, into an unconstrained and permanent authority

112
and subvert the statutory limitations imposed by Congress.
167. As far as the public record discloses, Treasury
did not make any of the required determinations or consider any of the necessary factors before imposing the
Net Worth Sweep. It therefore exceeded its statutory
authority.
168. The Net Worth Sweep is beyond Treasury’s authority because it is not compatible with due consideration of factors that Treasury must consider before purchasing the Companies’ securities or amending its agreements to purchase such securities. The Net Worth
Sweep destroys the value of the Companies’ private
stock. The Net Worth Sweep is therefore wholly incompatible with “the need to maintain the [Companies’]
status as . . . private shareholder-owned compan[ies]”
and with the “orderly resumption of private market
funding or capital market access.”
169. Finally, the Net Worth Sweep increased the
probability of future Treasury disbursements by preventing the Companies from rebuilding their capital levels. As Secretary Paulson has admitted, disbursements
pursuant to Treasury’s funding commitment amount to
purchases of additional Government Stock. But Treasury’s authority to make such purchases expired after
December 31, 2009.
170. Treasury’s conduct was therefore outside of
Treasury’s authority under HERA and “in excess of
statutory . . . authority” and “without observance
of procedure required by law,” and Plaintiffs are therefore entitled to relief against Treasury pursuant to
5 U.S.C. §§ 702, 706(2)(C), (D).

113
COUNT III
Treasury’s Conduct Was Arbitrary and Capricious

171. Plaintiffs incorporate by reference the allegations of the preceding paragraphs.
172. The APA requires the Court to “hold unlawful
and set aside agency action, findings, and conclusions”
that are “arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law.”
5 U.S.C.
§ 706(2)(A). This means, among other things, that
agency action is unlawful unless it is the product of “reasoned decisionmaking” that considers every responsible
alternative. Motor Vehicle Mfrs. Ass’n, 463 U.S. at 52.
Decisionmaking that relies on inadequate evidence or
that results in inconsistent or contradictory conclusions
cannot satisfy that standard.
173. Before Treasury exercises its temporary authority to purchase the Companies’ securities, it is required to determine that the financial support is necessary to “provide stability to the financial markets,” “prevent disruptions in the availability of mortgage finance,”
and “protect the taxpayer.” 12 U.S.C. §§ 1455(l)(1)(B),
1719(g)(1)(B). In making these determinations, Treasury is further required to “take into consideration” several factors, including the “plan for the orderly resumption of private market funding or capital market access,”
and the “need to maintain [the] status [of Fannie and
Freddie] as . . . private shareholder-owned compan[ies].” Id. §§ 1455(l)(1)(C); 1719(g)(1)(C).
174. These statutory criteria plainly apply to any
and all “amendments” of the Purchase Agreements.
Were it otherwise, Treasury could fundamentally alter
its investments in the Companies at any time, including

114
after its investment authority has expired and effectively turn Treasury’s limited, temporary grant of authority to purchase the Companies’ securities under certain conditions, into an unconstrained and permanent
authority and subvert the statutory limitations imposed
by Congress.
175. There is no evidence in the public record that
Treasury made the required determinations or considered the necessary factors before imposing the Net
Worth Sweep. Indeed, the available evidence reveals
that none of the necessary conditions was satisfied.
Further, Treasury also has not explained whether it
considered alternatives to the Net Worth Sweep that
would have been both consistent with its statutory obligations and less harmful to Plaintiffs and other private
shareholders. Treasury has thus arbitrarily and capriciously failed to provide a reasoned explanation for its
conduct, which results in the Government’s expropriation of all private shareholder value in the Companies’
stock.
176. Treasury also arbitrarily and capriciously failed
to consider alternatives to the Net Worth Sweep that
would have better promoted stability in the mortgage
markets by leaving the Companies on a sound financial
footing. There is no evidence in the public record that
Treasury considered alternatives to the Net Worth
Sweep that would have provided greater assurance to
investors that the Companies will be able to service their
debts in the future.
177. Treasury also acted in an arbitrary and capricious manner by failing to consider whether the Net
Worth Sweep is consistent with its fiduciary duties to

115
minority shareholders as the Companies’ dominant
shareholder.
178. Treasury also acted arbitrarily and capriciously
by relying on outdated and demonstrably inaccurate
projections of Fannie’s and Freddie’s future financial
performance while ignoring or failing adequately to account for more timely and accurate information on that
subject.
179. Under applicable state law governing shareholders’ relationship with Fannie and with Freddie, a
corporation’s dominant shareholders owe fiduciary duties to minority shareholders.
180. Treasury is the dominant shareholder and de
facto controlling entity of the Companies. For example, Treasury serves as the Companies’ only permitted
source of capital, and Treasury must give permission to
the Companies before they can issue other equity securities and before they can sell assets valued above $250
million.
181. The Net Worth Sweep effectively transfers the
value of other classes of Fannie and Freddie stock from
Plaintiffs and other private holders to the Companies’
dominant shareholder. And as Treasury admits, the
Net Worth Sweep’s express purpose is to wind down the
Companies’ operations. Treasury’s actions in preventing Plaintiffs and other minority shareholders from receiving any dividends or value from their stock, combined with Treasury’s intent to wind down the Companies, render the private stock devoid of any value or prospect of return.

116
182. Treasury’s conduct was therefore arbitrary and
capricious, and Plaintiffs are entitled to relief under
5 U.S.C. §§ 702, 706(2)(A).
COUNT IV
Violation of the Separation of Powers

183. Plaintiffs incorporate by reference the allegations of the preceding paragraphs.
184. The Constitution provides that the “executive
Power shall be vested in a President,” U.S. Const. art.
II, § 1, and that “he shall take Care that the Laws be
faithfully executed,” U.S. Const. art. II, § 3. Those
provisions vest all executive power in the President of
the United States.
185. By making FHFA’s head a single Director rather than a multi-member Board and eliminating the
President’s power to remove the Director at will, HERA
violates the Constitution’s separation of powers. An
independent agency headed by a single Director is virtually unprecedented in our Nation’s history, and this
structure impermissibly concentrates power in a single
person who is not the President.
186. The constitutional defect in FHFA’s structure
is exacerbated by the fact that FHFA has broad power
over the housing sector, a vital part of the economy that
represents between 15% and 18% of Gross Domestic
Product. FHFA oversees entities that provide more
than $5.8 trillion in funding for the U.S. mortgage markets and financial institutions, and it has used its conservatorship and regulatory authority in an effort to reform this vast sector of the economy.

117
187. Neither Congress nor the President can negate
the constitution’s structural requirements by signing or
enacting (and thereby acceding to) HERA. “Perhaps
an individual President”—or Congress—“might find advantages in tying his own hands,” the Supreme Court
has noted, “[b]ut the separation of powers does not depend on the views of individual Presidents”—or particular Congresses. Free Enter. Fund v. Pub. Co. Accounting Oversight Bd., 130 S. Ct. 3138, 3155 (2010).
The Constitution’s separation of powers does not depend “on whether ‘the encroached-upon branch approves the encroachment.’ ” Id. (quoting New York v.
United States, 505 U.S. 144, 182 (1992)).
188. “The diffusion of power” away from Congress
and the President, to the independent FHFA, “carries
with it a diffusion of accountability. . . . Without a
clear and effective chain of command, the public cannot
‘determine on whom the blame or the punishment of a
pernicious measure, or series of pernicious measures
ought really to fall.” Id. (quoting The Federalist No.
70, p. 476 (J. Cooke ed. 1961) (A. Hamilton)).
189. Accordingly, because the Net Worth Sweep was
adopted by FHFA when it was headed by a single person who was not removable by the President at will, it
must be vacated and set aside.
PRAYER FOR RELIEF

190. WHEREFORE, Plaintiffs pray for an order
and judgment:
a. Declaring that the Net Worth Sweep, and its
adoption, are not in accordance with and violate
HERA within the meaning of 5 U.S.C. § 706(2)(C),
that Treasury acted arbitrarily and capriciously

118
within the meaning of 5 U.S.C. § 706(2)(A) by executing the Net Worth Sweep, and that FHFA’s structure violates the separation of powers;
b. Enjoining Treasury and its officers, employees, and agents to return to Fannie and Freddie all
dividend payments made pursuant to the Net Worth
Sweep or, alternatively, recharacterizing such payments as a pay down of the liquidation preference and
a corresponding redemption of Treasury’s Government Stock rather than mere dividends;
c. Vacating and setting aside the Net Worth
Sweep, including its provision sweeping all of the
Companies’ net worth to Treasury every quarter;
d. Enjoining FHFA and its officers, employees,
and agents from implementing, applying, or taking
any action whatsoever pursuant to the Net Worth
Sweep;
e. Enjoining Treasury and its officers, employees, and agents from implementing, applying, or taking any action whatsoever pursuant to the Net Worth
Sweep;
f. Awarding Plaintiffs their reasonable costs, including attorneys’ fees, incurred in bringing this action; and
g. Granting such other and further relief as this
Court deems just and proper.

119
Respectfully submitted,
Beck Redden LLP

By:

/s/

CHAD FLORES
CHAD FLORES, Attorney-in-charge
Texas Bar No. 24059759
S.D. Tex. Bar. No. 1060324
Owen J. McGovern, Of counsel
Texas Bar No. 24092804
S.D. Tex. Bar. No. 2523814
Parth S. Gejji, Of counsel
Texas Bar No. 24087575
S.D. Tex. Bar No. 2917332
1221 McKinney St., Suite 4500
Houston, TX 77010
(713) 951-3700 Telephone
(713) 951-3720 Facsimile
Counsel for Plaintiffs

120
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION

Civil Action No. 4:16-CV-03113
J. PATRICK COLLINS, ET AL., PLAINTIFFS
v.
THE FEDERAL HOUSING FINANCE AGENCY, ET AL.,
DEFENDANTS

Filed: Jan. 9, 2017
MEMORANDUM OF DEFENDANTS FEDERAL
HOUSING FINANCE AGENCY AS CONSERVATOR
FOR FANNIE MAE AND FREDDIE MAC AND FHFA
DIRECTOR MELVIN L. WATT IN SUPPORT OF
MOTION TO DISMISS

*

*

*

*

*

121

Exhibit A

122
EXECUTION VERSION
AMENDED AND RESTATED SENIOR PREFERRED
STOCK PURCHASE AGREEMENT

AMENDED AND RESTATED SENIOR PREFERRED STOCK PURCHASE AGREEMENT (this
“Agreement”) dated as of September 26, 2008, between
the UNITED STATES DEPARTMENT OF THE
TREASURY (“Purchaser”) and FEDERAL NATIONAL MORTGAGE ASSOCIATION (“Seller”), acting through the Federal Housing Finance Agency (the
“Agency”) as its duly appointed conservator (the
Agency in such capacity, “Conservator”). Reference is
made to Article 1 below for the meaning of capitalized
terms used herein without definition.
Background

A. The Agency has been duly appointed as Conservator for Seller pursuant to Section 1367(a) of the
Federal Housing Enterprises Financial Safety and
Soundness Act of 1992 (as amended, the “FHE Act”).
Conservator has determined that entry into this Agreement is (i) necessary to put Seller in a sound and solvent
condition; (ii) appropriate to carry on the business of
Seller and preserve and conserve the assets and property of Seller; and (iii) otherwise consistent with its powers, authorities and responsibilities.
B. Purchaser is authorized to purchase obligations and other securities issued by Seller pursuant to
Section 304(g) of the Federal National Mortgage Association Charter Act, as amended (the “Charter Act”).
The Secretary of the Treasury has determined, after
taking into consideration the matters set forth in Section 304(g)(1)(C) of the Charter Act, that the purchases

123
contemplated herein are necessary to (i) provide stability to the financial markets; (ii) prevent disruptions in
the availability of mortgage finance; and (iii) protect the
taxpayer.
C. Purchaser and Seller executed and delivered
the Senior Preferred Stock Purchase Agreement dated
as of September 7, 2008 (the “Original Agreement”), and
the parties thereto desire to amend and restate the
Original Agreement in its entirety as set forth herein.
lows:

THEREFORE, the parties hereto agree as folTerms and Conditions

1.

DEFINITIONS

As used in this Agreement, the following terms
shall have the meanings set forth below:
“Affiliate” means, when used with respect to a specified
Person (i) any direct or indirect holder or group (as defined in Sections 13(d) and 14(d) of the Exchange Act) of
holders of 10.0% or more of any class of capital stock of
such Person and (ii) any current or former director or
officer of such Person, or any other current or former
employee of such Person that currently exercises or formerly exercised a material degree of Control over such
Person, including without limitation each current or former Named Executive Officer of such Person.
“Available Amount” means, as of any date of determination, the lesser of (a) the Deficiency Amount as of such
date and (b) the Maximum Amount as of such date.

124
“Business Day” means any day other than a Saturday,
Sunday or other day on which commercial banks are authorized to close under United States federal law and
the law of the State of New York.
“Capital Lease Obligations” of any Person shall mean
the obligations of such Person to pay rent or other
amounts under any lease of (or other similar arrangement conveying the right to use) real or personal property, or a combination thereof, which obligations are required to be classified and accounted for as capital leases
on a balance sheet of such Person under GAAP and, for
purposes hereof, the amount of such obligations at any
time shall be the capitalized amount thereof at such time
determined in accordance with GAAP.
“Control” shall mean the possession, directly or indirectly, of the power to direct or cause the direction of the
management or policies of a Person, whether through the
ownership of voting securities, by contract or otherwise.
“Deficiency Amount” means, as of any date of determination, the amount, if any, by which (a) the total liabilities of Seller exceed (b) the total assets of Seller (such
assets excluding the Commitment and any unfunded
amounts thereof ), in each case as reflected on the balance sheet of Seller as of the applicable date set forth in
this Agreement, prepared in accordance with GAAP;
provided, however, that:
(i) for the avoidance of doubt, in measuring the Deficiency Amount liabilities shall exclude any obligation in respect of any capital stock of Seller, including
the Senior Preferred Stock contemplated herein;
(ii) in the event that Seller becomes subject to receivership or other liquidation process or proceeding,

125
“Deficiency Amount” shall mean, as of any date of determination, the amount, if any, by which (a) the total
allowed claims against the receivership or other applicable estate (excluding any liabilities of or transferred to any LLRE (as defined in Section 5.4(a)) created by a receiver) exceed (b) the total assets of such
receivership or other estate (excluding the Commitment, any unfunded amounts thereof and any assets of
or transferred to any LLRE, but including the value
of the receiver’s interest in any LLRE);
(iii) to the extent Conservator or a receiver of Seller,
or any statute, rule, regulation or court of competent
jurisdiction, specifies or determines that a liability of
Seller (including without limitation a claim against
Seller arising from rescission of a purchase or sale of
a security issued by Seller (or guaranteed by Seller or
with respect to which Seller is otherwise liable) or for
damages arising from the purchase, sale or retention
of such a security) shall be subordinated (other than
pursuant to a contract providing for such subordination) to all other liabilities of Seller or shall be treated
on par with any class of equity of Seller, then such
liability shall be excluded in the calculation of Deficiency Amount; and
(iv) the Deficiency Amount may be increased above
the otherwise applicable amount by the mutual written agreement of Purchaser and Seller, each acting in
its sole discretion.
“Designated Representative” means Conservator or (a)
if Conservator has been superseded by a receiver pursuant to Section 1367(a) of the FHE Act, such receiver,
or (b) if Seller is not in conservatorship or receivership

126
pursuant to Section 1367(a) of the FHE Act, Seller’s
chief financial officer.
“Director” shall mean the Director of the Agency.
“Effective Date” means the date on which this Agreement shall have been executed and delivered by both of
the parties hereto.
“Equity Interests” of any Person shall mean any and all
shares, interests, rights to purchase or otherwise acquire, warrants, options, participations or other equivalents of or interests in (however designated) equity,
ownership or profits of such Person, including any preferred stock, any limited or general partnership interest
and any limited liability company membership interest,
and any securities or other rights or interests convertible into or exchangeable for any of the foregoing.
“Exchange Act” means the Securities Exchange Act of
1934, as amended, and the rules and regulations of the
SEC promulgated thereunder.
“GAAP” means generally accepted accounting principles in effect in the United States as set forth in the
opinions and pronouncements of the Accounting Principles Board and the American Institute of Certified Public Accountants and statements and pronouncements of
the Financial Accounting Standards Board from time to
time.
“Indebtedness” of any Person means, for purposes of
Section 5.5 only, without duplication, (a) all obligations
of such Person for money borrowed by such Person, (b)
all obligations of such Person evidenced by bonds, debentures, notes or similar instruments, (c) all obligations of such Person under conditional sale or other title

127
retention agreements relating to property or assets purchased by such Person, (d) all obligations of such Person
issued or assumed as the deferred purchase price of
property or services, other than trade accounts payable,
(e) all Capital Lease Obligations of such Person, (f ) obligations, whether contingent or liquidated, in respect of
letters of credit (including standby and commercial),
bankers’ acceptances and similar instruments and (g)
any obligation of such Person, contingent or otherwise,
guaranteeing or having the economic effect of guaranteeing any Indebtedness of the types set forth in clauses
(a) through (f ) payable by another Person other than
Mortgage Guarantee Obligations.
“Liquidation End Date” means the date of completion
of the liquidation of Seller’s assets.
“Maximum Amount” means, as of any date of determination, $100,000,000,000 (one hundred billion dollars),
less the aggregate amount of funding under the Commitment prior to such date.
“Mortgage Assets” of any Person means assets of
such Person consisting of mortgages, mortgage loans,
mortgage-related securities, participation certificates,
mortgage-backed commercial paper, obligations of real
estate mortgage investment conduits and similar assets,
in each case to the extent such assets would appear on
the balance sheet of such Person in accordance with
GAAP as in effect as of the date hereof (and, for the
avoidance of doubt, without giving effect to any change
that may be made hereafter in respect of Statement of
Financial Accounting Standards No. 140 or any similar
accounting standard).

128
“Mortgage Guarantee Obligations” means guarantees,
standby commitments, credit enhancements and other
similar obligations of Seller, in each case in respect of
Mortgage Assets.
“Named Executive Officer” has the meaning given to
such term in Item 402(a)(3) of Regulation S-K under the
Exchange Act, as in effect on the date hereof.
“Person” shall mean any individual, corporation, limited
liability company, partnership, joint venture, association, joint-stock company, trust, estate, unincorporated
organization or government or any agency or political
subdivision thereof, or any other entity whatsoever.
“SEC” means the Securities and Exchange Commission.
“Senior Preferred Stock” means the Variable Liquidation Preference Senior Preferred Stock of Seller, substantially in the form of Exhibit A hereto.
“Warrant” means a warrant for the purchase of common
stock of Seller representing 79.9% of the common stock
of Seller on a fully-diluted basis, substantially in the
form of Exhibit B hereto.
2.

COMMITMENT

2.1. Commitment. Purchaser hereby commits to
provide to Seller, on the terms and conditions set forth
herein, immediately available funds in an amount up to
but not in excess of the Available Amount, as determined from time to time (the “Commitment”); provided,
that in no event shall the aggregate amount funded under the Commitment exceed $100,000,000,000 (one hundred billion dollars). The liquidation preference of the
Senior Preferred Stock shall increase in connection with

129
draws on the Commitment, as set forth in Section 3.3
below.
2.2. Quarterly Draws on Commitment. Within fifteen (15) Business Days following the determination of
the Deficiency Amount, if any, as of the end of each fiscal
quarter of Seller which ends on or before the Liquidation End Date, the Designated Representative may, on
behalf of Seller, request that Purchaser provide immediately available funds to Seller in an amount up to but
not in excess of the Available Amount as of the end of
such quarter. Any such request shall be valid only if it
is in writing, is timely made, specifies the account of
Seller to which such funds are to be transferred, and
contains a certification of the Designated Representative that the requested amount does not exceed the
Available Amount as of the end of the applicable quarter. Purchaser shall provide such funds within sixty
(60) days of its receipt of such request or, following any
determination by the Director that the Director will be
mandated by law to appoint a receiver for Seller if such
funds are not received sooner, such shorter period as
may be necessary to avoid such mandatory appointment
of a receiver if reasonably practicable taking into consideration Purchaser’s access to funds.
2.3. Accelerated Draws on Commitment. Immediately following any determination by the Director that
the Director will be mandated by law to appoint a receiver for Seller prior to the Liquidation End Date unless Seller’s capital is increased by an amount (the “Special Amount”) up to but not in excess of the then current
Available Amount (computed based on a balance sheet
of Seller prepared in accordance with GAAP that differs
from the most recent balance sheet of Seller delivered

130
in accordance with Section 5.9(a) or (b)) on a date that is
prior to the date that funds will be available to Seller
pursuant to Section 2.2, Conservator may, on behalf of
Seller, request that Purchaser provide to Seller the Special Amount in immediately available funds. Any such
request shall be valid only if it is in writing, is timely
made, specifies the account of Seller to which such funds
are to be transferred, and contains certifications of Conservator that (i) the requested amount does not exceed
the Available Amount (including computations in reasonable detail and satisfactory to Purchaser of the then
existing Deficiency Amount) and (ii) the requested amount
is required to avoid the imminent mandatory appointment of a receiver for Seller. Purchaser shall provide
such funds within thirty (30) days of its receipt of such
request or, if reasonably practicable taking into consideration Purchaser’s access to funds, any shorter period
as may be necessary to avoid mandatory appointment of
a receiver.
2.4. Final Draw on Commitment. Within fifteen
(15) Business Days following the determination of the
Deficiency Amount, if any, as of the Liquidation End
Date (computed based on a balance sheet of Seller as of
the Liquidation End Date prepared in accordance with
GAAP), the Designated Representative may, on behalf
of Seller, request that Purchaser provide immediately
available funds to Seller in an amount up to but not in
excess of the Available Amount as of the Liquidation
End Date. Any such request shall be valid only if it is
in writing, is timely made, specifies the account of Seller
to which such funds are to be transferred, and contains
a certification of the Designated Representative that the
requested amount does not exceed the Available Amount

131
(including computations in reasonable detail and satisfactory to Purchaser of the Deficiency Amount as of the
Liquidation End Date). Purchaser shall provide such
funds within sixty (60) days of its receipt of such request.
2.5. Termination of Purchaser’s Obligations. Subject to earlier termination pursuant to Section 6.7, all of
Purchaser’s obligations under and in respect of the
Commitment shall terminate upon the earliest of: (a)
if the Liquidation End Date shall have occurred, (i) the
payment in full of Purchaser’s obligations with respect
to any valid request for funds pursuant to Section 2.4 or
(ii) if there is no Deficiency Amount on the Liquidation
End Date or if no such request pursuant to Section 2.4
has been made, the close of business on the 15th Business Day following the determination of the Deficiency
Amount, if any, as of the Liquidation End Date; (b) the
payment in full of, defeasance of or other reasonable
provision for all liabilities of Seller, whether or not contingent, including payment of any amounts that may become payable on, or expiry of or other provision for, all
Mortgage Guarantee Obligations and provision for unmatured debts; and (c) the funding by Purchaser under
the Commitment of an aggregate of $100,000,000,000
(one hundred billion dollars). For the avoidance of doubt,
the Commitment shall not be terminable by Purchaser
solely by reason of (i) the conservatorship, receivership
or other insolvency proceeding of Seller or (ii) the
Seller’s financial condition or any adverse change in
Seller’s financial condition.

132
3.

PURCHASE OF SENIOR PREFERRED STOCK
AND WARRANT; FEES

3.1. Initial Commitment Fee. In consideration of
the Commitment, and for no additional consideration, on
the Effective Date (or as soon thereafter as is practicable) Seller shall sell and issue to Purchaser, and Purchaser shall purchase from Seller, (a) one million
(1,000,000) shares of Senior Preferred Stock, with an initial liquidation preference equal to $1,000 per share
($1,000,000,000 (one billion dollars) liquidation preference in the aggregate), and (b) the Warrant.
3.2. Periodic Commitment Fee. (a) Commencing
March 31, 2010, Seller shall pay to Purchaser quarterly,
on the last day of March, June, September and December of each calendar year (each a “Periodic Fee Date”),
a periodic commitment fee (the “Periodic Commitment
Fee”). The Periodic Commitment Fee shall accrue
from January 1, 2010.
(b) The Periodic Commitment Fee is intended
to fully compensate Purchaser for the support provided
by the ongoing Commitment following December 31,
2009. The amount of the Periodic Commitment Fee
shall be set not later than December 31, 2009 with respect to the ensuing five-year period, shall be reset
every five years thereafter and shall be determined with
reference to the market value of the Commitment as
then in effect. The amount of the Periodic Commitment Fee shall be mutually agreed by Purchaser and
Seller, subject to their reasonable discretion and in consultation with the Chairman of the Federal Reserve;
provided, that Purchaser may waive the Periodic Com-

133
mitment Fee for up to one year at a time, in its sole discretion, based on adverse conditions in the United
States mortgage market.
(c) At the election of Seller, the Periodic Commitment Fee may be paid in cash or by adding the
amount thereof ratably to the liquidation preference of
each outstanding share of Senior Preferred Stock so
that the aggregate liquidation preference of all such outstanding shares of Senior Preferred Stock is increased
by an amount equal to the Periodic Commitment Fee.
Seller shall deliver notice of such election not later than
three (3) Business Days prior to each Periodic Fee Date.
If the Periodic Commitment Fee is not paid in cash by
12:00 pm (New York time) on the applicable Periodic
Fee Date (irrespective of Seller’s election pursuant to
this subsection), Seller shall be deemed to have elected
to pay the Periodic Commitment Fee by adding the
amount thereof to the liquidation preference of the Senior Preferred Stock, and the aggregate liquidation preference of the outstanding shares of Senior Preferred
Stock shall thereupon be automatically increased, in the
manner contemplated by the first sentence of this section, by an aggregate amount equal to the Periodic Commitment Fee then due.
3.3. Increases of Senior Preferred Stock Liquidation Preference as a Result of Funding under the Commitment. The aggregate liquidation preference of the
outstanding shares of Senior Preferred Stock shall be
automatically increased by an amount equal to the
amount of each draw on the Commitment pursuant to
Article 2 that is funded by Purchaser to Seller, such increase to occur simultaneously with such funding and

134
ratably with respect to each share of Senior Preferred
Stock.
3.4. Notation of Increase in Liquidation Preference. Seller shall duly mark its records to reflect each
increase in the liquidation preference of the Senior Preferred Stock contemplated herein (but, for the avoidance of doubt, such increase shall be effective regardless
of whether Seller has properly marked its records).
4.

REPRESENTATIONS

Seller represents and warrants as of the Effective Date, and shall be deemed to have represented and
warranted as of the date of each request for and funding
of an advance under the Commitment pursuant to Article 2, as follows:
4.1. Organization and Good Standing. Seller is a
corporation, chartered by the Congress of the United
States, duly organized, validly existing and in good standing under the laws of the United States and has all corporate power and authority to carry on its business as
now conducted and as proposed to be conducted.
4.2. Organizational Documents. Seller has made
available to Purchaser a complete and correct copy of its
charter and bylaws, each as amended to date (the “Organizational Documents”). The Organizational Documents are in full force and effect. Seller is not in violation of any provision of its Organizational Documents.
4.3. Authorization and Enforceability. All corporate or other action on the part of Seller or Conservator
necessary for the authorization, execution, delivery and
performance of this Agreement by Seller and for the authorization, issuance and delivery of the Senior Preferred Stock and the Warrant being purchased under

135
this Agreement, has been taken. This Agreement has
been duly and validly executed and delivered by Seller
and (assuming due authorization, execution and delivery
by the Purchaser) shall constitute the valid and legally
binding obligation of Seller, enforceable against Seller
in accordance with its terms, except to the extent the
enforceability thereof may be limited by bankruptcy laws,
insolvency laws, reorganization laws, moratorium laws or
other laws of general applicability affecting creditors’
rights generally or by general equitable principles (regardless of whether enforcement is sought in a proceeding
in equity or at law). The Agency is acting as conservator for Seller under Section 1367 of the FHE Act. The
Board of Directors of Seller, by valid action at a duly
called meeting of the Board of Directors on September
6, 2008, consented to the appointment of the Agency as
conservator for purposes of Section 1367(a)(3)(I) of the
FHE Act, and the Director of the Agency has appointed
the Agency as Conservator for Seller pursuant to Section 1367(a)(1) of the FHE Act, and each such action has
not been rescinded, revoked or modified in any respect.
4.4. Valid Issuance. When issued in accordance
with the terms of this Agreement, the Senior Preferred
Stock and the Warrant will be duly authorized, validly
issued, fully paid and nonassessable, free and clear of all
liens and preemptive rights. The shares of common
stock to which the holder of the Warrant is entitled have
been duly and validly reserved for issuance. When issued and delivered in accordance with the terms of this
Agreement and the Warrant, such shares will be duly
authorized, validly issued, fully paid and nonassessable,
free and clear of all liens and preemptive rights.

136
4.5. Non-Contravention.
(a) The execution, delivery or performance by
Seller of this Agreement and the consummation by Seller
of the transactions contemplated hereby do not and will
not (i) conflict with or violate any provision of the Organizational Documents of Seller; (ii) conflict with or violate any law, decree or regulation applicable to Seller
or by which any property or asset of Seller is bound or
affected, or (iii) result in any breach of, or constitute a
default (with or without notice or lapse of time, or both)
under, or give to others any right of termination, amendment, acceleration or cancellation of, or result in the creation of a lien upon any of the properties or assets of
Seller, pursuant to any note, bond, mortgage, indenture
or credit agreement, or any other contract, agreement,
lease, license, permit, franchise or other instrument or
obligation to which Seller is a party or by which Seller
is bound or affected, other than, in the case of clause (iii),
any such breach, default, termination, amendment, acceleration, cancellation or lien that would not have and
would not reasonably be expected to have, individually
or in the aggregate, a material adverse effect on the
business, property, operations or condition of the Seller,
the authority of the Conservator or the validity or enforceability of this Agreement (a “Material Adverse Effect”).
(b) The execution and delivery of this Agreement by Seller does not, and the consummation by Seller
of the transactions contemplated by this Agreement will
not, require any consent, approval, authorization,
waiver or permit of, or filing with or notification to, any
governmental authority or any other person, except for
such as have already been obtained.

137
5.

COVENANTS

From the Effective Date until such time as the
Senior Preferred Stock shall have been repaid or redeemed in full in accordance with its terms:
5.1. Restricted Payments. Seller shall not, and
shall not permit any of its subsidiaries to, in each case
without the prior written consent of Purchaser, declare
or pay any dividend (preferred or otherwise) or make
any other distribution (by reduction of capital or otherwise), whether in cash, property, securities or a combination thereof, with respect to any of Seller’s Equity Interests (other than with respect to the Senior Preferred
Stock or the Warrant) or directly or indirectly redeem,
purchase, retire or otherwise acquire for value any of
Seller’s Equity Interests (other than the Senior Preferred Stock or the Warrant), or set aside any amount
for any such purpose.
5.2. Issuance of Capital Stock. Seller shall not,
and shall not permit any of its subsidiaries to, in each
case without the prior written consent of Purchaser, sell
or issue Equity Interests of Seller or any of its subsidiaries of any kind or nature, in any amount, other than
the sale and issuance of the Senior Preferred Stock and
Warrant on the Effective Date and the common stock
subject to the Warrant upon exercise thereof, and other
than as required by (and pursuant to) the terms of any
binding agreement as in effect on the date hereof.
5.3. Conservatorship. Seller shall not (and Conservator, by its signature below, agrees that it shall not),
without the prior written consent of Purchaser, terminate, seek termination of or permit to be terminated the
conservatorship of Seller pursuant to Section 1367 of the

138
FHE Act, other than in connection with a receivership
pursuant to Section 1367 of the FHE Act.
5.4. Transfer of Assets. Seller shall not, and shall
not permit any of its subsidiaries to, in each case without
the prior written consent of Purchaser, sell, transfer,
lease or otherwise dispose of (in one transaction or a series of related transactions) all or any portion of its assets (including Equity Interests in other persons, including subsidiaries), whether now owned or hereafter
acquired (any such sale, transfer, lease or disposition, a
“Disposition”), other than Dispositions for fair market
value:
(a) to a limited life regulated entity (“LLRE”)
pursuant to Section 1367(i) of the FHE Act;
(b) of assets and properties in the ordinary
course of business, consistent with past practice;
(c) in connection with a liquidation of Seller by
a receiver appointed pursuant to Section 1367(a) of the
FHE Act;
(d) of cash or cash equivalents for cash or cash
equivalents; or
(e) to the extent necessary to comply with the
covenant set forth in Section 5.7 below.
5.5. Indebtedness. Seller shall not, and shall not
permit any of its subsidiaries to, in each case without the
prior written consent of Purchaser, incur, assume or
otherwise become liable for (a) any Indebtedness if, after giving effect to the incurrence thereof, the aggregate
Indebtedness of Seller and its subsidiaries on a consolidated basis would exceed 110.0% of the aggregate In-

139
debtedness of Seller and its subsidiaries on a consolidated basis as of June 30, 2008 or (b) any Indebtedness
if such Indebtedness is subordinated by its terms to any
other Indebtedness of Seller or the applicable subsidiary. For purposes of this covenant the acquisition of a
subsidiary with Indebtedness will be deemed to be the
incurrence of such Indebtedness at the time of such acquisition.
5.6. Fundamental Changes. Seller shall not, and
shall not permit any of its subsidiaries to, in each case
without the prior written consent of Purchaser, (i) merge
into or consolidate or amalgamate with any other Person, or permit any other Person to merge into or consolidate or amalgamate with it, (ii) effect a reorganization
or recapitalization involving the common stock of Seller,
a reclassification of the common stock of Seller or similar corporate transaction or event or (iii) purchase, lease
or otherwise acquire (in one transaction or a series of
transactions) all or substantially all of the assets of any
other Person or any division, unit or business of any Person.
5.7. Mortgage Assets. Seller shall not own, as of any
applicable date, Mortgage Assets in excess of (i) on December 31, 2009, $850 billion, or (ii) on December 31 of
each year thereafter, 90.0% of the aggregate amount of
Mortgage Assets of Seller as of December 31 of the immediately preceding calendar year; provided, that in no
event shall Seller be required under this Section 5.7 to
own less than $250 billion in Mortgage Assets.
5.8. Transactions with Affiliates. Seller shall not,
and shall not permit any of its subsidiaries to, without
the prior written consent of Purchaser, engage in any
transaction of any kind or nature with an Affiliate of

140
Seller unless such transaction is (i) pursuant to this
Agreement, the Senior Preferred Stock or the Warrant,
(ii) upon terms no less favorable to Seller than would be
obtained in a comparable arm’s-length transaction with
a Person that is not an Affiliate of Seller or (iii) a transaction undertaken in the ordinary course or pursuant to
a contractual obligation or customary employment arrangement in existence as of the date hereof.
5.9. Reporting.

Seller shall provide to Purchaser:

(a) not later than the time period specified in
the SEC’s rules and regulations with respect to issuers
as to which Section 13 and 15(d) of the Exchange Act
apply, annual reports on Form 10-K (or any successor
or comparable form) containing the information required to be contained therein (or required in such successor or comparable form);
(b) not later than the time period specified in
the SEC’s rules and regulations with respect to issuers
as to which Section 13 and 15(d) of the Exchange Act
apply, reports on Form 10-Q (or any successor or comparable form) containing the information required to be
contained therein (or required in such successor or comparable form);
(c) promptly from time to time after the occurrence of an event required to be therein reported (and
in any event within the time period specified in the SEC’s
rules and regulations), such other reports on Form 8-K
(or any successor or comparable form);
(d) concurrently with any delivery of financial
statements under paragraphs (a) or (b) above, a certificate of the Designated Representative, (i) certifying
that Seller is (and since the last such certificate has at

141
all times been) in compliance with each of the covenants
contained herein and that no representation made by
Seller herein or in any document delivered pursuant
hereto or in connection herewith was false or misleading
in any material respect when made, or, if the foregoing
is not true, specifying the nature and extent of the breach
of covenant and/or representation and any corrective action taken or proposed to be taken with respect thereto,
and (ii) setting forth computations in reasonable detail
and satisfactory to the Purchaser of the Deficiency
Amount, if any;
(e) promptly, from time to time, such other information regarding the operations, business affairs,
plans, projections and financial condition of Seller, or
compliance with the terms of this Agreement, as Purchaser may reasonably request; and
(f ) as promptly as reasonably practicable, written notice of the following:
(i)
Date;

the occurrence of the Liquidation End

(ii) the filing or commencement of, or any
written threat or notice of intention of any Person
to file or commence, any action, suit or proceeding,
whether at law or in equity or by or before any
governmental authority or in arbitration, against
Conservator, Seller or any other Person which, if
adversely determined, would reasonably be expected to have a Material Adverse Effect;
(iii) any other development that is not a matter of general public knowledge and that has had,
or would reasonably be expected to have, a Material Adverse Effect.

142
5.10. Executive Compensation. Seller shall not,
without the consent of the Director, in consultation with
the Secretary of the Treasury, enter into any new compensation arrangements with, or increase amounts or
benefits payable under existing compensation arrangements of, any Named Executive Officer of Seller.
6.

MISCELLANEOUS

6.1. No Third-Party Beneficiaries. Until the termination of the Commitment, at any time during the existence and continuance of a payment default with respect
to debt securities issued by Seller and/or a default by
Seller with respect to any Mortgage Guarantee Obligations, any holder of such defaulted debt securities or
beneficiary of such Mortgage Guarantee Obligations
(collectively, the “Holders”) may (a) deliver notice to the
Seller and the Designated Representative requesting
exercise of all rights available to them under this Agreement to draw on the Commitment up to the lesser of the
amount necessary to cure the outstanding payment defaults and the Available Amount as of the last day of the
immediately preceding fiscal quarter (the “Demand
Amount”), (b) if Seller and the Designated Representative fail to act as requested within thirty (30) days of
such notice, seek judicial relief for failure of the Seller
to draw on the Commitment, and (c) if Purchaser shall
fail to perform its obligations in respect of any draw on
the Commitment, and Seller and/or the Designated Representative shall not be diligently pursuing remedies in
respect of such failure, file a claim in the United States
Court of Federal Claims for relief requiring Purchaser
to pay Seller the Demand Amount in the form of liquidated damages. Any payment of liquidated damages
to Seller under the previous sentence shall be treated

143
for all purposes, including the provisions of the Senior
Preferred Stock and Section 3.3 of this Agreement, as a
draw and funding of the Commitment pursuant to Article 2. The Holders shall have no other rights under or
in respect of this Agreement, and the Commitment shall
not otherwise be enforceable by any creditor of Seller or
by any other Person other than the parties hereto, and
no such creditor or other Person is intended to be, or
shall be, a third party beneficiary of any provision of this
Agreement.
6.2. Non-Transferable; Successors. The Commitment is solely for the benefit of Seller and shall not inure
to the benefit of any other Person (other than the Holders to the extent set forth in Section 6.1), including any
entity to which the charter of Seller may be transferred,
to any LLRE or to any other successor to the assets,
liabilities or operations of Seller. The Commitment
may not be assigned or otherwise transferred, in whole
or in part, to any Person (including, for the avoidance of
doubt, any LLRE to which a receiver has assigned all or
a portion of Seller’s assets) without the prior written
consent of Purchaser (which may be withheld in its sole
discretion). In no event shall any successor to Seller
(including such an LLRE) be entitled to the benefit of
the Commitment without the prior written consent of
Purchaser. Seller and Conservator, for themselves and
on behalf of their permitted successors, covenant and
agree not to transfer or purport to transfer the Commitment in contravention of the terms hereof, and any such
attempted transfer shall be null and void ab initio. It
is the expectation of the parties that, in the event Seller
were placed into receivership and an LLRE formed to
purchase certain of its assets and assume certain of its
liabilities, the Commitment would remain with Seller for

144
the benefit of the holders of the debt of Seller not assumed by the LLRE.
6.3. Amendments; Waivers. This Agreement may
be waived or amended solely by a writing executed by
both of the parties hereto, and, with respect to amendments to or waivers of the provisions of Sections 5.3, 6.2
and 6.11, the Conservator; provided, however, that no
such waiver or amendment shall decrease the aggregate
Commitment or add conditions to funding the amounts
required to be funded by Purchaser under the Commitment if such waiver or amendment would, in the reasonable opinion of Seller, adversely affect in any material
respect the holders of debt securities of Seller and/or
the beneficiaries of Mortgage Guarantee Obligations, in
each case in their capacities as such, after taking into
account any alternative arrangements that may be implemented concurrently with such waiver or amendment. In no event shall any rights granted hereunder
prevent the parties hereto from waiving or amending in
any manner whatsoever the covenants of Seller hereunder.
6.4. Governing Law; Jurisdiction; Venue. This
Agreement and the Warrant shall be governed by, and
construed in accordance with, the federal law of the
United States of America if and to the extent such federal law is applicable, and otherwise in accordance with
the laws of the State of New York. The Senior Preferred Stock shall be governed as set forth in the terms
thereof. Except as provided in section 6.1 and as otherwise required by law, the United States District Court
for the District of Columbia shall have exclusive jurisdiction over all civil actions arising out of this Agreement, the Commitment, the Senior Preferred Stock and

145
the Warrant, and venue for any such civil action shall lie
exclusively in the United States District Court for the
District of Columbia.
6.5. Notices. Any notices delivered pursuant to or
in connection with this Agreement shall be delivered to
the applicable parties at the addresses set forth below:
If to Seller:
Federal National Mortgage Association
c/o Federal Housing Finance Authority
1700 G Street, NW
4th Floor
Washington, DC 20552
Attention: General Counsel
If to Purchaser:
United States Department of the Treasury
1500 Pennsylvania Avenue, NW
Washington DC 20220
Attention: Under Secretary for Domestic
Finance
with a copy to:
United States Department of the Treasury
1500 Pennsylvania Avenue, NW
Washington DC 20220
Attention: General Counsel

146
If to Conservator:
Federal Housing Finance Authority
1700 G Street, NW
4th Floor
Washington, DC 20552
Attention: General Counsel
All notices and other communications provided for herein shall be in writing and shall be delivered by hand or
overnight courier service, mailed by certified or registered mail. All notices hereunder shall be effective upon
receipt.
6.6. Disclaimer of Guarantee. This Agreement
and the Commitment are not intended to and shall not
be deemed to constitute a guarantee by Purchaser or
any other agency or instrumentality of the United
States of the payment or performance of any debt security or any other obligation, indebtedness or liability of
Seller of any kind or character whatsoever.
6.7. Effect of Order; Injunction; Decree. If any order, injunction or decree is issued by any court of competent jurisdiction that vacates, modifies, amends, conditions, enjoins, stays or otherwise affects the appointment of Conservator as conservator of Seller or otherwise curtails Conservator’s powers as such conservator
(except in each case any order converting the conservatorship to a receivership under Section 1367(a) of the
FHE Act), Purchaser may by written notice to Conservator and Seller declare this Agreement null and void,
whereupon all transfers hereunder (including the issuance of the Senior Preferred Stock and the Warrant and
any funding of the Commitment) shall be rescinded and
unwound and all obligations of the parties (other than to

147
effectuate such rescission and unwind) shall immediately and automatically terminate.
6.8. Business Day. To the extent that any deadline or date of performance of any right or obligation set
forth herein shall fall on a day other than a Business
Day, then such deadline or date of performance shall automatically be extended to the next succeeding Business
Day.
6.9. Entire Agreement. This Agreement, together
with the Senior Preferred Stock and Warrant, contains
the entire agreement between the parties hereto with
respect to the transactions contemplated hereby and supersedes and cancels all prior agreements, including,
but not limited to, all proposals, term sheets, statements, letters of intent or representations, written or
oral, with respect thereto.
6.10. Remedies. In the event of a breach by Seller
of any covenant or representation of Seller set forth
herein, Purchaser shall be entitled to specific performance (in the case of a breach of covenant), damages and
such other remedies as may be available at law or in equity; provided, that Purchaser shall not have the right
to terminate the Commitment solely as a result of any
such breach, and compliance with the covenants and the
accuracy of the representations set forth in this Agreement shall not be conditions to funding the Commitment.
6.11. Tax Reporting. Neither Seller nor Conservator shall take, or shall permit any of their respective successors or assigns to take, a position for any tax, accounting or other purpose that is inconsistent with Internal
Revenue Service Notice 2008-76 (or the regulations to

148
be issued pursuant to such Notice) regarding the application of Section 382 of the Internal Revenue Code of
1986, as amended, a copy of which Notice has been provided to Seller in connection with the execution of this
Agreement.
6.12. Non-Severability. Each of the provisions of
this Agreement is integrated with and integral to the
whole and shall not be severable from the remainder of
the Agreement. In the event that any provision of this
Agreement, the Senior Preferred Stock or the Warrant
is determined to be illegal or unenforceable, then Purchaser may, in its sole discretion, by written notice to
Conservator and Seller, declare this Agreement null and
void, whereupon all transfers hereunder (including the
issuance of the Senior Preferred Stock and the Warrant
and any funding of the Commitment) shall be rescinded
and unwound and all obligations of the parties (other
than to effectuate such rescission and unwind) shall immediately and automatically terminate.

[Signature Page Follows]

149
EXECUTION VERSION
AMENDED AND RESTATED SENIOR PREFERRED
STOCK PURCHASE AGREEMENT

AMENDED AND RESTATED SENIOR PREFERRED STOCK PURCHASE AGREEMENT (this
“Agreement”) dated as of September 26, 2008, between
the UNITED STATES DEPARTMENT OF THE
TREASURY (“Purchaser”) and FEDERAL HOME
LOAN MORTGAGE CORPORATION (“Seller”), acting through the Federal Housing Finance Agency (the
“Agency”) as its duly appointed conservator (the Agency
in such capacity, “Conservator”). Reference is made to
Article 1 below for the meaning of capitalized terms
used herein without definition.
Background

A. The Agency has been duly appointed as Conservator for Seller pursuant to Section 1367(a) of the
Federal Housing Enterprises Financial Safety and
Soundness Act of 1992 (as amended, the “FHE Act”).
Conservator has determined that entry into this Agreement is (i) necessary to put Seller in a sound and solvent
condition; (ii) appropriate to carry on the business of
Seller and preserve and conserve the assets and property of Seller; and (iii) otherwise consistent with its powers, authorities and responsibilities.
B. Purchaser is authorized to purchase obligations and other securities issued by Seller pursuant to
Section 306(l) of the Federal Home Loan Mortgage Corporation Act, as amended (the “Charter Act”). The
Secretary of the Treasury has determined, after taking
into consideration the matters set forth in Section

150
306(l)(1)(C) of the Charter Act, that the purchases contemplated herein are necessary to (i) provide stability to
the financial markets; (ii) prevent disruptions in the
availability of mortgage finance; and (iii) protect the taxpayer.
C. Purchaser and Seller executed and delivered
the Senior Preferred Stock Purchase Agreement dated
as of September 7, 2008 (the “Original Agreement”), and
the parties thereto desire to amend and restate the
Original Agreement in its entirety as set forth herein.
lows:

THEREFORE, the parties hereto agree as folTerms and Conditions

1.

DEFINITIONS

As used in this Agreement, the following terms
shall have the meanings set forth below:
“Affiliate” means, when used with respect to a specified
Person (i) any direct or indirect holder or group (as defined in Sections 13(d) and 14(d) of the Exchange Act) of
holders of 10.0% or more of any class of capital stock of
such Person and (ii) any current or former director or
officer of such Person, or any other current or former
employee of such Person that currently exercises or formerly exercised a material degree of Control over such
Person, including without limitation each current or former Named Executive Officer of such Person.
“Available Amount” means, as of any date of determination, the lesser of (a) the Deficiency Amount as of such
date and (b) the Maximum Amount as of such date.

151
“Business Day” means any day other than a Saturday,
Sunday or other day on which commercial banks are authorized to close under United States federal law and
the law of the State of New York.
“Capital Lease Obligations” of any Person shall mean
the obligations of such Person to pay rent or other
amounts under any lease of (or other similar arrangement conveying the right to use) real or personal property, or a combination thereof, which obligations are required to be classified and accounted for as capital
leases on a balance sheet of such Person under GAAP
and, for purposes hereof, the amount of such obligations
at any time shall be the capitalized amount thereof at
such time determined in accordance with GAAP.
“Control” shall mean the possession, directly or indirectly, of the power to direct or cause the direction of the
management or policies of a Person, whether through the
ownership of voting securities, by contract or otherwise.
“Deficiency Amount” means, as of any date of determination, the amount, if any, by which (a) the total liabilities of Seller exceed (b) the total assets of Seller (such
assets excluding the Commitment and any unfunded
amounts thereof ), in each case as reflected on the balance sheet of Seller as of the applicable date set forth in
this Agreement, prepared in accordance with GAAP;
provided, however, that:
(i) for the avoidance of doubt, in measuring the Deficiency Amount liabilities shall exclude any obligation in respect of any capital stock of Seller, including
the Senior Preferred Stock contemplated herein;
(ii) in the event that Seller becomes subject to receivership or other liquidation process or proceeding,

152
“Deficiency Amount” shall mean, as of any date of determination, the amount, if any, by which (a) the total
allowed claims against the receivership or other applicable estate (excluding any liabilities of or transferred to any LLRE (as defined in Section 5.4(a)) created by a receiver) exceed (b) the total assets of such
receivership or other estate (excluding the Commitment, any unfunded amounts thereof and any assets
of or transferred to any LLRE, but including the
value of the receiver’s interest in any LLRE);
(iii) to the extent Conservator or a receiver of Seller,
or any statute, rule, regulation or court of competent
jurisdiction, specifies or determines that a liability of
Seller (including without limitation a claim against
Seller arising from rescission of a purchase or sale of
a security issued by Seller (or guaranteed by Seller
or with respect to which Seller is otherwise liable) or
for damages arising from the purchase, sale or retention of such a security) shall be subordinated (other
than pursuant to a contract providing for such subordination) to all other liabilities of Seller or shall be
treated on par with any class of equity of Seller, then
such liability shall be excluded in the calculation of
Deficiency Amount; and
(iv) the Deficiency Amount may be increased above
the otherwise applicable amount by the mutual written agreement of Purchaser and Seller, each acting
in its sole discretion.
“Designated Representative” means Conservator or (a)
if Conservator has been superseded by a receiver pursuant to Section 1367(a) of the FHE Act, such receiver,
or (b) if Seller is not in conservatorship or receivership

153
pursuant to Section 1367(a) of the FHE Act, Seller’s
chief financial officer.
“Director” shall mean the Director of the Agency.
“Effective Date” means the date on which this Agreement shall have been executed and delivered by both of
the parties hereto.
“Equity Interests” of any Person shall mean any and all
shares, interests, rights to purchase or otherwise acquire, warrants, options, participations or other equivalents of or interests in (however designated) equity,
ownership or profits of such Person, including any preferred stock, any limited or general partnership interest
and any limited liability company membership interest,
and any securities or other rights or interests convertible into or exchangeable for any of the foregoing.
“Exchange Act” means the Securities Exchange Act of
1934, as amended, and the rules and regulations of the
SEC promulgated thereunder.
“GAAP” means generally accepted accounting principles in effect in the United States as set forth in the
opinions and pronouncements of the Accounting Principles Board and the American Institute of Certified Public Accountants and statements and pronouncements of
the Financial Accounting Standards Board from time to
time.
“Indebtedness” of any Person means, for purposes of
Section 5.5 only, without duplication, (a) all obligations
of such Person for money borrowed by such Person, (b)
all obligations of such Person evidenced by bonds, debentures, notes or similar instruments, (c) all obligations of such Person under conditional sale or other title

154
retention agreements relating to property or assets purchased by such Person, (d) all obligations of such Person
issued or assumed as the deferred purchase price of
property or services, other than trade accounts payable,
(e) all Capital Lease Obligations of such Person, (f ) obligations, whether contingent or liquidated, in respect of
letters of credit (including standby and commercial),
bankers’ acceptances and similar instruments and (g)
any obligation of such Person, contingent or otherwise,
guaranteeing or having the economic effect of guaranteeing any Indebtedness of the types set forth in clauses
(a) through (f ) payable by another Person other than
Mortgage Guarantee Obligations.
“Liquidation End Date” means the date of completion
of the liquidation of Seller’s assets.
“Maximum Amount” means, as of any date of determination, $100,000,000,000 (one hundred billion dollars),
less the aggregate amount of funding under the Commitment prior to such date.
“Mortgage Assets” of any Person means assets of
such Person consisting of mortgages, mortgage loans,
mortgage-related securities, participation certificates,
mortgage-backed commercial paper, obligations of real
estate mortgage investment conduits and similar assets,
in each case to the extent such assets would appear on
the balance sheet of such Person in accordance with
GAAP as in effect as of the date hereof (and, for the
avoidance of doubt, without giving effect to any change
that may be made hereafter in respect of Statement of
Financial Accounting Standards No. 140 or any similar
accounting standard).

155
“Mortgage Guarantee Obligations” means guarantees,
standby commitments, credit enhancements and other
similar obligations of Seller, in each case in respect of
Mortgage Assets.
“Named Executive Officer” has the meaning given to
such term in Item 402(a)(3) of Regulation S-K under the
Exchange Act, as in effect on the date hereof.
“Person” shall mean any individual, corporation, limited
liability company, partnership, joint venture, association, joint-stock company, trust, estate, unincorporated
organization or government or any agency or political
subdivision thereof, or any other entity whatsoever.
“SEC” means the Securities and Exchange Commission.
“Senior Preferred Stock” means the Variable Liquidation Preference Senior Preferred Stock of Seller, substantially in the form of Exhibit A hereto.
“Warrant” means a warrant for the purchase of common
stock of Seller representing 79.9% of the common stock
of Seller on a fully-diluted basis, substantially in the
form of Exhibit B hereto.
2.

COMMITMENT

2.1. Commitment. Purchaser hereby commits to
provide to Seller, on the terms and conditions set forth
herein, immediately available funds in an amount up to
but not in excess of the Available Amount, as determined from time to time (the “Commitment”); provided,
that in no event shall the aggregate amount funded under the Commitment exceed $100,000,000,000 (one hundred billion dollars). The liquidation preference of the
Senior Preferred Stock shall increase in connection with

156
draws on the Commitment, as set forth in Section 3.3
below.
2.2. Quarterly Draws on Commitment. Within fifteen (15) Business Days following the determination of
the Deficiency Amount, if any, as of the end of each fiscal
quarter of Seller which ends on or before the Liquidation End Date, the Designated Representative may, on
behalf of Seller, request that Purchaser provide immediately available funds to Seller in an amount up to but
not in excess of the Available Amount as of the end of
such quarter. Any such request shall be valid only if it
is in writing, is timely made, specifies the account of
Seller to which such funds are to be transferred, and
contains a certification of the Designated Representative that the requested amount does not exceed the
Available Amount as of the end of the applicable quarter. Purchaser shall provide such funds within sixty
(60) days of its receipt of such request or, following any
determination by the Director that the Director will be
mandated by law to appoint a receiver for Seller if such
funds are not received sooner, such shorter period as
may be necessary to avoid such mandatory appointment
of a receiver if reasonably practicable taking into consideration Purchaser’s access to funds.
2.3. Accelerated Draws on Commitment. Immediately following any determination by the Director that
the Director will be mandated by law to appoint a receiver for Seller prior to the Liquidation End Date unless Seller’s capital is increased by an amount (the “Special Amount”) up to but not in excess of the then current
Available Amount (computed based on a balance sheet
of Seller prepared in accordance with GAAP that differs
from the most recent balance sheet of Seller delivered

157
in accordance with Section 5.9(a) or (b)) on a date that is
prior to the date that funds will be available to Seller
pursuant to Section 2.2, Conservator may, on behalf of
Seller, request that Purchaser provide to Seller the Special Amount in immediately available funds. Any such
request shall be valid only if it is in writing, is timely
made, specifies the account of Seller to which such funds
are to be transferred, and contains certifications of Conservator that (i) the requested amount does not exceed
the Available Amount (including computations in reasonable detail and satisfactory to Purchaser of the then
existing Deficiency Amount) and (ii) the requested amount
is required to avoid the imminent mandatory appointment of a receiver for Seller. Purchaser shall provide
such funds within thirty (30) days of its receipt of such
request or, if reasonably practicable taking into consideration Purchaser’s access to funds, any shorter period
as may be necessary to avoid mandatory appointment of
a receiver.
2.4. Final Draw on Commitment. Within fifteen
(15) Business Days following the determination of the
Deficiency Amount, if any, as of the Liquidation End
Date (computed based on a balance sheet of Seller as of
the Liquidation End Date prepared in accordance with
GAAP), the Designated Representative may, on behalf
of Seller, request that Purchaser provide immediately
available funds to Seller in an amount up to but not in
excess of the Available Amount as of the Liquidation
End Date. Any such request shall be valid only if it is
in writing, is timely made, specifies the account of Seller
to which such funds are to be transferred, and contains
a certification of the Designated Representative that the
requested amount does not exceed the Available Amount

158
(including computations in reasonable detail and satisfactory to Purchaser of the Deficiency Amount as of the
Liquidation End Date). Purchaser shall provide such
funds within sixty (60) days of its receipt of such request.
2.5. Termination of Purchaser’s Obligations. Subject to earlier termination pursuant to Section 6.7, all of
Purchaser’s obligations under and in respect of the
Commitment shall terminate upon the earliest of: (a)
if the Liquidation End Date shall have occurred, (i) the
payment in full of Purchaser’s obligations with respect
to any valid request for funds pursuant to Section 2.4 or
(ii) if there is no Deficiency Amount on the Liquidation
End Date or if no such request pursuant to Section 2.4
has been made, the close of business on the 15th Business Day following the determination of the Deficiency
Amount, if any, as of the Liquidation End Date; (b) the
payment in full of, defeasance of or other reasonable
provision for all liabilities of Seller, whether or not contingent, including payment of any amounts that may become payable on, or expiry of or other provision for, all
Mortgage Guarantee Obligations and provision for unmatured debts; and (c) the funding by Purchaser under
the Commitment of an aggregate of $100,000,000,000
(one hundred billion dollars). For the avoidance of doubt,
the Commitment shall not be terminable by Purchaser
solely by reason of (i) the conservatorship, receivership
or other insolvency proceeding of Seller or (ii) the
Seller’s financial condition or any adverse change in
Seller’s financial condition.

159
3.

PURCHASE OF SENIOR PREFERRED STOCK
AND WARRANT; FEES

3.1. Initial Commitment Fee. In consideration of
the Commitment, and for no additional consideration, on
the Effective Date (or as soon thereafter as is practicable) Seller shall sell and issue to Purchaser, and Purchaser
shall purchase from Seller, (a) one million (1,000,000)
shares of Senior Preferred Stock, with an initial liquidation preference equal to $1,000 per share ($1,000,000,000
(one billion dollars) liquidation preference in the aggregate), and (b) the Warrant.
3.2. Periodic Commitment Fee. (a) Commencing
March 31, 2010, Seller shall pay to Purchaser quarterly,
on the last day of March, June, September and December of each calendar year (each a “Periodic Fee Date”),
a periodic commitment fee (the “Periodic Commitment
Fee”). The Periodic Commitment Fee shall accrue
from January 1, 2010.
(b) The Periodic Commitment Fee is intended to
fully compensate Purchaser for the support provided by
the ongoing Commitment following December 31, 2009.
The amount of the Periodic Commitment Fee shall be
set not later than December 31, 2009 with respect to the
ensuing five-year period, shall be reset every five years
thereafter and shall be determined with reference to the
market value of the Commitment as then in effect. The
amount of the Periodic Commitment Fee shall be mutually agreed by Purchaser and Seller, subject to their reasonable discretion and in consultation with the Chairman
of the Federal Reserve; provided, that Purchaser may
waive the Periodic Commitment Fee for up to one year
at a time, in its sole discretion, based on adverse conditions in the United States mortgage market.

160
(c) At the election of Seller, the Periodic Commitment Fee may be paid in cash or by adding the
amount thereof ratably to the liquidation preference of
each outstanding share of Senior Preferred Stock so
that the aggregate liquidation preference of all such outstanding shares of Senior Preferred Stock is increased
by an amount equal to the Periodic Commitment Fee.
Seller shall deliver notice of such election not later than
three (3) Business Days prior to each Periodic Fee Date.
If the Periodic Commitment Fee is not paid in cash by
12:00 pm (New York time) on the applicable Periodic
Fee Date (irrespective of Seller’s election pursuant to
this subsection), Seller shall be deemed to have elected
to pay the Periodic Commitment Fee by adding the
amount thereof to the liquidation preference of the Senior Preferred Stock, and the aggregate liquidation preference of the outstanding shares of Senior Preferred
Stock shall thereupon be automatically increased, in the
manner contemplated by the first sentence of this section, by an aggregate amount equal to the Periodic Commitment Fee then due.
3.3. Increases of Senior Preferred Stock Liquidation Preference as a Result of Funding under the Commitment. The aggregate liquidation preference of the
outstanding shares of Senior Preferred Stock shall be
automatically increased by an amount equal to the amount
of each draw on the Commitment pursuant to Article 2
that is funded by Purchaser to Seller, such increase to
occur simultaneously with such funding and ratably with
respect to each share of Senior Preferred Stock.
3.4. Notation of Increase in Liquidation Preference. Seller shall duly mark its records to reflect each

161
increase in the liquidation preference of the Senior Preferred Stock contemplated herein (but, for the avoidance of doubt, such increase shall be effective regardless
of whether Seller has properly marked its records).
4.

REPRESENTATIONS

Seller represents and warrants as of the Effective Date, and shall be deemed to have represented and
warranted as of the date of each request for and funding
of an advance under the Commitment pursuant to Article 2, as follows:
4.1. Organization and Good Standing. Seller is a
corporation, chartered by the Congress of the United
States, duly organized, validly existing and in good
standing under the laws of the United States and has all
corporate power and authority to carry on its business
as now conducted and as proposed to be conducted.
4.2. Organizational Documents. Seller has made
available to Purchaser a complete and correct copy of its
charter and bylaws, each as amended to date (the “Organizational Documents”). The Organizational Documents are in full force and effect. Seller is not in violation of any provision of its Organizational Documents.
4.3. Authorization and Enforceability. All corporate or other action on the part of Seller or Conservator
necessary for the authorization, execution, delivery and
performance of this Agreement by Seller and for the authorization, issuance and delivery of the Senior Preferred Stock and the Warrant being purchased under
this Agreement, has been taken. This Agreement has
been duly and validly executed and delivered by Seller
and (assuming due authorization, execution and delivery
by the Purchaser) shall constitute the valid and legally

162
binding obligation of Seller, enforceable against Seller
in accordance with its terms, except to the extent the
enforceability thereof may be limited by bankruptcy laws,
insolvency laws, reorganization laws, moratorium laws
or other laws of general applicability affecting creditors’
rights generally or by general equitable principles (regardless of whether enforcement is sought in a proceeding in equity or at law). The Agency is acting as conservator for Seller under Section 1367 of the FHE
Act. The Board of Directors of Seller, by valid action
at a duly called meeting of the Board of Directors on
September 6, 2008, consented to the appointment of
the Agency as conservator for purposes of Section
1367(a)(3)(I) of the FHE Act, and the Director of the
Agency has appointed the Agency as Conservator for
Seller pursuant to Section 1367(a)(1) of the FHE Act,
and each such action has not been rescinded, revoked or
modified in any respect.
4.4. Valid Issuance. When issued in accordance
with the terms of this Agreement, the Senior Preferred
Stock and the Warrant will be duly authorized, validly
issued, fully paid and nonassessable, free and clear of all
liens and preemptive rights. The shares of common
stock to which the holder of the Warrant is entitled have
been duly and validly reserved for issuance. When issued and delivered in accordance with the terms of this
Agreement and the Warrant, such shares will be duly
authorized, validly issued, fully paid and nonassessable,
free and clear of all liens and preemptive rights.
4.5. Non-Contravention.
(a) The execution, delivery or performance by
Seller of this Agreement and the consummation by
Seller of the transactions contemplated hereby do not

163
and will not (i) conflict with or violate any provision of
the Organizational Documents of Seller; (ii) conflict with
or violate any law, decree or regulation applicable to
Seller or by which any property or asset of Seller is
bound or affected, or (iii) result in any breach of, or constitute a default (with or without notice or lapse of time,
or both) under, or give to others any right of termination, amendment, acceleration or cancellation of, or result in the creation of a lien upon any of the properties
or assets of Seller, pursuant to any note, bond, mortgage, indenture or credit agreement, or any other contract, agreement, lease, license, permit, franchise or other
instrument or obligation to which Seller is a party or by
which Seller is bound or affected, other than, in the case
of clause (iii), any such breach, default, termination,
amendment, acceleration, cancellation or lien that would
not have and would not reasonably be expected to have,
individually or in the aggregate, a material adverse effect on the business, property, operations or condition of
the Seller, the authority of the Conservator or the validity or enforceability of this Agreement (a “Material Adverse Effect”).
(b) The execution and delivery of this Agreement by Seller does not, and the consummation by Seller
of the transactions contemplated by this Agreement will
not, require any consent, approval, authorization, waiver
or permit of, or filing with or notification to, any governmental authority or any other person, except for such as
have already been obtained.
5.

COVENANTS

From the Effective Date until such time as the
Senior Preferred Stock shall have been repaid or redeemed in full in accordance with its terms:

164
5.1. Restricted Payments. Seller shall not, and shall
not permit any of its subsidiaries to, in each case without
the prior written consent of Purchaser, declare or pay
any dividend (preferred or otherwise) or make any other
distribution (by reduction of capital or otherwise),
whether in cash, property, securities or a combination
thereof, with respect to any of Seller’s Equity Interests
(other than with respect to the Senior Preferred Stock
or the Warrant) or directly or indirectly redeem, purchase, retire or otherwise acquire for value any of
Seller’s Equity Interests (other than the Senior Preferred Stock or the Warrant), or set aside any amount
for any such purpose.
5.2. Issuance of Capital Stock. Seller shall not, and
shall not permit any of its subsidiaries to, in each case
without the prior written consent of Purchaser, sell or
issue Equity Interests of Seller or any of its subsidiaries
of any kind or nature, in any amount, other than the sale
and issuance of the Senior Preferred Stock and Warrant
on the Effective Date and the common stock subject to
the Warrant upon exercise thereof, and other than as
required by (and pursuant to) the terms of any binding
agreement as in effect on the date hereof.
5.3. Conservatorship. Seller shall not (and Conservator, by its signature below, agrees that it shall not),
without the prior written consent of Purchaser, terminate, seek termination of or permit to be terminated the
conservatorship of Seller pursuant to Section 1367 of the
FHE Act, other than in connection with a receivership
pursuant to Section 1367 of the FHE Act.
5.4. Transfer of Assets. Seller shall not, and shall
not permit any of its subsidiaries to, in each case without
the prior written consent of Purchaser, sell, transfer,

165
lease or otherwise dispose of (in one transaction or a series of related transactions) all or any portion of its assets (including Equity Interests in other persons, including subsidiaries), whether now owned or hereafter
acquired (any such sale, transfer, lease or disposition, a
“Disposition”), other than Dispositions for fair market
value:
(a) to a limited life regulated entity (“LLRE”)
pursuant to Section 1367(i) of the FHE Act;
(b) of assets and properties in the ordinary
course of business, consistent with past practice;
(c) in connection with a liquidation of Seller by
a receiver appointed pursuant to Section 1367(a) of the
FHE Act;
(d) of cash or cash equivalents for cash or cash
equivalents; or
(e) to the extent necessary to comply with the
covenant set forth in Section 5.7 below.
5.5. Indebtedness. Seller shall not, and shall not
permit any of its subsidiaries to, in each case without the
prior written consent of Purchaser, incur, assume or
otherwise become liable for (a) any Indebtedness if, after giving effect to the incurrence thereof, the aggregate
Indebtedness of Seller and its subsidiaries on a consolidated basis would exceed 110.0% of the aggregate Indebtedness of Seller and its subsidiaries on a consolidated basis as of June 30, 2008 or (b) any Indebtedness
if such Indebtedness is subordinated by its terms to any
other Indebtedness of Seller or the applicable subsidiary. For purposes of this covenant the acquisition of a
subsidiary with Indebtedness will be deemed to be the

166
incurrence of such Indebtedness at the time of such acquisition.
5.6. Fundamental Changes. Seller shall not, and
shall not permit any of its subsidiaries to, in each case
without the prior written consent of Purchaser, (i) merge
into or consolidate or amalgamate with any other Person, or permit any other Person to merge into or consolidate or amalgamate with it, (ii) effect a reorganization
or recapitalization involving the common stock of Seller,
a reclassification of the common stock of Seller or similar corporate transaction or event or (iii) purchase, lease
or otherwise acquire (in one transaction or a series of
transactions) all or substantially all of the assets of any
other Person or any division, unit or business of any Person.
5.7. Mortgage Assets. Seller shall not own, as of
any applicable date, Mortgage Assets in excess of (i) on
December 31, 2009, $850 billion, or (ii) on December 31
of each year thereafter, 90.0% of the aggregate amount
of Mortgage Assets of Seller as of December 31 of the
immediately preceding calendar year; provided, that in
no event shall Seller be required under this Section 5.7
to own less than $250 billion in Mortgage Assets.
5.8. Transactions with Affiliates. Seller shall not,
and shall not permit any of its subsidiaries to, without
the prior written consent of Purchaser, engage in any
transaction of any kind or nature with an Affiliate of
Seller unless such transaction is (i) pursuant to this
Agreement, the Senior Preferred Stock or the Warrant,
(ii) upon terms no less favorable to Seller than would be
obtained in a comparable arm’s-length transaction with
a Person that is not an Affiliate of Seller or (iii) a transaction undertaken in the ordinary course or pursuant to

167
a contractual obligation or customary employment arrangement in existence as of the date hereof.
5.9. Reporting.

Seller shall provide to Purchaser:

(a) not later than the time period specified in
the SEC’s rules and regulations with respect to issuers
as to which Section 13 and 15(d) of the Exchange Act apply, annual reports on Form 10-K (or any successor or
comparable form) containing the information required to
be contained therein (or required in such successor or
comparable form);
(b) not later than the time period specified in
the SEC’s rules and regulations with respect to issuers
as to which Section 13 and 15(d) of the Exchange Act
apply, reports on Form 10-Q (or any successor or comparable form) containing the information required to be
contained therein (or required in such successor or comparable form);
(c) promptly from time to time after the occurrence of an event required to be therein reported (and
in any event within the time period specified in the
SEC’s rules and regulations), such other reports on
Form 8-K (or any successor or comparable form);
(d) concurrently with any delivery of financial
statements under paragraphs (a) or (b) above, a certificate of the Designated Representative, (i) certifying
that Seller is (and since the last such certificate has at
all times been) in compliance with each of the covenants
contained herein and that no representation made by
Seller herein or in any document delivered pursuant
hereto or in connection herewith was false or misleading
in any material respect when made, or, if the foregoing
is not true, specifying the nature and extent of the breach

168
of covenant and/or representation and any corrective action taken or proposed to be taken with respect thereto,
and (ii) setting forth computations in reasonable detail
and satisfactory to the Purchaser of the Deficiency
Amount, if any;
(e) promptly, from time to time, such other information regarding the operations, business affairs, plans,
projections and financial condition of Seller, or compliance
with the terms of this Agreement, as Purchaser may reasonably request; and
(f ) as promptly as reasonably practicable, written notice of the following:
(i)
Date;

the occurrence of the Liquidation End

(ii) the filing or commencement of, or any
written threat or notice of intention of any Person
to file or commence, any action, suit or proceeding,
whether at law or in equity or by or before any
governmental authority or in arbitration, against
Conservator, Seller or any other Person which, if
adversely determined, would reasonably be expected to have a Material Adverse Effect;
(iii) any other development that is not a matter of general public knowledge and that has had,
or would reasonably be expected to have, a Material Adverse Effect.
5.10. Executive Compensation.
Seller shall not,
without the consent of the Director, in consultation with
the Secretary of the Treasury, enter into any new compensation arrangements with, or increase amounts or
benefits payable under existing compensation arrangements of, any Named Executive Officer of Seller.

169
6.

MISCELLANEOUS

6.1. No Third-Party Beneficiaries. Until the termination of the Commitment, at any time during the existence and continuance of a payment default with respect to debt securities issued by Seller and/or a default
by Seller with respect to any Mortgage Guarantee Obligations, any holder of such defaulted debt securities or
beneficiary of such Mortgage Guarantee Obligations
(collectively, the “Holders”) may (a) deliver notice to the
Seller and the Designated Representative requesting
exercise of all rights available to them under this Agreement to draw on the Commitment up to the lesser of the
amount necessary to cure the outstanding payment defaults and the Available Amount as of the last day of the
immediately preceding fiscal quarter (the “Demand
Amount”), (b) if Seller and the Designated Representative fail to act as requested within thirty (30) days of
such notice, seek judicial relief for failure of the Seller
to draw on the Commitment, and (c) if Purchaser shall
fail to perform its obligations in respect of any draw on
the Commitment, and Seller and/or the Designated Representative shall not be diligently pursuing remedies in
respect of such failure, file a claim in the United States
Court of Federal Claims for relief requiring Purchaser
to pay Seller the Demand Amount in the form of liquidated damages. Any payment of liquidated damages
to Seller under the previous sentence shall be treated
for all purposes, including the provisions of the Senior
Preferred Stock and Section 3.3 of this Agreement, as a
draw and funding of the Commitment pursuant to Article 2. The Holders shall have no other rights under or
in respect of this Agreement, and the Commitment shall
not otherwise be enforceable by any creditor of Seller or
by any other Person other than the parties hereto, and

170
no such creditor or other Person is intended to be, or
shall be, a third party beneficiary of any provision of this
Agreement.
6.2. Non-Transferable; Successors. The Commitment is solely for the benefit of Seller and shall not inure
to the benefit of any other Person (other than the Holders to the extent set forth in Section 6.1), including any
entity to which the charter of Seller may be transferred,
to any LLRE or to any other successor to the assets,
liabilities or operations of Seller. The Commitment
may not be assigned or otherwise transferred, in whole
or in part, to any Person (including, for the avoidance of
doubt, any LLRE to which a receiver has assigned all or
a portion of Seller’s assets) without the prior written
consent of Purchaser (which may be withheld in its sole
discretion). In no event shall any successor to Seller
(including such an LLRE) be entitled to the benefit of
the Commitment without the prior written consent of
Purchaser. Seller and Conservator, for themselves
and on behalf of their permitted successors, covenant
and agree not to transfer or purport to transfer the
Commitment in contravention of the terms hereof, and
any such attempted transfer shall be null and void ab
initio. It is the expectation of the parties that, in the
event Seller were placed into receivership and an LLRE
formed to purchase certain of its assets and assume certain of its liabilities, the Commitment would remain with
Seller for the benefit of the holders of the debt of Seller
not assumed by the LLRE.
6.3. Amendments; Waivers. This Agreement may
be waived or amended solely by a writing executed by
both of the parties hereto, and, with respect to amendments to or waivers of the provisions of Sections 5.3, 6.2

171
and 6.11, the Conservator; provided, however, that no
such waiver or amendment shall decrease the aggregate
Commitment or add conditions to funding the amounts
required to be funded by Purchaser under the Commitment if such waiver or amendment would, in the reasonable opinion of Seller, adversely affect in any material
respect the holders of debt securities of Seller and/or
the beneficiaries of Mortgage Guarantee Obligations, in
each case in their capacities as such, after taking into
account any alternative arrangements that may be implemented concurrently with such waiver or amendment.
In no event shall any rights granted hereunder prevent
the parties hereto from waiving or amending in any
manner whatsoever the covenants of Seller hereunder.
6.4. Governing Law; Jurisdiction; Venue. This
Agreement and the Warrant shall be governed by, and
construed in accordance with, the federal law of the
United States of America if and to the extent such federal law is applicable, and otherwise in accordance with
the laws of the State of New York. The Senior Preferred Stock shall be governed as set forth in the terms
thereof. Except as provided in section 6.1 and as otherwise required by law, the United States District Court
for the District of Columbia shall have exclusive jurisdiction over all civil actions arising out of this Agreement, the Commitment, the Senior Preferred Stock and
the Warrant, and venue for any such civil action shall lie
exclusively in the United States District Court for the
District of Columbia.
6.5. Notices. Any notices delivered pursuant to or
in connection with this Agreement shall be delivered to
the applicable parties at the addresses set forth below:

172
If to Seller:
Federal Home Loan Mortgage Corporation
c/o Federal Housing Finance Authority
1700 G Street, NW
4th Floor
Washington, DC 20552
Attention: General Counsel
If to Purchaser:
United States Department of the Treasury
1500 Pennsylvania Avenue, NW
Washington DC 20220
Attention: Under Secretary for Domestic
Finance
with a copy to:
United States Department of the Treasury
1500 Pennsylvania Avenue, NW
Washington DC 20220
Attention: General Counsel
If to Conservator:
Federal Housing Finance Authority
1700 G Street, NW
4th Floor
Washington, DC 20552
Attention: General Counsel
All notices and other communications provided for herein shall be in writing and shall be delivered by hand or

173
overnight courier service, mailed by certified or registered mail. All notices hereunder shall be effective upon
receipt.
6.6. Disclaimer of Guarantee. This Agreement and
the Commitment are not intended to and shall not be
deemed to constitute a guarantee by Purchaser or any
other agency or instrumentality of the United States of
the payment or performance of any debt security or any
other obligation, indebtedness or liability of Seller of
any kind or character whatsoever.
6.7. Effect of Order; Injunction; Decree. If any order, injunction or decree is issued by any court of competent jurisdiction that vacates, modifies, amends, conditions, enjoins, stays or otherwise affects the appointment of Conservator as conservator of Seller or otherwise curtails Conservator’s powers as such conservator
(except in each case any order converting the conservatorship to a receivership under Section 1367(a) of the
FHE Act), Purchaser may by written notice to Conservator and Seller declare this Agreement null and void,
whereupon all transfers hereunder (including the issuance of the Senior Preferred Stock and the Warrant and
any funding of the Commitment) shall be rescinded and
unwound and all obligations of the parties (other than to
effectuate such rescission and unwind) shall immediately and automatically terminate.
6.8. Business Day. To the extent that any deadline or date of performance of any right or obligation set
forth herein shall fall on a day other than a Business
Day, then such deadline or date of performance shall automatically be extended to the next succeeding Business
Day.

174
6.9. Entire Agreement. This Agreement, together
with the Senior Preferred Stock and Warrant, contains
the entire agreement between the parties hereto with
respect to the transactions contemplated hereby and supersedes and cancels all prior agreements, including,
but not limited to, all proposals, term sheets, statements, letters of intent or representations, written or
oral, with respect thereto.
6.10. Remedies. In the event of a breach by Seller
of any covenant or representation of Seller set forth
herein, Purchaser shall be entitled to specific performance (in the case of a breach of covenant), damages and
such other remedies as may be available at law or in equity; provided, that Purchaser shall not have the right
to terminate the Commitment solely as a result of any
such breach, and compliance with the covenants and the
accuracy of the representations set forth in this Agreement shall not be conditions to funding the Commitment.
6.11. Tax Reporting. Neither Seller nor Conservator shall take, or shall permit any of their respective successors or assigns to take, a position for any tax, accounting or other purpose that is inconsistent with Internal Revenue Service Notice 2008-76 (or the regulations to be issued pursuant to such Notice) regarding
the application of Section 382 of the Internal Revenue
Code of 1986, as amended, a copy of which Notice has
been provided to Seller in connection with the execution
of this Agreement.
6.12. Non-Severability. Each of the provisions of
this Agreement is integrated with and integral to the
whole and shall not be severable from the remainder of
the Agreement. In the event that any provision of this

175
Agreement, the Senior Preferred Stock or the Warrant
is determined to be illegal or unenforceable, then Purchaser may, in its sole discretion, by written notice to
Conservator and Seller, declare this Agreement null and
void, whereupon all transfers hereunder (including the
issuance of the Senior Preferred Stock and the Warrant
and any funding of the Commitment) shall be rescinded
and unwound and all obligations of the parties (other
than to effectuate such rescission and unwind) shall immediately and automatically terminate.

[Signature Page Follows]

176

Exhibit B

177
EXECUTION VERSION
CERTIFICATE OF DESIGNATION OF TERMS OF
VARIABLE LIQUIDATION PREFERENCE SENIOR
PREFERRED STOCK, SERIES 2008-2
1.

Designation, Par Value, Number of Shares and
Priority

The designation of the series of preferred stock
of the Federal National Mortgage Association (the
“Company”) created by this resolution shall be “Variable Liquidation Preference Senior Preferred Stock, Series 2008-2” (the “Senior Preferred Stock”), and the
number of shares initially constituting the Senior Preferred Stock is 1,000,000. Shares of Senior Preferred
Stock will have no par value and a stated value and initial liquidation preference per share equal to $1,000 per
share, subject to adjustment as set forth herein. The
Board of Directors of the Company, or a duly authorized
committee thereof, in its sole discretion, may reduce the
number of shares of Senior Preferred Stock, provided
such reduction is not below the number of shares of Senior Preferred Stock then outstanding.
The Senior Preferred Stock shall rank prior to
the common stock of the Company as provided in this
Certificate and shall rank, as to both dividends and distributions upon dissolution, liquidation or winding up of
the Company, prior to (a) the shares of preferred stock
of the Company designated “5.25% Non-Cumulative
Preferred Stock, Series D”, “5.10% Non-Cumulative
Preferred Stock, Series E”, “Variable Rate NonCumulative Preferred Stock, Series F”, “Variable Rate
Non-Cumulative Preferred Stock, Series G”, “5.81%
Non-Cumulative Preferred Stock, Series H”, “5.375%

178
Non-Cumulative Preferred Stock, Series I”, “5.125%
Non-Cumulative Preferred Stock, Series L”, “4.75%
Non-Cumulative Preferred Stock, Series M”, “5.50%
Non-Cumulative Preferred Stock, Series N”, “NonCumulative Preferred Stock, Series O”, “Non-Cumulative
Convertible Series 2004-1 Preferred Stock”, “Variable
Rate Non-Cumulative Preferred Stock, Series P”,
“6.75% Non-Cumulative Preferred Stock, Series Q”,
“7.625% Non-Cumulative Preferred Stock, Series R”,
“Fixed-to-Floating Rate Non-Cumulative Preferred
Stock, Series S”, and “8.75% Non-Cumulative Mandatory Convertible Preferred Stock”, Series 2008-1”, (b)
any other capital stock of the Company outstanding on
the date of the initial issuance of the Senior Preferred
Stock and (c) any capital stock of the Company that may
be issued after the date of initial issuance of the Senior
Preferred Stock.
2.

Dividends

(a) For each Dividend Period from the date of
the initial issuance of the Senior Preferred Stock, holders of outstanding shares of Senior Preferred Stock
shall be entitled to receive, ratably, when, as and if declared by the Board of Directors, in its sole discretion,
out of funds legally available therefor, cumulative cash
dividends at the annual rate per share equal to the thencurrent Dividend Rate on the then-current Liquidation
Preference. Dividends on the Senior Preferred Stock
shall accrue from but not including the date of the initial
issuance of the Senior Preferred Stock and will be payable in arrears when, as and if declared by the Board of
Directors quarterly on March 31, June 30, September 30
and December 31 of each year (each, a “Dividend Payment Date”), commencing on December 31, 2008. If a

179
Dividend Payment Date is not a “Business Day,” the related dividend will be paid not later than the next Business Day with the same force and effect as though paid
on the Dividend Payment Date, without any increase to
account for the period from such Dividend Payment
Date through the date of actual payment. “Business
Day” means a day other than (i) a Saturday or Sunday,
(ii) a day on which New York City banks are closed, or
(iii) a day on which the offices of the Company are
closed.
If declared, the initial dividend will be for the period from but not including the date of the initial issuance of the Senior Preferred Stock through and including December 31, 2008. Except for the initial Dividend
Payment Date, the “Dividend Period” relating to a Dividend Payment Date will be the period from but not including the preceding Dividend Payment Date through
and including the related Dividend Payment Date. The
amount of dividends payable on the initial Dividend Payment Date or for any Dividend Period that is not a full
calendar quarter shall be computed on the basis of 30day months, a 360-day year and the actual number of
days elapsed in any period of less than one month. For
the avoidance of doubt, in the event that the Liquidation
Preference changes in the middle of a Dividend Period,
the amount of dividends payable on the Dividend Payment Date at the end of such Dividend Period shall take
into account such change in Liquidation Preference and
shall be computed at the Dividend Rate on each Liquidation Preference based on the portion of the Dividend
Period that each Liquidation Preference was in effect.
(b) To the extent not paid pursuant to Section
2(a) above, dividends on the Senior Preferred Stock

180
shall accrue and shall be added to the Liquidation Preference pursuant to Section 8, whether or not there are
funds legally available for the payment of such dividends
and whether or not dividends are declared.
(c) “Dividend Rate” means 10.0%; provided,
however, that if at any time the Company shall have for
any reason failed to pay dividends in cash in a timely
manner as required by this Certificate, then immediately following such failure and for all Dividend Periods
thereafter until the Dividend Period following the date
on which the Company shall have paid in cash full cumulative dividends (including any unpaid dividends added
to the Liquidation Preference pursuant to Section 8),
the “Dividend Rate” shall mean 12.0%.
(d) Each such dividend shall be paid to the holders of record of outstanding shares of the Senior Preferred Stock as they appear in the books and records of
the Company on such record date as shall be fixed in advance by the Board of Directors, not to be earlier than
45 days nor later than 10 days preceding the applicable
Dividend Payment Date. The Company may not, at
any time, declare or pay dividends on, make distributions with respect to, or redeem, purchase or acquire, or
make a liquidation payment with respect to, any common stock or other securities ranking junior to the Senior Preferred Stock unless (i) full cumulative dividends
on the outstanding Senior Preferred Stock in respect of
the then-current Dividend Period and all past Dividend
Periods (including any unpaid dividends added to the
Liquidation Preference pursuant to Section 8) have been
declared and paid in cash (including through any pay
down of Liquidation Preference pursuant to Section 3)

181
and (ii) all amounts required to be paid pursuant to Section 4 (without giving effect to any prohibition on such
payment under any applicable law) have been paid in
cash.
(e) Notwithstanding any other provision of this
Certificate, the Board of Directors, in its discretion, may
choose to pay dividends on the Senior Preferred Stock
without the payment of any dividends on the common
stock, preferred stock or any other class or series of
stock from time to time outstanding ranking junior to
the Senior Preferred Stock with respect to the payment
of dividends.
(f ) If and whenever dividends, having been declared, shall not have been paid in full, as aforesaid, on
shares of the Senior Preferred Stock, all such dividends
that have been declared on shares of the Senior Preferred Stock shall be paid to the holders pro rata based
on the aggregate Liquidation Preference of the shares
of Senior Preferred Stock held by each holder, and any
amounts due but not paid in cash shall be added to the
Liquidation Preference pursuant to Section 8.
3.

Optional Pay Down of Liquidation Preference

(a) Following termination of the Commitment
(as defined in the Preferred Stock Purchase Agreement
referred to in Section 8 below), and subject to any limitations which may be imposed by law and the provisions
below, the Company may pay down the Liquidation Preference of all outstanding shares of the Senior Preferred
Stock pro rata, at any time, in whole or in part, out of
funds legally available therefor, with such payment first
being used to reduce any accrued and unpaid dividends

182
previously added to the Liquidation Preference pursuant to Section 8 below and, to the extent all such accrued
and unpaid dividends have been paid, next being used to
reduce any Periodic Commitment Fees (as defined in
the Preferred Stock Purchase Agreement referred to in
Section 8 below) previously added to the Liquidation
Preference pursuant to Section 8 below. Prior to termination of the Commitment, and subject to any limitations which may be imposed by law and the provisions
below, the Company may pay down the Liquidation
Preference of all outstanding shares of the Senior Preferred Stock pro rata, at any time, out of funds legally
available therefor, but only to the extent of (i) accrued
and unpaid dividends previously added to the Liquidation Preference pursuant to Section 8 below and not repaid by any prior pay down of Liquidation Preference
and (ii) Periodic Commitment Fees previously added to
the Liquidation Preference pursuant to Section 8 below
and not repaid by any prior pay down of Liquidation
Preference. Any pay down of Liquidation Preference
permitted by this Section 3 shall be paid by making a
payment in cash to the holders of record of outstanding
shares of the Senior Preferred Stock as they appear in
the books and records of the Company on such record
date as shall be fixed in advance by the Board of Directors, not to be earlier than 45 days nor later than 10 days
preceding the date fixed for the payment.
(b) In the event the Company shall pay down of
the Liquidation Preference of the Senior Preferred Stock
as aforesaid, notice of such pay down shall be given by the
Company by first class mail, postage prepaid, mailed
neither less than 10 nor more than 45 days preceding the
date fixed for the payment, to each holder of record of

183
the shares of the Senior Preferred Stock, at such holder's address as the same appears in the books and records of the Company. Each such notice shall state the
amount by which the Liquidation Preference of each
share shall be reduced and the pay down date.
(c) If after termination of the Commitment the
Company pays down the Liquidation Preference of each
outstanding share of Senior Preferred Stock in full, such
shares shall be deemed to have been redeemed as of the
date of such payment, and the dividend that would otherwise be payable for the Dividend Period ending on the
pay down date will be paid on such date. Following such
deemed redemption, the shares of the Senior Preferred
Stock shall no longer be deemed to be outstanding, and
all rights of the holders thereof as holders of the Senior
Preferred Stock shall cease, with respect to shares so
redeemed, other than the right to receive the pay down
amount (which shall include the final dividend for such
shares). Any shares of the Senior Preferred Stock which
shall have been so redeemed, after such redemption,
shall no longer have the status of authorized, issued or
outstanding shares.
4.

Mandatory Pay Down of Liquidation Preference
Upon Issuance of Capital Stock

(a) If the Company shall issue any shares of capital stock (including without limitation common stock or
any series of preferred stock) in exchange for cash at
any time while the Senior Preferred Stock is outstanding, then the Company shall, within 10 Business Days,
use the proceeds of such issuance net of the direct costs
relating to the issuance of such securities (including,
without limitation, legal, accounting and investment
banking fees) to pay down the Liquidation Preference of

184
all outstanding shares of Senior Preferred Stock pro
rata, out of funds legally available therefor, by making a
payment in cash to the holders of record of outstanding
shares of the Senior Preferred Stock as they appear in
the books and records of the Company on such record
date as shall be fixed in advance by the Board of Directors, not to be earlier than 45 days nor later than 10 days
preceding the date fixed for the payment, with such payment first being used to reduce any accrued and unpaid
dividends previously added to the Liquidation Preference pursuant to Section 8 below and, to the extent all
such accrued and unpaid dividends have been paid, next
being used to reduce any Periodic Commitment Fees (as
defined in the Preferred Stock Purchase Agreement referred to in Section 8 below) previously added to the
Liquidation Preference pursuant to Section 8 below;
provided that, prior to the termination of the Commitment (as defined in the Preferred Stock Purchase Agreement referred to in Section 8 below), the Liquidation
Preference of each share of Senior Preferred Stock shall
not be paid down below $1,000 per share.
(b) If the Company shall not have sufficient assets legally available for the pay down of the Liquidation
Preference of the shares of Senior Preferred Stock required under Section 4(a), the Company shall pay down
the Liquidation Preference per share to the extent permitted by law, and shall pay down any Liquidation Preference not so paid down because of the unavailability of
legally available assets or other prohibition as soon as
practicable to the extent it is thereafter able to make
such pay down legally. The inability of the Company
to make such payment for any reason shall not relieve
the Company from its obligation to effect any required

185
pay down of the Liquidation Preference when, as and if
permitted by law.
(c) If after the termination of the Commitment
the Company pays down the Liquidation Preference of
each outstanding share of Senior Preferred Stock in full,
such shares shall be deemed to have been redeemed as
of the date of such payment, and the dividend that would
otherwise be payable for the Dividend Period ending on
the pay down date will be paid on such date. Following
such deemed redemption, the shares of the Senior Preferred Stock shall no longer be deemed to be outstanding, and all rights of the holders thereof as holders of
the Senior Preferred Stock shall cease, with respect to
shares so redeemed, other than the right to receive the
pay down amount (which shall include the final dividend
for such redeemed shares). Any shares of the Senior
Preferred Stock which shall have been so redeemed, after such redemption, shall no longer have the status of
authorized, issued or outstanding shares.
5.

No Voting Rights

Except as set forth in this Certificate or otherwise
required by law, the shares of the Senior Preferred Stock
shall not have any voting powers, either general or special.
6.

No Conversion or Exchange Rights

The holders of shares of the Senior Preferred
Stock shall not have any right to convert such shares
into or exchange such shares for any other class or series of stock or obligations of the Company.

186
7.

No Preemptive Rights

No holder of the Senior Preferred Stock shall as
such holder have any preemptive right to purchase or
subscribe for any other shares, rights, options or other
securities of any class of the Company which at any time
may be sold or offered for sale by the Company.
8.

Liquidation Rights and Preference

(a) Except as otherwise set forth herein, upon
the voluntary or involuntary dissolution, liquidation or
winding up of the Company, the holders of the outstanding shares of the Senior Preferred Stock shall be entitled to receive out of the assets of the Company available
for distribution to stockholders, before any payment or
distribution shall be made on the common stock or any
other class or series of stock of the Company ranking
junior to the Senior Preferred Stock upon liquidation,
the amount per share equal to the Liquidation Preference plus an amount, determined in accordance with
Section 2(a) above, equal to the dividend otherwise payable for the then-current Dividend Period accrued
through and including the date of payment in respect of
such dissolution, liquidation or winding up; provided,
however, that if the assets of the Company available for
distribution to stockholders shall be insufficient for the
payment of the amount which the holders of the outstanding shares of the Senior Preferred Stock shall be
entitled to receive upon such dissolution, liquidation or
winding up of the Company as aforesaid, then, all of the
assets of the Company available for distribution to
stockholders shall be distributed to the holders of outstanding shares of the Senior Preferred Stock pro rata
based on the aggregate Liquidation Preference of the
shares of Senior Preferred Stock held by each holder.

187
(b) “Liquidation Preference” shall initially mean
$1,000 per share and shall be:
(i) increased each time a Deficiency
Amount (as defined in the Preferred Stock Purchase Agreement) is paid to the Company by an
amount per share equal to the aggregate amount
so paid to the Company divided by the number of
shares of Senior Preferred Stock outstanding at
the time of such payment;
(ii) increased each time the Company does
not pay the full Periodic Commitment Fee (as defined in the Preferred Stock Purchase Agreement) in cash by an amount per share equal to the
amount of the Periodic Commitment Fee that is
not paid in cash divided by the number of shares
of Senior Preferred Stock outstanding at the time
such payment is due;
(iii) increased on the Dividend Payment
Date if the Company fails to pay in full the dividend payable for the Dividend Period ending on
such date by an amount per share equal to the aggregate amount of unpaid dividends divided by
the number of shares of Senior Preferred Stock
outstanding on such date; and
(iv) decreased each time the Company pays
down the Liquidation Preference pursuant to Section 3 or Section 4 of this Certificate by an amount
per share equal to the aggregate amount of the
pay down divided by the number of shares of Senior Preferred Stock outstanding at the time of
such pay down.

188
(c) “Preferred Stock Purchase Agreement”
means the Preferred Stock Purchase Agreement, dated
September 7, 2008, between the Company and the
United States Department of the Treasury.
(d) Neither the sale of all or substantially all of
the property or business of the Company, nor the merger, consolidation or combination of the Company into
or with any other corporation or entity, shall be deemed
to be a dissolution, liquidation or winding up for the purpose of this Section 8.
9.

Additional Classes or Series of Stock

The Board of Directors shall have the right at any
time in the future to authorize, create and issue, by resolution or resolutions, one or more additional classes or
series of stock of the Company, and to determine and fix
the distinguishing characteristics and the relative rights,
preferences, privileges and other terms of the shares
thereof; provided that, any such class or series of stock
may not rank prior to or on parity with the Senior Preferred Stock without the prior written consent of the
holders of at least two-thirds of all the shares of Senior
Preferred Stock at the time outstanding.
10. Miscellaneous

(a) The Company and any agent of the Company
may deem and treat the holder of a share or shares of
Senior Preferred Stock, as shown in the Company’s
books and records, as the absolute owner of such share
or shares of Senior Preferred Stock for the purpose of
receiving payment of dividends in respect of such share
or shares of Senior Preferred Stock and for all other
purposes whatsoever, and neither the Company nor any
agent of the Company shall be affected by any notice to

189
the contrary. All payments made to or upon the order
of any such person shall be valid and, to the extent of the
sum or sums so paid, effectual to satisfy and discharge
liabilities for moneys payable by the Company on or
with respect to any such share or shares of Senior Preferred Stock.
(b) The shares of the Senior Preferred Stock,
when duly issued, shall be fully paid and non-assessable.
(c) The Senior Preferred Stock may be issued,
and shall be transferable on the books of the Company,
only in whole shares.
(d) For purposes of this Certificate, the term
“the Company” means the Federal National Mortgage
Association and any successor thereto by operation of
law or by reason of a merger, consolidation, combination
or similar transaction.
(e) This Certificate and the respective rights and
obligations of the Company and the holders of the Senior Preferred Stock with respect to such Senior Preferred Stock shall be construed in accordance with and
governed by the laws of the United States, provided that
the law of the State of Delaware shall serve as the federal rule of decision in all instances except where such
law is inconsistent with the Company’s enabling legislation, its public purposes or any provision of this Certificate.
(f ) Any notice, demand or other communication
which by any provision of this Certificate is required or
permitted to be given or served to or upon the Company
shall be given or served in writing addressed (unless and
until another address shall be published by the Com-

190
pany) to Fannie Mae, 3900 Wisconsin Avenue NW, Washington, DC 20016, Attn: Executive Vice President and
General Counsel. Such notice, demand or other communication to or upon the Company shall be deemed to
have been sufficiently given or made only upon actual
receipt of a writing by the Company. Any notice, demand or other communication which by any provision of
this Certificate is required or permitted to be given or
served by the Company hereunder may be given or
served by being deposited first class, postage prepaid,
in the United States mail addressed (i) to the holder as
such holder’s name and address may appear at such time
in the books and records of the Company or (ii) if to a
person or entity other than a holder of record of the Senior Preferred Stock, to such person or entity at such address as reasonably appears to the Company to be appropriate at such time. Such notice, demand or other
communication shall be deemed to have been sufficiently given or made, for all purposes, upon mailing.
(g) The Company, by or under the authority of
the Board of Directors, may amend, alter, supplement
or repeal any provision of this Certificate pursuant to
the following terms and conditions:
(i) Without the consent of the holders of
the Senior Preferred Stock, the Company may
amend, alter, supplement or repeal any provision
of this Certificate to cure any ambiguity, to correct or supplement any provision herein which
may be defective or inconsistent with any other
provision herein, or to make any other provisions
with respect to matters or questions arising under this Certificate, provided that such action

191
shall not adversely affect the interests of the
holders of the Senior Preferred Stock.
(ii) The consent of the holders of at least
two-thirds of all of the shares of the Senior Preferred Stock at the time outstanding, given in
person or by proxy, either in writing or by a vote
at a meeting called for the purpose at which the
holders of shares of the Senior Preferred. Stock
shall vote together as a class, shall be necessary
for authorizing, effecting or validating the amendment, alteration, supplementation or repeal
(whether by merger, consolidation or otherwise)
of the provisions of this Certificate other than as
set forth in subparagraph (i) of this paragraph
(g). The creation and issuance of any other class
or series of stock, or the issuance of additional
shares of any existing class or series of stock, of
the Company ranking junior to the Senior Preferred Stock shall not be deemed to constitute
such an amendment, alteration, supplementation
or repeal.
(iii) Holders of the Senior Preferred Stock
shall be entitled to one vote per share on matters
on which their consent is required pursuant to
subparagraph (ii) of this paragraph (g). In connection with any meeting of such holders, the
Board of Directors shall fix a record date, neither
earlier than 60 days nor later than 10 days prior
to the date of such meeting, and holders of record
of shares of the Senior Preferred Stock on such
record date shall be entitled to notice of and to
vote at any such meeting and any adjournment.

192
The Board of Directors, or such person or persons as it may designate, may establish reasonable rules and procedures as to the solicitation of
the consent of holders of the Senior Preferred
Stock at any such meeting or otherwise, which
rules and procedures shall conform to the requirements of any national securities exchange
on which the Senior Preferred Stock may be
listed at such time.
(h) RECEIPT AND ACCEPTANCE OF A SHARE
OR SHARES OF THE SENIOR PREFERRED STOCK
BY OR ON BEHALF OF A HOLDER SHALL CONSTITUTE THE UNCONDITIONAL ACCEPTANCE BY THE
HOLDER (AND ALL OTHERS HAVING BENEFICIAL
OWNERSHIP OF SUCH SHARE OR SHARES) OF ALL
OF THE TERMS AND PROVISIONS OF THIS CERTIFICATE. NO SIGNATURE OR OTHER FURTHER MANIFESTATION OF ASSENT TO THE TERMS AND PROVISIONS OF THIS CERTIFICATE SHALL BE NECESSARY FOR ITS OPERATION OR EFFECT AS BETWEEN THE COMPANY AND THE HOLDER (AND
ALL SUCH OTHERS).

193
IN WITNESS WHEREOF, I have hereunto set
my hand and the seal of the Company this 7th day of
Sept., 2008.
[Seal]
FEDERAL NATIONAL MORTGAGE ASSOCIATION,
by
The Federal Housing Finance Agency, its Conservator
James B. Lockhart III
Director

Signature Page to Certificate of Designations of
Senior Preferred Stock

194
EXECUTION VERSION
FREDDIE MAC
CERTIFICATE OF CREATION, DESIGNATION,
POWERS, PREFERENCES, RIGHTS, PRIVILEGES,
QUALIFICATIONS, LIMITATIONS, RESTRICTIONS,
TERMS AND CONDITIONS
OF
VARIABLE LIQUIDATION PREFERENCE SENIOR
PREFERRED STOCK (PAR VALUE $1.00
PER SHARE)

The Federal Housing Finance Agency, as Conservator of the Federal Home Loan Mortgage Corporation, a government-sponsored enterprise of the United
States of America (the “Company”), does hereby certify
that, pursuant to authority vested in the Board of Directors of the Company by Section 306(f ) of the Federal.
Home Loan Mortgage Corporation Act, and pursuant to
the authority vested in the Conservator of the Company
by Section 1367(b) of the Federal Housing Enterprises
Financial Safety and Soundness Act of 1992 (12 U.S.C.
§ 4617), as amended, the Conservator adopted Resolution FHLMC 2008on September 7, 2008, which resolution is now, and at all times since such date has been,
in full force and effect, and that the Conservator approved the final terms of the issuance and sale of the
preferred stock of the Company designated above.
The Senior Preferred Stock shall have the following designation, powers, preferences, rights, privileges,
qualifications, limitations, restrictions, terms and conditions:

195
1.

Designation, Par Value, Number of Shares and Seniority

The class of preferred stock of the Company created hereby (the “Senior Preferred Stock”) shall be designated “Variable Liquidation Preference Senior Preferred Stock,” shall have a par value of $1.00 per share
and shall consist of 1,000,000 shares. The Senior Preferred Stock shall rank prior to the common stock of the
Company as provided in this Certificate and shall rank,
as to both dividends and distributions upon liquidation,
prior to (a) the Fixed-to-Floating Rate Non-Cumulative
Perpetual Preferred Stock issued on December 4, 2007,
(b) the 6.55% Non-Cumulative Preferred Stock issued
on September 28, 2007, (c) the 6.02% Non-Cumulative
Preferred Stock issued on July 24, 2007, (d) the 5.66%
Non-Cumulative Preferred Stock issued on April 16,
2007, (e) the 5.57% Non-Cumulative Preferred Stock issued on January 16, 2007, (f ) the 5.9% Non-Cumulative
Preferred Stock issued on October 16, 2006, (g) the
6.42% Non-Cumulative Preferred Stock issued on July
17, 2006, (h) the Variable Rate, Non-Cumulative Preferred Stock issued on July 17, 2006, (i) the 5.81% NonCumulative Preferred Stock issued on January 29, 2002,
( j) the 5.7% Non-Cumulative Preferred Stock issued on
October 30, 2001, (k) the 6% Non-Cumulative Preferred
Stock issued on May 30, 2001, (l) the Variable Rate, NonCumulative Preferred Stock issued on May 30, 2001 and
June 1, 2001, (m) the 5.81% Non-Cumulative Preferred
Stock issued on March 23, 2001, (n) the Variable Rate,
Non-Cumulative Preferred Stock issued on March 23,
2001, (o) the Variable Rate, Non-Cumulative Preferred
Stock issued on January 26, 2001, (p) the Variable Rate,
Non-Cumulative Preferred Stock issued on November
5, 1999, (q) the 5.79% Non-Cumulative Preferred Stock

196
issued on July 21, 1999, (r) the 5.1% Non-Cumulative
Preferred Stock issued on March 19, 1999, (s) the 5.3%
Non-Cumulative Preferred Stock issued on October 28,
1998, (t) 5.1% Non-Cumulative Preferred Stock issued
on September 23, 1998, (u) the Variable Rate, Non-Cumulative Preferred Stock issued on September 23, 1998
and September 29, 1998, (v) the 5% Non-Cumulative
Preferred Stock issued on March 23, 1998, (w) the 5.81%
Non-Cumulative Preferred Stock issued on October 27,
1997, (x) the Variable Rate, Non-Cumulative Preferred
Stock issued on April 26, 1996, (y) any other capital
stock of the Company outstanding on the date of the initial issuance of the Senior Preferred Stock, and (z) any
capital stock of the Company that may be issued after
the date of initial issuance of the Senior Preferred Stock.
2.

Dividends

(a) For each Dividend Period from the date of
the initial issuance of the Senior Preferred Stock, holders of outstanding shares of Senior Preferred Stock
shall be entitled to receive, ratably, when, as and if declared by the Board of Directors, in its sole discretion,
out of funds legally available therefor, cumulative cash
dividends at the annual rate per share equal to the thencurrent Dividend Rate on the then-current Liquidation
Preference. Dividends on the Senior Preferred Stock
shall accrue from but not including the date of the initial
issuance of the Senior Preferred Stock and will be payable in arrears when, as and if declared by the Board of
Directors quarterly on March 31, June 30, September 30
and December 31 of each year (each, a “Dividend Payment Date”), commencing on December 31, 2008. If a
Dividend Payment Date is not a “Business Day,” the re-

197
lated dividend will be paid not later than the next Business Day with the same force and effect as though paid
on the Dividend Payment Date, without any increase to
account for the period from such Dividend Payment
Date through the date of actual payment. “Business
Day” means a day other than (i) a Saturday or Sunday,
(ii) a day on which New York City banks are closed, or
(iii) a day on which the offices of the Company are
closed.
If declared, the initial dividend will be for the period from but not including the date of the initial issuance of the Senior Preferred Stock through and including December 31, 2008. Except for the initial Dividend
Payment Date, the “Dividend Period” relating to a Dividend Payment Date will be the period from but not including the preceding Dividend Payment Date through
and including the related Dividend Payment Date. The
amount of dividends payable on the initial Dividend Payment Date or for any Dividend Period that is not a full
calendar quarter shall be computed on the basis of 30day months, a 360-day year and the actual number of
days elapsed in any period of less than one month. For
the avoidance of doubt, in the event that the Liquidation
Preference changes in the middle of a Dividend Period,
the amount of dividends payable on the Dividend Payment Date at the end of such Dividend Period shall take
into account such change in Liquidation Preference and
shall be computed at the Dividend Rate on each Liquidation Preference based on the portion of the Dividend
Period that each Liquidation Preference was in effect.
(b) To the extent not paid pursuant to Section
2(a) above, dividends on the Senior Preferred Stock

198
shall accrue and shall be added to the Liquidation Preference pursuant to Section 8, whether or not there are
funds legally available for the payment of such dividends
and whether or not dividends are declared.
(c) “Dividend Rate” means 10.0%; provided,
however, that if at any time the Company shall have for
any reason failed to pay dividends in cash in a timely
manner as required by this Certificate, then immediately following such failure and for all Dividend Periods
thereafter until the Dividend Period following the date
on which the Company shall have paid in cash full cumulative dividends (including any unpaid dividends added
to the Liquidation Preference pursuant to Section 8),
the “Dividend Rate” shall mean 12.0%.
(d) Each such dividend shall be paid to the holders of record of outstanding shares of the Senior Preferred Stock as they appear in the books and records of
the Company on such record date as shall be fixed in advance by the Board of Directors, not to be earlier than
45 days nor later than 10 days preceding the applicable
Dividend Payment Date. The Company may not, at any
time, declare or pay dividends on, make distributions with
respect to, or redeem, purchase or acquire, or make a
liquidation payment with respect to, any common stock
or other securities ranking junior to the Senior Preferred Stock unless (i) full cumulative dividends on the
outstanding Senior Preferred Stock in respect of the
then-current Dividend Period and all past Dividend Periods (including any unpaid dividends added to the Liquidation Preference pursuant to Section 8) have been
declared and paid in cash (including through any pay
down of Liquidation Preference pursuant to Section 3)

199
and (ii) all amounts required to be paid pursuant to Section 4 (without giving effect to any prohibition on such
payment under any applicable law) have been paid in
cash.
(e) Notwithstanding any other provision of this
Certificate, the Board of Directors, in its discretion, may
choose to pay dividends on the Senior Preferred Stock
without the payment of any dividends on the common
stock, preferred stock or any other class or series of
stock from time to time outstanding ranking junior to
the Senior Preferred Stock with respect to the payment
of dividends.
(f ) If and whenever dividends, having been declared, shall not have been paid in full, as aforesaid, on
shares of the Senior Preferred Stock, all such dividends
that have been declared on shares of the Senior Preferred Stock shall be paid to the holders pro rata based
on the aggregate Liquidation Preference of the shares of
Senior Preferred Stock held by each holder, and any
amounts due but not paid in cash shall be added to the
Liquidation Preference pursuant to Section 8.
3.

Optional Pay Down of Liquidation Preference

(a) Following termination of the Commitment
(as defined in the Preferred Stock Purchase Agreement
referred to in Section 8 below), and subject to any limitations which may be imposed by law and the provisions
below, the Company may pay down the Liquidation
Preference of all outstanding shares of the Senior Preferred Stock pro rata, at any time, in whole or in part,
out of funds legally available therefor, with such payment first being used to reduce any accrued and unpaid

200
dividends previously added to the Liquidation Preference pursuant to Section 8 below and, to the extent all
such accrued and unpaid dividends have been paid, next
being used to reduce any Periodic Commitment Fees (as
defined in the Preferred Stock Purchase Agreement referred to in Section 8 below) previously added to the Liquidation Preference pursuant to Section 8 below. Prior
to termination of the Commitment, and subject to any
limitations which may be imposed by law and the provisions below, the Company may pay down the Liquidation Preference of all outstanding shares of the Senior
Preferred Stock pro rata, at any time, out of funds legally available therefor, but only to the extent of (i) accrued and unpaid dividends previously added to the Liquidation Preference pursuant to Section 8 below and not
repaid by any prior pay down of Liquidation Preference
and (ii) Periodic Commitment Fees previously added to
the Liquidation Preference pursuant to Section 8 below
and not repaid by any prior pay down of Liquidation
Preference. Any pay down of Liquidation Preference
permitted by this Section 3 shall be paid by making a
payment in cash to the holders of record of outstanding
shares of the Senior Preferred Stock as they appear in
the books and records of the Company on such record
date as shall be fixed in advance by the Board of Directors, not to be earlier than 45 days nor later than 10 days
preceding the date fixed for the payment.
(b) In the event the Company shall pay down of
the Liquidation Preference of the Senior Preferred
Stock as aforesaid, notice of such pay down shall be
given by the Company by first class mail, postage prepaid, mailed neither less than 10 nor more than 45 days
preceding the date fixed for the payment, to each holder
of record of the shares of the Senior Preferred Stock, at

201
such holder’s address as the same appears in the books
and records of the Company. Each such notice shall
state the amount by which the Liquidation Preference
of each share shall be reduced and the pay down date.
(c) If after termination of the Commitment the
Company pays down the Liquidation Preference of each
outstanding share of Senior Preferred Stock in full, such
shares shall be deemed to have been redeemed as of the
date of such payment, and the dividend that would otherwise be payable for the Dividend Period ending on the
pay down date will be paid on such date. Following
such deemed redemption, the shares of the Senior Preferred Stock shall no longer be deemed to be outstanding, and all rights of the holders thereof as holders of
the Senior Preferred Stock shall cease, with respect to
shares so redeemed, other than the right to receive the
pay down amount (which shall include the final dividend
for such shares). Any shares of the Senior Preferred
Stock which shall have been so redeemed, after such redemption, shall no longer have the status of authorized,
issued or outstanding shares.
4.

Mandatory Pay Down of Liquidation Preference
Upon Issuance of Capital Stock

(a) If the Company shall issue any shares of capital stock (including without limitation common stock or
any series of preferred stock) in exchange for cash at
any time while the Senior Preferred Stock is outstanding, then the Company shall, within 10 Business Days,
use the proceeds of such issuance net of the direct costs
relating to the issuance of such securities (including,
without limitation, legal, accounting and investment
banking fees) to pay down the Liquidation Preference of
all outstanding shares of Senior Preferred Stock pro

202
rata, out of funds legally available therefor, by making a
payment in cash to the holders of record of outstanding
shares of the Senior Preferred Stock as they appear in
the books and records of the Company on such record
date as shall be fixed in advance by the Board of Directors, not to be earlier than 45 days nor later than 10 days
preceding the date fixed for the payment, with such payment first being used to reduce any accrued and unpaid
dividends previously added to the Liquidation Preference pursuant to Section 8 below and, to the extent all
such accrued and unpaid dividends have been paid, next
being used to reduce any Periodic Commitment Fees (as
defined in the Preferred Stock Purchase Agreement referred to in Section 8 below) previously added to the
Liquidation Preference pursuant to Section 8 below;
provided that, prior to the termination of the Commitment (as defined in the Preferred Stock Purchase
Agreement referred to in Section 8 below), the Liquidation Preference of each share of Senior Preferred Stock
shall not be paid down below $1,000 per share.
(b) If the Company shall not have sufficient assets legally available for the pay down of the Liquidation
Preference of the shares of Senior Preferred Stock required under Section 4(a), the Company shall pay down
the Liquidation Preference per share to the extent permitted by law, and shall pay down any Liquidation Preference not so paid down because of the unavailability of
legally available assets or other prohibition as soon as
practicable to the extent it is thereafter able to make
such pay down legally. The inability of the Company
to make such payment for any reason shall not relieve
the Company from its obligation to effect any required
pay down of the Liquidation Preference when, as and if
permitted by law.

203
(c) If after the termination of the Commitment
the Company pays down the Liquidation Preference of
each outstanding share of Senior Preferred Stock in full,
such shares shall be deemed to have been redeemed as
of the date of such payment, and the dividend that would
otherwise be payable for the Dividend Period ending on
the pay down date will be paid on such date. Following
such deemed redemption, the shares of the Senior Preferred Stock shall no longer be deemed to be outstanding, and all rights of the holders thereof as holders of
the Senior Preferred Stock shall cease, with respect to
shares so redeemed, other than the right to receive the
pay down amount (which shall include the final dividend
for such redeemed shares). Any shares of the Senior
Preferred Stock which shall have been so redeemed, after such redemption, shall no longer have the status of
authorized, issued or outstanding shares.
5.

No Voting Rights

Except as set forth in this Certificate or otherwise required by law, the shares of the Senior Preferred
Stock shall not have any voting powers, either general
or special.
6.

No Conversion or Exchange Rights

The holders of shares of the Senior Preferred
Stock shall not have any right to convert such shares
into or exchange such shares for any other class or series of stock or obligations of the Company.
7.

No Preemptive Rights

No holder of the Senior Preferred Stock shall as
such holder have any preemptive right to purchase or
subscribe for any other shares, rights, options or other

204
securities of any class of the Company which at any time
may be sold or offered for sale by the Company.
8.

Liquidation Rights and Preference

(a) Except as otherwise set forth herein, upon
the voluntary or involuntary dissolution, liquidation or
winding up of the Company, the holders of the outstanding shares of the Senior Preferred Stock shall be entitled to receive out of the assets of the Company available
for distribution to stockholders, before any payment or
distribution shall be made on the common stock or any
other class or series of stock of the Company ranking
junior to the Senior Preferred Stock upon liquidation,
the amount per share equal to the Liquidation Preference plus an amount, determined in accordance with
Section 2(a) above, equal to the dividend otherwise payable for the then-current Dividend Period accrued
through and including the date of payment in respect of
such dissolution, liquidation or winding up; provided,
however, that if the assets of the Company available for
distribution to stockholders shall be insufficient for the
payment of the amount which the holders of the outstanding shares of the Senior Preferred Stock shall be
entitled to receive upon such dissolution, liquidation or
winding up of the Company as aforesaid, then, all of the
assets of the Company available for distribution to stockholders shall be distributed to the holders of outstanding shares of the Senior Preferred Stock pro rata based
on the aggregate Liquidation Preference of the shares
of Senior Preferred Stock held by each holder.
(b) “Liquidation Preference” shall initially mean
$1,000 per share and shall be:

205
(i) increased each time a Deficiency Amount
(as defined in the Preferred Stock Purchase
Agreement) is paid to the Company by an amount
per share equal to the aggregate amount so paid
to the Company divided by the number of shares
of Senior Preferred Stock outstanding at the time
of such payment;
(ii) increased each time the Company does
not pay the full Periodic Commitment Fee (as defined in the Preferred Stock Purchase Agreement) in cash by an amount per share equal to the
amount of the Periodic Commitment Fee that is
not paid in cash divided by the number of shares
of Senior Preferred Stock outstanding at the time
such payment is due;
(iii) increased on the Dividend Payment Date
if the Company fails to pay in full the dividend
payable for the Dividend Period ending on such
date by an amount per share equal to the aggregate amount of unpaid dividends divided by the
number of shares of Senior Preferred Stock outstanding on such date; and
(iv) decreased each time the Company pays
down the Liquidation Preference pursuant to Section 3 or Section 4 of this Certificate by an amount
per share equal to the aggregate amount of the
pay down divided by the number of shares of Senior Preferred Stock outstanding at the time of
such pay down.
(c) “Preferred Stock Purchase Agreement”
means the Preferred Stock Purchase Agreement, dated

206
September 7, 2008, between the Company and the
United States Department of the Treasury.
(d) Neither the sale of all or substantially all of
the property or business of the Company, nor the merger, consolidation or combination of the Company into
or with any other corporation or entity, shall be deemed
to be a dissolution, liquidation or winding up for the purpose of this Section 8.
9.

Additional Classes or Series of Stock

The Board of Directors shall have the right at any
time in the future to authorize, create and issue, by resolution or resolutions, one or more additional classes or
series of stock of the Company, and to determine and fix
the distinguishing characteristics and the relative rights,
preferences, privileges and other terms of the shares
thereof; provided that, any such class or series of stock
may not rank prior to or on parity with the Senior Preferred Stock without the prior written consent of the
holders of at least two-thirds of all the shares of Senior
Preferred Stock at the time outstanding.
10. Miscellaneous

(a) The Company and any agent of the Company
may deem and treat the holder of a share or shares of
Senior Preferred Stock, as shown in the Company’s
books and records, as the absolute owner of such share
or shares of Senior Preferred Stock for the purpose of
receiving payment of dividends in respect of such share
or shares of Senior Preferred Stock and for all other
purposes whatsoever, and neither the Company nor any
agent of the Company shall be affected by any notice to
the contrary. All payments made to or upon the order
of any such person shall be valid and, to the extent of the

207
sum or sums so paid, effectual to satisfy and discharge
liabilities for moneys payable by the Company on or
with respect to any such share or shares of Senior Preferred Stock.
(b) The shares of the Senior Preferred Stock,
when duly issued, shall be fully paid and non-assessable.
(c) The Senior Preferred Stock may be issued,
and shall be transferable on the books of the Company,
only in whole shares.
(d) For purposes of this Certificate, the term
“the Company” means the Federal Home Loan Mortgage Corporation and any successor thereto by operation of law or by reason of a merger, consolidation, combination or similar transaction.
(e) This Certificate and the respective rights and
obligations of the Company and the holders of the Senior Preferred Stock with respect to such Senior Preferred Stock shall be construed in accordance with and
governed by the laws of the United States, provided that
the law of the Commonwealth of Virginia shall serve as
the federal rule of decision in all instances except where
such law is inconsistent with the Company's enabling
legislation, its public purposes or any provision of this
Certificate.
(f ) Any notice, demand or other communication
which by any provision of this Certificate is required or
permitted to be given or served to or upon the Company
shall be given or served in writing addressed (unless and
until another address shall be published by the Company) to Freddie Mac, 8200 Jones Branch Drive, McLean,
Virginia 22102, Attn: Executive Vice President and

208
General Counsel. Such notice, demand or other communication to or upon the Company shall be deemed to
have been sufficiently given or made only upon actual
receipt of a writing by the Company. Any notice, demand or other communication which by any provision of
this Certificate is required or permitted to be given or
served by the Company hereunder may be given or
served by being deposited first class, postage prepaid,
in the United States mail addressed (i) to the holder as
such holder’s name and address may appear at such time
in the books and records of the Company or (ii) if to a
person or entity other than a holder of record of the Senior Preferred Stock, to such person or entity at such address as reasonably appears to the Company to be appropriate at such time. Such notice, demand or other
communication shall be deemed to have been sufficiently given or made, for all purposes, upon mailing.
(g) The Company, by or under the authority of
the Board of Directors, may amend, alter, supplement
or repeal any provision of this Certificate pursuant to
the following terms and conditions:
(i) Without the consent of the holders of the
Senior Preferred Stock, the Company may amend,
alter, supplement or repeal any provision of this
Certificate to cure any ambiguity, to correct or
supplement any provision herein which may be defective or inconsistent with any other provision
herein, or to make any other provisions with respect to matters or questions arising under this
Certificate, provided that such action shall not adversely affect the interests of the holders of the
Senior Preferred Stock.

209
(ii) The consent of the holders of at least twothirds of all of the shares of the Senior Preferred
Stock at the time outstanding, given in person or
by proxy, either in writing or by a vote at a meeting called for the purpose at which the holders of
shares of the Senior Preferred Stock shall vote together as a class, shall be necessary for authorizing, effecting or validating the amendment, alteration, supplementation or repeal (whether by merger, consolidation or otherwise) of the provisions
of this Certificate other than as set forth in subparagraph (i) of this paragraph (g). The creation
and issuance of any other class or series of stock,
or the issuance of additional shares of any existing
class or series of stock, of the Company ranking
junior to the Senior Preferred Stock shall not be
deemed to constitute such an amendment, alteration, supplementation or repeal.
(iii) Holders of the Senior Preferred Stock
shall be entitled to one vote per share on matters
on which their consent is required pursuant to
subparagraph (ii) of this paragraph (g). In connection with any meeting of such holders, the
Board of Directors shall fix a record date, neither
earlier than 60 days nor later than 10 days prior to
the date of such meeting, and holders of record of
shares of the Senior Preferred Stock on such record date shall be entitled to notice of and to vote
at any such meeting and any adjournment. The
Board of Directors, or such person or persons as
it may designate, may establish reasonable rules
and procedures as to the solicitation of the consent
of holders of the Senior Preferred Stock at any

210
such meeting or otherwise, which rules and procedures shall conform to the requirements of any national securities exchange on which the Senior
Preferred Stock may be listed at such time.
(h)

RECEIPT AND ACCEPTANCE OF A SHARE
OR SHARES OF THE SENIOR PREFERRED STOCK
BY OR ON BEHALF OF A HOLDER SHALL CONSTITUTE THE UNCONDITIONAL ACCEPTANCE BY THE
HOLDER (AND ALL OTHERS HAVING BENEFICIAL
OWNERSHIP OF SUCH SHARE OR SHARES) OF ALL
OF THE TERMS AND PROVISIONS OF THIS CERTIFICATE.
NO SIGNATURE OR OTHER FURTHER
MANIFESTATION OF ASSENT TO THE TERMS AND
PROVISIONS OF THIS CERTIFICATE SHALL BE
NECESSARY FOR ITS OPERATION OR EFFECT AS
BETWEEN THE COMPANY AND THE HOLDER (AND
ALL SUCH OTHERS).

211
IN WITNESS WHEREOF, I have hereunto set
my hand and the seal of the Company this 7th day of
Sept., 2008.
[Seal]
FEDERAL NATIONAL MORTGAGE ASSOCIATION,
by
The Federal Housing Finance Agency, its Conservator
James B. Lockhart III
Director

Signature Page to Certificate of Designations of
Senior Preferred Stock

212

Exhibit C

213
SECOND AMENDMENT TO AMENDED AND
RESTATED SENIOR PREFERRED STOCK
PURCHASE AGREEMENT

SECOND AMENDMENT dated as of December
24, 2009, to the AMENDED AND RESTATED SENIOR PREFERRED STOCK PURCHASE AGREEMENT dated as of September 26, 2008, between the
UNITED STATES DEPARTMENT OF THE TREASURY (“Purchaser”), and FEDERAL NATIONAL
MORTGAGE ASSOCIATION (“Seller”), acting
through the Federal Housing Finance Agency (the
“Agency”) as its duly appointed conservator (the
Agency in such capacity, “Conservator”).
Background

A. Purchaser and Seller have heretofore entered into the Amended and Restated Senior Preferred
Stock Purchase Agreement dated as of September 26,
2008 (the “Amended and Restated Agreement”).
B. In the Amended and Restated Agreement,
Purchaser committed itself to provide to Seller, on the
terms and conditions provided in the Amended and Restated Agreement, immediately available funds in an
amount as determined from time to time as provided in
the Amended and Restated Agreement, but in no event
in an aggregate amount exceeding $100,000,000,000.
C. Purchaser and Seller have heretofore entered into the Amendment dated as of May 6, 2009, to
the Amended and Restated Agreement (the “First
Amendment”).
D. In the First Amendment, Purchaser increased to $200,000,000,000 the maximum aggregate
amount permitted to be provided to Seller under the

214
Amended and Restated Agreement, and amended the
terms of the Amended and Restated Agreement in certain other respects.
E. Purchaser and Seller are each authorized to
enter into this Second Amendment to the Amended and
Restated Agreement (“this Second Amendment”) (i)
modifying the Treasury’s funding commitment to Seller
to provide it with additional funding in amounts not to
exceed the new formulaic maximum amount specified
herein, and (ii) amending the terms of the Amended and
Restated Agreement, as previously amended, in certain
other respects.
THEREFORE, for and in consideration of the
mutual agreements herein contained and for other good
and valuable consideration, the receipt and sufficiency
of which is hereby acknowledged, Purchaser and Seller
agree as follows:
Terms and Conditions
1.

Definitions.

Capitalized terms used and not defined in this
Amendment shall have the respective meanings given
such terms in the Amended and Restated Agreement, as
amended by the First Amendment (the Amended and
Restated Agreement, as amended by the First Amendment, being the “Existing Agreement”).
2.

Amendment to Section 1 (Relating to Definition of
“Indebtedness”).

The definition of “Indebtedness” in Section 1 of
the Existing Agreement is hereby amended to read as
follows:

215
“Indebtedness” of any Person means, for purposes of Section 5.5 only, without duplication, (a)
all obligations of such Person for money borrowed by such Person, (b) all obligations of such
Person evidenced by bonds, debentures, notes or
similar instruments, (c) all obligations of such
Person under conditional sale or other title retention agreements relating to property or assets
purchased by such Person, (d) all obligations of
such Person issued or assumed as the deferred
purchase price of property or services, other than
trade accounts payable, (e) all Capital Lease Obligations of such Person, (f ) obligations, whether
contingent or liquidated, in respect of letters of
credit (including standby and commercial), bankers’ and similar instruments, and (g) any obligation of such Person, contingent or otherwise,
guaranteeing or having the economic effect of
guaranteeing and Indebtedness of the types set
forth in clauses (a) through (f ) payable by another
Person other than Mortgage Guarantee Obligations (and, for the avoidance of doubt, without
giving effect to any change that may be made
hereafter in respect of Statement of Financial Accounting Standards No. 140, 166, or 167, or any
similar accounting standard).
Indebtedness
balances or amounts shall be measured at par
value for purposes of Section 5.5 only.
3.

Amendment to Section 1 (Relating to Definition of
“Maximum Amount”).

The definition of “Maximum Amount” in Section
1 of the Existing Agreement is hereby amended to read
as follows:

216
“Maximum Amount” means, as of any date of
determination, the greater of (a) $200,000,000,000
(two
hundred
billion
dollars),
or
(b)
$200,000,000,000 plus the cumulative total of Deficiency Amounts determined for calendar quarters in calendar years 2010, 2011, and 2012, less
any Surplus Amount determined as of December
31, 2012, and in the case of either (a) or (b), less
the aggregate amount of funding under the Commitment prior to such date.
4.

Amendment to Section 1 (Relating to Definition of
“Mortgage Assets”).

The definition of “Mortgage Assets” in Section 1
of the Existing Agreement is hereby amended to read
as follows:
“Mortgage Assets” of any Person means assets of such Person consisting of mortgages, mortgage loans, mortgage-related securities, participation certificates, mortgage-backed commercial paper, obligations of real estate mortgage investment conduits and similar assets, in each case to
the extent such assets would appear on the balance sheet of such Person in accordance with
GAAP as in effect as of the date hereof (and, for
the avoidance of doubt, without giving effect to
any change that may be made hereafter in respect of Statement of Financial Accounting
Standards No. 140, 166, or 167, or any similar accounting standard). Mortgage Asset balances
or amounts shall be measured at unpaid principal
balance for purposes of Section 5.7 only.

217
5.

Amendment to Section 1 (Adding Definition for New
Defined Term “Surplus Amount”).

Section 1 of the Existing Agreement is hereby
amended by inserting after the definition of the term
“Senior Preferred Stock” the following:
“Surplus Amount” means, as of the date of
determination, the amount if any by which (a) the
total assets of Seller (such assets excluding the
Commitment and any unfunded amounts thereof )
exceed (b) the total liabilities of Seller, in each
case as reflected on the balance sheet of Seller as
of the applicable date set forth in the Agreement,
prepared in accordance with GAAP.
6.

Amendment to Section 2.1 (Relating to the Commitment).

Section 2.1 of the Existing Agreement is hereby
amended to read as follows:
2.1 Commitment. Purchaser hereby commits to provide to Seller, on the terms and conditions set forth herein, immediately available funds
in an amount up to but not in excess of the Available
Amount, as determined from time to time (the
“Commitment”); provided, that in no event
shall the aggregate amount funded under the
Commitment exceed the greater of (a)
$200,000,000,000 (two hundred billion dollars), or
(b) $200,000,000,000 plus the cumulative total of
Deficiency Amounts determined for calendar
quarters in calendar years 2010, 2011, and 2012,
less any Surplus Amount determined as of December 31, 2012. The liquidation preference of

218
Senior Preferred Stock shall increase in connection with draws on the Commitment, as set forth
in Section 3.3 below.
7.

Amendment to Section 2.5 (Relating to Termination
of Purchaser’s Obligations).

Section 2.5 of the Existing Agreement is hereby
amended to read as follows:
2.5 Termination of Purchaser’s Obligations.
Subject to earlier termination pursuant to Section 6.7, all of Purchaser’s obligations under and
in respect of the Commitment shall terminate
upon the earliest of: (a) if the Liquidation End
Date shall have occurred, (i) the payment in full
of Purchaser’s obligations with respect to any
valid request for funds pursuant to Section 2.4 or
(ii) if there is no Deficiency Amount on the Liquidation End Date or if no such request pursuant
to Section 2.4 has been made, the close of business on the 15th Business Day following the determination of the Deficiency Amount, if any, as
of the Liquidation End Date; (b) the payment in
full of, defeasance of or other reasonable provision for all liabilities of Seller, whether or not contingent, including payment of any amounts that
may become payable on, or expiry of or other provision for, all Mortgage Guarantee Obligations
and provision for unmatured debts; and (c) the
funding by Purchaser under the Commitment of
an aggregate equal to the greater of (a)
$200,000,000,000 (two hundred billion dollars), or
(b) $200,000,000,000 plus the cumulative total of
Deficiency Amounts determined for calendar
quarters in calendar years 2010, 2011, and 2012,

219
less any Surplus Amount determined as of December 31, 2012. For avoidance of doubt, the
Commitment shall not be terminable by Purchaser solely by reason of (i) the conservatorship,
receivership or other insolvency proceeding of
Seller or (ii) the Seller’s financial condition or any
adverse change in Seller’s financial condition.
8.

Amendment to Section 3.2 (Relating to Periodic Commitment Fee).

Section 3.2 of the Existing Agreement is hereby
amended to read as follows:
3.2. Periodic Commitment Fee. (a) Commencing March 31, 2011, Seller shall pay to Purchaser quarterly, on the last day of March, June,
September and December of each calendar year
(each a “Periodic Fee Date”), a periodic commitment fee (the “Periodic Commitment Fee”).
The Periodic Commitment Fee shall accrue from
January 1, 2011.
(b) The Periodic Commitment Fee is intended to fully compensate Purchaser for the
support provided by the ongoing Commitment
following December 31, 2010. The amount of
the Periodic Commitment Fee shall be set not
later than December 31, 2010 with respect to the
ensuing five-year period, shall be reset every five
years thereafter and shall be determined with
reference to the market value of the Commitment
as then in effect. The amount of the Periodic
Commitment Fee shall be mutually agreed by
Purchaser and Seller, subject to their reasonable
discretion and in consultation with the Chairman

220
of the Federal Reserve; provided, that Purchaser
may waive the Periodic Commitment Fee for up
to one year at a time, in its sole discretion, based
on adverse conditions in the United States mortgage market.
(c) At the election of Seller, the Periodic
Commitment Fee may be paid in cash or by adding the amount thereof ratably to the liquidation
preference of each outstanding share of Senior
Preferred Stock so that the aggregate liquidation
preference of all such outstanding shares of Senior Preferred Stock is increased by an amount
equal to the Periodic Commitment Fee. Seller
shall deliver notice of such election not later than
three (3) Business Days prior to each Periodic
Fee Date. If the Periodic Commitment Fee is
not paid in cash by 12:00 pm (New York time) on
the applicable Periodic Fee Date (irrespective of
Seller’s election pursuant to this subsection),
Seller shall be deemed to have elected to pay the
Periodic Commitment Fee by adding the amount
thereof to the liquidation preference of the Senior
Preferred Stock, and the aggregate liquidation
preference of the outstanding shares of Senior
Preferred Stock shall thereupon be automatically
increased, in the manner contemplated by the
first sentence of this section, by an aggregate
amount equal to the Periodic Commitment Fee
then due.
9.

Amendment to Section 5.7 (Relating to Owned Mortgage Assets).

Section 5.7 of the Existing Agreement is hereby
amended to read as follows:

221
5.7. Mortgage Assets. Seller shall not own,
as of any applicable date, Mortgage Assets in excess of (i) on December 31, 2009, $900 billion, or
(ii) on December 31 of each year thereafter,
90.0% of the aggregate amount of Mortgage Assets that Seller was permitted to own as of December 31 of the immediately preceding calendar
year; provided, that in no event shall Seller be required under this Section 5.7 to own less than
$250 billion in Mortgage Assets.
10. Existing Agreement to Continue, as Amended.

Except as expressly modified by this Second
Amendment, the Existing Agreement shall continue in full
force and effect.
11. Effective Date.

This Second Amendment shall not become effective until it has been executed by both of Purchaser and
Seller. When this Second Amendment has been so executed, it shall become effective as of the date first
above written.
FEDERAL NATIONAL MORTGAGE
ASSOCIATION, by
Federal Housing Finance Agency,
its Conservator
/s/

EDWARD J. DeMARCO
EDWARD J. DEMARCO
Acting Director
UNITED STATES DEPARTMENT
OF THE TREASURY

222
/s/

TIMOTHY F. GEITHNER
TIMOTHY F. GEITHNER
Secretary of the Treasury

223
SECOND AMENDMENT TO AMENDED AND
RESTATED SENIOR PREFERRED STOCK
PURCHASE AGREEMENT

SECOND AMENDMENT dated as of December
24, 2009, to the AMENDED AND RESTATED SENIOR PREFERRED STOCK PURCHASE AGREEMENT dated as of September 26, 2008, between the
UNITED STATES DEPARTMENT OF THE TREASURY (“Purchaser”), and FEDERAL HOME LOAN
MORTGAGE CORPORATION (“Seller”), acting
through the Federal Housing Finance Agency (the
“Agency”) as its duly appointed conservator (the
Agency in such capacity, “Conservator’’).
Background

A. Purchaser and Seller have heretofore entered into the Amended and Restated Senior Preferred
Stock Purchase Agreement dated as of September 26,
2008 (the “Amended and Restated Agreement”) .
B. In the Amended and Restated Agreement,
Purchaser committed itself to provide to Seller, on the
terms and conditions provided in the Amended and Restated Agreement, immediately available funds in an
amount as determined from time to time as provided in
the Amended and Restated Agreement, but in no event
in an aggregate amount exceeding $100,000,000,000.
C. Purchaser and Seller have heretofore entered into the Amendment dated as of May 6, 2009, to
the Amended and Restated Agreement (the “First
Amendment”).
D. In the First Amendment, Purchaser increased to $200,000,000,000 the maximum aggregate
amount permitted to be provided to Seller under the

224
Amended and Restated Agreement, and amended the
terms of the Amended and Restated Agreement in certain other respects.
E. Purchaser and Seller are each authorized to
enter into this Second Amendment to the Amended and
Restated Agreement (“this Second Amendment”) (i)
modifying the Treasury’s funding commitment to Seller
to provide it with additional funding in amounts not to
exceed the new formulaic maximum amount specified
herein, and (ii) amending the terms of the Amended and
Restated Agreement, as previously amended, in certain
other respects.
THEREFORE, for and in consideration of the
mutual agreements herein contained and for other good
and valuable consideration, the receipt and sufficiency
of which is hereby acknowledged, Purchaser and Seller
agree as follows:
Terms and Conditions
1.

Definitions.

Capitalized terms used and not defined in this
Amendment shall have the respective meanings given
such terms in the Amended and Restated Agreement, as
amended by the First Amendment (the Amended and
Restated Agreement, as amended by the First Amendment, being the “Existing Agreement”).
2.

Amendment to Section 1 (Relating to Definition of
“Indebtedness”).

The definition of “Indebtedness” in Section 1 of
the Existing Agreement is hereby amended to read as
follows:

225
“Indebtedness” of any Person means, for purposes of Section 5.5 only, without duplication, (a)
all obligations of such Person for money borrowed by such Person, (b) all obligations of such
Person evidenced by bonds, debentures, notes or
similar instruments, (c) all obligations of such
Person under conditional sale or other title retention agreements relating to property or assets
purchased by such Person, (d) all obligations of
such Person issued or assumed as the deferred
purchase price of property or services, other than
trade accounts payable, (e) all Capital Lease Obligations of such Person, (f ) obligations, whether
contingent or liquidated, in respect of letters of
credit (including standby and commercial), bankers’ and similar instruments, and (g) any obligation of such Person, contingent or otherwise,
guaranteeing or having the economic effect of
guaranteeing and Indebtedness of the types set
forth in clauses (a) through (f ) payable by another
Person other than Mortgage Guarantee Obligations (and, for the avoidance of doubt, without
giving effect to any change that may be made
hereafter in respect of Statement of Financial Accounting Standards No. 140, 166, or 167, or any
similar accounting standard).
Indebtedness
balances or amounts shall be measured at par
value for purposes of Section 5.5 only.
3.

Amendment to Section 1 (Relating to Definition of
“Maximum Amount”).

The definition of “Maximum Amount” in Section
1 of the Existing Agreement is hereby amended to read
as follows:

226
“Maximum Amount” means, as of any date of
determination, the greater of (a) $200,000,000,000
(two
hundred
billion
dollars),
or
(b)
$200,000,000,000 plus the cumulative total of Deficiency Amounts determined for calendar quarters in calendar years 2010, 2011, and 2012, less
any Surplus Amount determined as of December
31, 2012, and in the case of either (a) or (b), less
the aggregate amount of funding under the Commitment prior to such date.
4.

Amendment to Section 1 (Relating to Definition of
“Mortgage Assets”).

The definition of “Mortgage Assets” in Section 1 of
the Existing Agreement is hereby amended to read as
follows:
“Mortgage Assets” of any Person means assets of such Person consisting of mortgages, mortgage loans, mortgage-related securities, participation certificates, mortgage-backed commercial paper, obligations of real estate mortgage investment conduits and similar assets, in each case to
the extent such assets would appear on the balance sheet of such Person in accordance with
GAAP as in effect as of the date hereof (and, for
the avoidance of doubt, without giving effect to
any change that may be made hereafter in respect of Statement of Financial Accounting
Standards No. 140, 166, or 167, or any similar accounting standard). Mortgage Asset balances or
amounts shall be measured at unpaid principal
balance for purposes of Section 5.7 only.

227
5.

Amendment to Section 1 (Adding Definition for New
Defined Term “Surplus Amount”).

Section 1 of the Existing Agreement is hereby
amended by inserting after the definition of the term
“Senior Preferred Stock” the following:
“Surplus Amount” means, as of the date of
determination, the amount if any by which (a) the
total assets of Seller (such assets excluding the
Commitment and any unfunded amounts thereof )
exceed (b) the total liabilities of Seller, in each
case as reflected on the balance sheet of Seller as
of the applicable date set forth in the Agreement,
prepared in accordance with GAAP.
6.

Amendment to Section 2.1 (Relating to the Commitment).

Section 2.1 of the Existing Agreement is hereby
amended to read as follows:
2.1 Commitment. Purchaser hereby commits to provide to Seller, on the terms and conditions set forth herein, immediately available funds
in an amount up to but not in excess of the Available
Amount, as determined from time to time
(the “Commitment”); provided, that in no event
shall the aggregate amount funded under the
Commitment exceed the greater of (a)
$200,000,000,000 (two hundred billion dollars), or
(b) $200,000,000,000 plus the cumulative total of
Deficiency Amounts determined for calendar
quarters in calendar years 2010, 2011, and 2012,
less any Surplus Amount determined as of December 31, 2012. The liquidation preference of

228
Senior Preferred Stock shall increase in connection with draws on the Commitment, as set forth
in Section 3.3 below.
7.

Amendment to Section 2.5 (Relating to Termination
of Purchaser’s Obligations).

Section 2.5 of the Existing Agreement is hereby
amended to read as follows:
2.5 Termination of Purchaser’s Obligations.
Subject to earlier termination pursuant to Section 6.7, all of Purchaser’s obligations under and
in respect of the Commitment shall terminate
upon the earliest of: (a) if the Liquidation End
Date shall have occurred, (i) the payment in full of
Purchaser’s obligations with respect to any valid
request for funds pursuant to Section 2.4 or if
there is no Deficiency Amount on the Liquidation
End Date or if no such request pursuant to Section 2.4 has been made, the close of business on
the 15th Business Day following the determination of the Deficiency Amount, if any, as of the
Liquidation End Date; (b) the payment in full of,
defeasance of or other reasonable provision for
all liabilities of Seller, whether or not contingent,
including payment of any amounts that may become payable on, or expiry of or other provision
for, all Mortgage Guarantee Obligations and
provision for unmatured debts; and (c) the
funding by Purchaser under the Commitment of
an aggregate equal to the greater of (a)
$200,000,000,000 (two hundred billion dollars), or
(b) $200,000,000,000 plus the cumulative total of
Deficiency Amounts determined for calendar
quarters in calendar years 2010, 2011, and 2012,

229
less any Surplus Amount determined as of December 31, 2012. For avoidance of doubt, the
Commitment shall not be terminable by Purchaser solely by reason of (i) the conservatorship,
receivership or other insolvency proceeding of
Seller or (ii) the Seller’s financial condition or any
adverse change in Seller’s financial condition.
8.

Amendment to Section 3.2 (Relating to Periodic Commitment Fee).

Section 3.2 of the Existing Agreement is hereby
amended to read as follows:
3.2. Periodic Commitment Fee. (a) Commencing March 31, 2011, Seller shall pay to Purchaser quarterly, on the last day of March, June,
September and December of each calendar year
(each a “Periodic Fee Date”), a periodic commitment fee (the “Periodic Commitment Fee”). The
Periodic Commitment Fee shall accrue from January 1, 2011.
(b) The Periodic Commitment Fee is intended to fully compensate Purchaser for the
support provided by the ongoing Commitment
following December 31, 2010. The amount of the
Periodic Commitment Fee shall be set not later
than December 31, 2010 with respect to the ensuing five-year period, shall be reset every five
years thereafter and shall be determined with
reference to the market value of the Commitment
as then in effect. The amount of the Periodic
Commitment Fee shall be mutually agreed by
Purchaser and Seller, subject to their reasonable
discretion and in consultation with the Chairman

230
of the Federal Reserve; provided, that Purchaser
may waive the Periodic Commitment Fee for up
to one year at a time, in its sole discretion, based
on adverse conditions in the United States mortgage market.
(c) At the election of Seller, the Periodic
Commitment Fee may be paid in cash or by adding the amount thereof ratably to the liquidation
preference of each outstanding share of Senior
Preferred Stock so that the aggregate liquidation
preference of all such outstanding shares of Senior Preferred Stock is increased by an amount
equal to the Periodic Commitment Fee. Seller
shall deliver notice of such election not later than
three (3) Business Days prior to each Periodic
Fee Date. If the Periodic Commitment Fee is
not paid in cash by 12:00 pm (New York time) on
the applicable Periodic Fee Date (irrespective of
Seller’s election pursuant to this subsection),
Seller shall be deemed to have elected to pay the
Periodic Commitment Fee by adding the amount
thereof to the liquidation preference of the Senior
Preferred Stock, and the aggregate liquidation
preference of the outstanding shares of Senior
Preferred Stock shall thereupon be automatically
increased, in the manner contemplated by the
first sentence of this section, by an aggregate
amount equal to the Periodic Commitment Fee
then due.
9.

Amendment to Section 5.7 (Relating to Owned Mortgage Assets).

Section 5.7 of the Existing Agreement is hereby
amended to read as follows:

231
5.7. Mortgage Assets. Seller shall not own,
as of any applicable date, Mortgage Assets in excess of (i) on December 31, 2009, $900 billion, or
(ii) on December 31 of each year thereafter,
90.0% of the aggregate amount of Mortgage Assets that Seller was permitted to own as of December 31 of the immediately preceding calendar
year; provided, that in no event shall Seller be required under this Section 5.7 to own less than
$250 billion in Mortgage Assets.
10. Existing Agreement to Continue, as Amended.

Except as expressly modified by this Second
Amendment, the Existing Agreement shall continue in full
force and effect.
11. Effective Date.

This Second Amendment shall not become effective
until it has been executed by both of Purchaser and Seller.
When this Second Amendment has been so executed, it
shall become effective as of the date first above written.
FEDERAL NATIONAL MORTGAGE
ASSOCIATION, by
Federal Housing Finance Agency,
its Conservator
/s/

EDWARD J. DeMARCO
EDWARD J. DEMARCO
Acting Director
UNITED STATES DEPARTMENT
OF THE TREASURY

232
/s/

TIMOTHY F. GEITHNER
TIMOTHY F. GEITHNER
Secretary of the Treasury

233

Exhibit D

234
THIRD AMENDMENT TO AMENDED AND
RESTATED SENIOR PREFERRED STOCK
PURCHASE AGREEMENT

THIRD AMENDMENT dated as of August 17,
2012, to the AMENDED AND RESTATED SENIOR
PREFERRED STOCK PURCHASE AGREEMENT
dated as of September 26, 2008, between the UNITED
STATES DEPARTMENT OF THE TREASURY
(“Purchaser”), and FEDERAL NATIONAL MORTGAGE ASSOCIATION (“Seller”), acting through the
Federal Housing Finance Agency (the “Agency”) as its
duly appointed conservator (the Agency in such capacity, “Conservator”).
Background

A. Purchaser and Seller have heretofore entered into the Amended and Restated Senior Preferred
Stock Purchase Agreement dated as of September 26,
2008 (the “Amended and Restated Agreement”).
B. In the Amended and Restated Agreement,
Purchaser committed itself to provide to Seller, on the
terms and conditions provided in the Amended and Restated Agreement, immediately available funds in an
amount as determined from time to time as provided in
the Amended and Restated Agreement, but in no event
in an aggregate amount exceeding $100,000,000,000.
C. In consideration for Purchaser’s commitment, Seller agreed to sell, and did sell, to Purchaser
1,000,000 shares of senior preferred stock, in the form
of the Variable Liquidation Preference Senior Preferred
Stock of Seller attached as Exhibit A to the Amended
and Restated Agreement, with an initial liquidation
preference equal to $1,000 per share.

235
D. The Amended and Restated Agreement provides that the aggregate liquidation preference of the
outstanding shares of senior preferred stock shall be automatically increased by an amount equal to the amount
of each draw under Purchaser’s funding commitment,
and the senior preferred stock sold by Seller to Purchaser provides that the senior preferred stock shall accrue dividends at the annual rate per share equal to 10
percent on the then-current liquidation preference.
E. Purchaser and Seller have heretofore entered into the Amendment dated as of May 6, 2009, to
the Amended and Restated Agreement (the “First
Amendment”).
F. In the First Amendment, Purchaser increased to $200,000,000,000 the maximum aggregate
amount permitted to be provided to Seller under the
Amended and Restated Agreement, and amended the
terms of the Amended and Restated Agreement in certain other respects.
G. Purchaser and Seller have heretofore entered into the Second Amendment dated as of December
24, 2009, to the Amended and Restated Agreement (the
“Second Amendment”).
H. In the Second Amendment, Purchaser modified the maximum aggregate amount permitted to be
provided to Seller under the Amended and Restated
Agreement, as previously amended, by replacing the fixed
maximum aggregate amount with the new formulaic maximum amount specified therein, and amended the terms
of the Amended and Restated Agreement, as previously
amended, in certain other respects.

236
I. Purchaser and Seller are each authorized to
enter into this Third Amendment to the Amended and
Restated Agreement (“this Third Amendment”) that (i)
includes an agreement by Seller to modify the dividend
rate provision of the senior preferred stock sold by Seller
to Purchaser, and (ii) amends the terms of the Amended
and Restated Agreement, as previously amended, in certain other respects.
THEREFORE, for and in consideration of the
mutual agreements herein contained and for other good
and valuable consideration, the receipt and sufficiency
of which is hereby acknowledged, Purchaser and Seller
agree as follows:
Terms and Conditions
1.

Definitions.

Capitalized terms used and not defined in this
Third Amendment shall have the respective meanings
given such terms in the Amended and Restated Agreement, as amended by the First Amendment and the Second Amendment (the Amended and Restated Agreement, as amended by the First Amendment and the Second Amendment, being the “Existing Agreement”).
2.

Amendment to Paragraph 2(a) of Senior Preferred
Stock (Relating to Dividend Payment Dates and Dividend Periods).

With respect to the Certificate of Designation of
Terms of Variable Liquidation Preference Senior Preferred Stock, Series 2008-2, dated September 7, 2008
(the “Senior Preferred Stock Certificate”), sold by
Seller to Purchaser and purchased by Purchaser from
Seller, Seller agrees either to amend the existing paragraph 2(a) of the Senior Preferred Stock Certificate, or

237
to issue a replacement Senior Preferred Stock Certificate, in either case so that, by not later than September
30, 2012, paragraph 2(a) reads as follows:
(a) For each Dividend Period from the date
of the initial issuance of the Senior Preferred
Stock through and including December 31, 2012,
holders of outstanding shares of Senior Preferred
Stock shall be entitled to receive, ratably, when,
as and if declared by the Board of Directors, in
its sole discretion, out of funds legally available
therefor, cumulative cash dividends at the annual
rate per share equal to the then-current Dividend
Rate on the then-current Liquidation Preference.
For each Dividend Period from January 1, 2013,
holders of outstanding shares of Senior Preferred
Stock shall be entitled to receive, ratably, when, as
and if declared by the Board of Directors, in its
sole discretion, out of funds legally available
therefor, cumulative cash dividends in an amount
equal to the then-current Dividend Amount.
Dividends on the Senior Preferred Stock shall accrue from but not including the date of the initial
issuance of the Senior Preferred Stock and will
be payable in arrears when, as and if declared by
the Board of Directors quarterly on March 31,
June 30, September 30 and December 31 of each
year (each, a “Dividend Payment Date”), commencing on December 31, 2008. If a Dividend
Payment Date is not a “Business Day,” the related dividend will be paid not later than the next
Business Day with the same force and effect as
though paid on the Dividend Payment Date, without any increase to account for the period from
such Dividend Payment Date through the date of

238
actual payment. “Business Day” means a day
other than (i) a Saturday or Sunday, (ii) a day on
which New York City banks are closed, or (iii) a
day on which the offices of the Company are
closed.
If declared, the initial dividend will be for the
period from but not including the date of the initial issuance of the Senior Preferred Stock
through and including December 31, 2008. Except for the initial Dividend Payment Date, the
“Dividend Period” relating to a Dividend Payment Date will be the period from but not including the preceding Dividend Payment Date
through and including the related Dividend Payment Date. For each Dividend Period from the
date of the initial issuance of the Senior Preferred Stock through and including December 31,
2012, the amount of dividends payable on the initial Dividend Payment Date or for any Dividend
Period through and including December 31, 2012,
that is not a full calendar quarter shall be computed on the basis of 30-day months, a 360-day
year and the actual number of days elapsed in any
period of less than one month. For the avoidance of doubt, for each Dividend Period from the
date of the initial issuance of the Senior Preferred Stock through and including December 31,
2012, in the event that the Liquidation Preference changes in the middle of a Dividend Period,
the amount of dividends payable on the Dividend
Payment Date at the end of such Dividend Period
shall take into account such change in Liquidation
Preference and shall be computed at the Dividend
Rate on each Liquidation Preference based on

239
the portion of the Dividend Period that each Liquidation Preference was in effect.
3.

Amendment to Paragraph 2(c) of Senior Preferred
Stock (Relating to Dividend Rate and Dividend
Amount).

With respect to the Senior Preferred Stock Certificate sold by Seller to Purchaser and purchased by
Purchaser from Seller, Seller agrees either to amend
the existing paragraph 2(c) of the Senior Preferred
Stock Certificate, or to issue a replacement Senior Preferred Stock Certificate, in either case so that, effective
September 30, 2012, paragraph 2(c) reads as follows:
(c) For each Dividend Period from the date
of the initial issuance of the Senior Preferred
Stock through and including December 31, 2012,
“Dividend Rate” means 10.0%; provided, however, that if at any time the Company shall have
for any reason failed to pay dividends in cash in a
timely manner as required by this Certificate,
then immediately following such failure and for
all Dividend Periods thereafter until the Dividend Period following the date on which the Company shall have paid in cash full cumulative dividends (including any unpaid dividends added to
the Liquidation Preference pursuant to Section
8) the “Dividend Rate” shall mean 12.0%.
For each Dividend Period from January 1,
2013, through and including December 31, 2017,
the “Dividend Amount” for a Dividend Period
means the amount, if any, by which the Net
Worth Amount at the end of the immediately preceding fiscal quarter, less the Applicable Capital

240
Reserve Amount, exceeds zero. For each Dividend Period from January 1, 2018, the “Dividend
Amount” for a Dividend Period means the
amount, if any, by which the Net Worth Amount
at the end of the immediately preceding fiscal
quarter exceeds zero. In each case, “Net Worth
Amount” means (i) the total assets of the Company (such assets excluding the Commitment and
any unfunded amounts thereof ) as reflected on
the balance sheet of the Company as of the applicable date set forth in this Certificate, prepared
in accordance with GAAP, less (ii) the total liabilities of the Company (such liabilities excluding
any obligation in respect of any capital stock of
the Company, including this Certificate), as reflected on the balance sheet of the Company as of
the applicable date set forth in this Certificate,
prepared in accordance with GAAP. “Applicable Capital Reserve Amount” means, as of any
date of determination, for each Dividend Period
from January 1, 2013, through and including December 31, 2013, $3,000,000,000; and for each Dividend Period occurring within each 12-month period thereafter, $3,000,000,000 reduced by an
equal amount for each such 12-month period
through and including December 31, 2017, so that
for each Dividend Period from January 1, 2018,
the Applicable Capital Reserve Amount shall be
zero. For the avoidance of doubt, if the calculation of the Dividend Amount for a Dividend Period does not exceed zero, then no Dividend
Amount shall accrue or be payable for such Dividend Period.

241
4.

Amendment to Section 3.2 (Relating to the Periodic
Commitment Fee).

Section 3.2 of the Existing Agreement is hereby
amended to read as follows:
3.2. Periodic Commitment Fee. (a) Commencing March 31, 2011, Seller shall pay to Purchaser quarterly, on the last day of March, June,
September and December of each calendar year
(each a “Periodic Fee Date”), a periodic commitment fee (the “Periodic Commitment Fee”).
The Periodic Commitment Fee shall accrue from
January 1, 2011.
(b) The Periodic Commitment Fee is intended to fully compensate Purchaser for the
support provided by the ongoing Commitment
following December 31, 2010. The amount of
the Periodic Commitment Fee shall be set not
later than December 31, 2010 with respect to the
ensuing five-year period, shall be reset every five
years thereafter and shall be determined with
reference to the market value of the Commitment
as then in effect. The amount of the Periodic
Commitment Fee shall be mutually agreed by
Purchaser and Seller, subject to their reasonable
discretion and in consultation with the Chairman
of the Federal Reserve; provided, that Purchaser
may waive the Periodic Commitment Fee for up
to one year at a time, in its sole discretion, based
on adverse conditions in the United States mortgage market.

242
(c) At the election of Seller, the Periodic
Commitment Fee may be paid in cash or by adding the amount thereof ratably to the liquidation
preference of each outstanding share of Senior
Preferred Stock so that the aggregate liquidation
preference of all such outstanding shares of Senior Preferred Stock is increased by an amount
equal to the Periodic Commitment Fee. Seller
shall deliver notice of such election not later than
three (3) Business Days prior to each Periodic
Fee Date. If the Periodic Commitment Fee is
not paid in cash by 12:00 pm (New York time) on
the applicable Periodic Fee Date (irrespective of
Seller’s election pursuant to this subsection),
Seller shall be deemed to have elected to pay the
Periodic Commitment Fee by adding the amount
thereof to the liquidation preference of the Senior
Preferred Stock, and the aggregate liquidation
preference of the outstanding shares of Senior
Preferred Stock shall thereupon be automatically
increased, in the manner contemplated by the first
sentence of this section, by an aggregate amount
equal to the Periodic Commitment Fee then due.
(d) Notwithstanding anything to the contrary in paragraphs (a), (b), or (c) above, and in
consideration of the modification made to the
Senior Preferred Stock effective September 30,
2012, for each quarter commencing January 1,
2013, and continuing for as long as paragraph 2 of
the Senior Preferred Stock remains in form and
content substantially the same as the form and
content of the Senior Preferred Stock in effect on
September 30, 2012, no Periodic Commitment
Fee shall be set, accrue, or be payable.

243
5.

Amendment to Section 5.4 (Relating to Transfer of
Assets).

Section 5.4 of the Existing Agreement is hereby
amended to read as follows:
5.4. Transfer of Assets. Seller shall not,
and shall not permit any of its subsidiaries to, in
each case without prior written consent of Purchaser, sell, transfer, lease or otherwise dispose
of (in one transaction or a series of related transactions) all or any portion of its assets (including
Equity Interests in other persons, including subsidiaries), whether now owned or hereafter acquired (any such sale, transfer, lease or disposition, a “Disposition”), other than Dispositions for
fair market value:
(a) to a limited life regulated entity (“LLRE”)
pursuant to Section 1367(i) of the FHE Act;
(b) of assets and properties in the ordinary
course of business, consistent with past practice;
(c) of assets and properties having fair market value individually or in aggregate less than
$250,000,000 in one transaction or a series of related transactions;
(d) in connection with a liquidation of Seller
by a receiver appointed pursuant to Section
1367(a) of the FHE Act;
(e) of cash or cash equivalents for cash or
cash equivalents; or
(f ) to the extent necessary to comply with
the covenant set forth in Section 5.7 below.

244
6.

Amendment to Section 5.7 (Relating to Owned Mortgage Assets).

Section 5.7 of the Existing Agreement is hereby
amended to read as follows:
5.7. Mortgage Assets. Seller shall not own,
as of any applicable date, Mortgage Assets in excess of (i) on December 31, 2012, $650 billion, or
(ii) on December 31 of each year thereafter,
85.0% of the aggregate amount of Mortgage Assets that Seller was permitted to own as of December 31 of the immediately preceding calendar
year; provided, that in no event shall Seller be required under this Section 5.7 to own less than
$250 billion in Mortgage Assets.
7.

Amendment to Section 5 (Adding New Section 5.11
Relating to “Annual Risk Management Plans”).

Section 5 of the Existing Agreement is hereby
amended by inserting after section 5.10 the following:
5.11. Annual Risk Management Plans. Not
later than December 15, 2012, and not later than
December 15 of each year thereafter while Seller
remains in conservatorship pursuant to Section
1367 of the FHE Act, Seller shall, under the direction of Conservator, deliver a risk management plan to Purchaser. Each annual risk management plan shall set out Seller’s strategy for
reducing its enterprise-wide risk profile and shall
describe, in reasonable detail, the actions Seller
will take, to reduce both the financial and operational risk associated with each reportable business segment of Seller. Plans delivered subsequent to December 15, 2012 shall also include an

245
assessment of Seller’s performance relative to
the planned actions described in the prior year’s
plan. The submission of annual risk management plans under this section shall not in any way
limit or affect the Agency in any of its capacities
to carry out its statutory responsibilities, including but not limited to providing direction to and
oversight of Seller.”
8.

Existing Agreement to Continue, as Amended.

Except as expressly modified by this Third
Amendment, the Existing Agreement shall continue in
full force and effect.
9.

Effective Date.

This Third Amendment shall not become effective until it has been executed by both of Purchaser and
Seller. When this Third Amendment has been so executed, it shall become effective as of the date first above
written.
FEDERAL NATIONAL MORTGAGE
ASSOCIATION, by
Federal Housing Finance Agency,
its Conservator
/s/

EDWARD J. DeMARCO
EDWARD J. DEMARCO
Acting Director
UNITED STATES DEPARTMENT
OF THE TREASURY

/s/

TIMOTHY F. GEITHNER
TIMOTHY F. GEITHNER
Secretary of the Treasury

246
THIRD AMENDMENT TO AMENDED AND
RESTATED SENIOR PREFERRED STOCK
PURCHASE AGREEMENT

THIRD AMENDMENT dated as of August 17,
2012, to the AMENDED AND RESTATED SENIOR
PREFERRED STOCK PURCHASE AGREEMENT
dated as of September 26, 2008, between the UNITED
STATES DEPARTMENT OF THE TREASURY
(“Purchaser”), and FEDERAL HOME LOAN MORTGAGE CORPORATION (“Seller”), acting through the
Federal Housing Finance Agency (the “Agency”) as its
duly appointed conservator (the Agency in such capacity, “Conservator”).
Background

A. Purchaser and Seller have heretofore entered into the Amended and Restated Senior Preferred
Stock Purchase Agreement dated as of September 26,
2008 (the “Amended and Restated Agreement”).
B. In the Amended and Restated Agreement,
Purchaser committed itself to provide to Seller, on the
terms and conditions provided in the Amended and Restated Agreement, immediately available funds in an
amount as determined from time to time as provided in
the Amended and Restated Agreement, but in no event
in an aggregate amount exceeding $100,000,000,000.
C. In consideration for Purchaser’s commitment, Seller agreed to sell, and did sell, to Purchaser
1,000,000 shares of senior preferred stock, in the form
of the Variable Liquidation Preference Senior Preferred
Stock of Seller attached as Exhibit A to the Amended
and Restated Agreement, with an initial liquidation
preference equal to $1,000 per share.

247
D. The Amended and Restated Agreement provides that the aggregate liquidation preference of the
outstanding shares of senior preferred stock shall be automatically increased by an amount equal to the amount
of each draw under Purchaser’s funding commitment,
and the senior preferred stock sold by Seller to Purchaser provides that the senior preferred stock shall accrue dividends at the annual rate per share equal to 10
percent on the then-current liquidation preference.
E. Purchaser and Seller have heretofore entered into the Amendment dated as of May 6, 2009, to
the Amended and Restated Agreement (the “First
Amendment”).
F. In the First Amendment, Purchaser increased to $200,000,000,000 the maximum aggregate
amount permitted to be provided to Seller under the
Amended and Restated Agreement, and amended the
terms of the Amended and Restated Agreement in certain other respects.
G. Purchaser and Seller have heretofore entered into the Second Amendment dated as of December
24, 2009, to the Amended and Restated Agreement (the
“Second Amendment”).
H. In the Second Amendment, Purchaser modified the maximum aggregate amount permitted to be
provided to Seller under the Amended and Restated
Agreement, as previously amended, by replacing the
fixed maximum aggregate amount with the new formulaic maximum amount specified therein, and amended
the terms of the Amended and Restated Agreement, as
previously amended, in certain other respects.

248
I. Purchaser and Seller are each authorized to
enter into this Third Amendment to the Amended and
Restated Agreement (“this Third Amendment”) that (i)
includes an agreement by Seller to modify the dividend
rate provision of the senior preferred stock sold by
Seller to Purchaser, and (ii) amends the terms of the
Amended and Restated Agreement, as previously
amended, in certain other respects.
THEREFORE, for and in consideration of the
mutual agreements herein contained and for other good
and valuable consideration, the receipt and sufficiency
of which is hereby acknowledged, Purchaser and Seller
agree as follows:
Terms and Conditions
1.

Definitions.

Capitalized terms used and not defined in this
Third Amendment shall have the respective meanings
given such terms in the Amended and Restated Agreement, as amended by the First Amendment and the Second Amendment (the Amended and Restated Agreement, as amended by the First Amendment and the Second Amendment, being the “Existing Agreement”).
2.

Amendment to Paragraph 2(a) of Senior Preferred
Stock (Relating to Dividend Payment Dates and Dividend Periods).

With respect to the Certificate of Creation, Designation, Powers, Preferences, Rights, Privileges, Qualifications, Limitations, Restrictions, Terms and Conditions of Variable Liquidation Preference Senior Preferred Stock (Par Value $1.00 Per Share) dated September 7, 2008 (the “Senior Preferred Stock Certificate”),
sold by Seller to Purchaser and purchased by Purchaser

249
from Seller, Seller agrees either to amend the existing
paragraph 2(a) of the Senior Preferred Stock Certificate, or to issue a replacement Senior Preferred Stock
Certificate, in either case so that, by not later than September 30, 2012, paragraph 2(a) reads as follows:
(a) For each Dividend Period from the date
of the initial issuance of the Senior Preferred
Stock through and including December 31, 2012,
holders of outstanding shares of Senior Preferred
Stock shall be entitled to receive, ratably, when,
as and if declared by the Board of Directors, in
its sole discretion, out of funds legally available
therefor, cumulative cash dividends at the annual
rate per share equal to the then-current Dividend
Rate on the then-current Liquidation Preference.
For each Dividend Period from January 1, 2013,
holders of outstanding shares of Senior Preferred
Stock shall be entitled to receive, ratably, when,
as and if declared by the Board of Directors, in
its sole discretion, out of funds legally available
therefor, cumulative cash dividends in an amount
equal to the then-current Dividend Amount.
Dividends on the Senior Preferred Stock shall accrue from but not including the date of the initial
issuance of the Senior Preferred Stock and will
be payable in arrears when, as and if declared by
the Board of Directors quarterly on March 31,
June 30, September 30 and December 31 of each
year (each, a “Dividend Payment Date”), commencing on December 31, 2008. If a Dividend
Payment Date is not a “Business Day,” the related dividend will be paid not later than the next
Business Day with the same force and effect as

250
though paid on the Dividend Payment Date, without any increase to account for the period from
such Dividend Payment Date through the date of
actual payment. “Business Day” means a day
other than (i) a Saturday or Sunday, (ii) a day on
which New York City banks are closed, or (iii) a
day on which the offices of the Company are
closed.
If declared, the initial dividend will be for the
period from but not including the date of the initial issuance of the Senior Preferred Stock through
and including December 31, 2008. Except for
the initial Dividend Payment Date, the “Dividend
Period” relating to a Dividend Payment Date will
be the period from but not including the preceding Dividend Payment Date through and including the related Dividend Payment Date. For
each Dividend Period from the date of the initial
issuance of the Senior Preferred Stock through
and including December 31, 2012, the amount of
dividends payable on the initial Dividend Payment Date or for any Dividend Period through
and including December 31, 2012, that is not a full
calendar quarter shall be computed on the basis
of 30-day months, a 360-day year and the actual
number of days elapsed in any period of less than
one month. For the avoidance of doubt, for each
Dividend Period from the date of the initial issuance of the Senior Preferred Stock through and
including December 31, 2012, in the event that
the Liquidation Preference changes in the middle
of a Dividend Period, the amount of dividends
payable on the Dividend Payment Date at the end
of such Dividend Period shall take into account

251
such change in Liquidation Preference and shall
be computed at the Dividend Rate on each Liquidation Preference based on the portion of the
Dividend Period that each Liquidation Preference was in effect.
3.

Amendment to Paragraph 2(c) of Senior Preferred
Stock (Relating to Dividend Rate and Dividend
Amount).

With respect to the Senior Preferred Stock Certificate sold by Seller to Purchaser and purchased by
Purchaser from Seller, Seller agrees either to amend
the existing paragraph 2(c) of the Senior Preferred
Stock Certificate, or to issue a replacement Senior Preferred Stock Certificate, in either case so that, effective
September 30, 2012, paragraph 2(c) reads as follows:
(c) For each Dividend Period from the date
of the initial issuance of the Senior Preferred
Stock through and including December 31, 2012,
“Dividend Rate” means 10.0%; provided, however, that if at any time the Company shall have
for any reason failed to pay dividends in cash in a
timely manner as required by this Certificate,
then immediately following such failure and for
all Dividend Periods thereafter until the Dividend Period following the date on which the Company shall have paid in cash full cumulative dividends (including any unpaid dividends added to
the Liquidation Preference pursuant to Section
8) the “Dividend Rate” shall mean 12.0%.
For each Dividend Period from January 1,
2013, through and including December 31, 2017,
the “Dividend Amount” for a Dividend Period

252
means the amount, if any, by which the Net
Worth Amount at the end of the immediately preceding fiscal quarter, less the Applicable Capital
Reserve Amount, exceeds zero. For each Dividend Period from January 1, 2018, the “Dividend
Amount” for a Dividend Period means the
amount, if any, by which the Net Worth Amount
at the end of the immediately preceding fiscal
quarter exceeds zero. In each case, “Net Worth
Amount” means (i) the total assets of the Company (such assets excluding the Commitment and
any unfunded amounts thereof ) as reflected on
the balance sheet of the Company as of the applicable date set forth in this Certificate, prepared
in accordance with GAAP, less (ii) the total liabilities of the Company (such liabilities excluding
any obligation in respect of any capital stock of
the Company, including this Certificate), as reflected on the balance sheet of the Company as of
the applicable date set forth in this Certificate,
prepared in accordance with GAAP. “Applicable
Capital Reserve Amount” means, as of any date
of determination, for each Dividend Period from
January 1, 2013, through and including December 31, 2013, $3,000,000,000; and for each Dividend Period occurring within each 12-month period thereafter, $3,000,000,000 reduced by an
equal amount for each such 12-month period
through and including December 31, 2017, so that
for each Dividend Period from January 1, 2018,
the Applicable Capital Reserve Amount shall be
zero. For the avoidance of doubt, if the calculation of the Dividend Amount for a Dividend Period does not exceed zero, then no Dividend

253
Amount shall accrue or be payable for such Dividend Period.
4.

Amendment to Section 3.2 (Relating to the Periodic
Commitment Fee).

Section 3.2 of the Existing Agreement is hereby
amended to read as follows:
3.2. Periodic Commitment Fee. (a) Commencing March 31, 2011, Seller shall pay to Purchaser quarterly, on the last day of March, June,
September and December of each calendar year
(each a “Periodic Fee Date”), a periodic commitment fee (the “Periodic Commitment Fee”).
The Periodic Commitment Fee shall accrue from
January 1, 2011.
(b) The Periodic Commitment Fee is intended to fully compensate Purchaser for the
support provided by the ongoing Commitment
following December 31, 2010. The amount of
the Periodic Commitment Fee shall be set not
later than December 31, 2010 with respect to the
ensuing five-year period, shall be reset every five
years thereafter and shall be determined with
reference to the market value of the Commitment
as then in effect. The amount of the Periodic
Commitment Fee shall be mutually agreed by
Purchaser and Seller, subject to their reasonable
discretion and in consultation with the Chairman of
the Federal Reserve; provided, that Purchaser
may waive the Periodic Commitment Fee for up
to one year at a time, in its sole discretion, based
on adverse conditions in the United States mortgage market.

254
(c) At the election of Seller, the Periodic
Commitment Fee may be paid in cash or by adding the amount thereof ratably to the liquidation
preference of each outstanding share of Senior
Preferred Stock so that the aggregate liquidation
preference of all such outstanding shares of Senior Preferred Stock is increased by an amount
equal to the Periodic Commitment Fee. Seller
shall deliver notice of such election not later than
three (3) Business Days prior to each Periodic
Fee Date. If the Periodic Commitment Fee is
not paid in cash by 12:00 pm (New York time) on
the applicable Periodic Fee Date (irrespective of
Seller’s election pursuant to this subsection),
Seller shall be deemed to have elected to pay the
Periodic Commitment Fee by adding the amount
thereof to the liquidation preference of the Senior
Preferred Stock, and the aggregate liquidation
preference of the outstanding shares of Senior
Preferred Stock shall thereupon be automatically
increased, in the manner contemplated by the first
sentence of this section, by an aggregate amount
equal to the Periodic Commitment Fee then due.
(d) Notwithstanding anything to the contrary in paragraphs (a), (b), or (c) above, and in
consideration of the modification made to the Senior Preferred Stock effective September 30, 2012,
for each quarter commencing January 1, 2013, and
continuing for as long as paragraph 2 of the Senior Preferred Stock remains in form and content
substantially the same as the form and content of
the Senior Preferred Stock in effect on September 30, 2012, no Periodic Commitment Fee shall
be set, accrue, or be payable.

255
5.

Amendment to Section 5.4 (Relating to Transfer of
Assets).

Section 5.4 of the Existing Agreement is hereby
amended to read as follows:
5.4. Transfer of Assets. Seller shall not,
and shall not permit any of its subsidiaries to, in
each case without prior written consent of Purchaser, sell, transfer, lease or otherwise dispose of
(in one transaction or a series of related transactions) all or any portion of its assets (including
Equity Interests in other persons, including subsidiaries), whether now owned or hereafter acquired (any such sale, transfer, lease or disposition, a “Disposition”), other than Dispositions for
fair market value:
(a) to a limited life regulated entity
(“LLRE”) pursuant to Section 1367(i) of the
FHE Act;
(b) of assets and properties in the ordinary
course of business, consistent with past practice;
(c) of assets and properties having fair market value individually or in aggregate less than
$250,000,000 in one transaction or a series of related transactions;
(d) in connection with a liquidation of Seller
by a receiver appointed pursuant to Section
1367(a) of the FHE Act;
(e) of cash or cash equivalents for cash or
cash equivalents; or
(f ) to the extent necessary to comply with
the covenant set forth in Section 5.7 below.

256
6.

Amendment to Section 5.7 (Relating to Owned Mortgage Assets).

Section 5.7 of the Existing Agreement is hereby
amended to read as follows:
5.7. Mortgage Assets. Seller shall not own,
as of any applicable date, Mortgage Assets in excess of (i) on December 31, 2012, $650 billion, or
(ii) on December 31 of each year thereafter,
85.0% of the aggregate amount of Mortgage Assets that Seller was permitted to own as of December 31 of the immediately preceding calendar
year; provided, that in no event shall Seller be required under this Section 5.7 to own less than
$250 billion in Mortgage Assets.
7.

Amendment to Section 5 (Adding New Section 5.11
Relating to “Annual Risk Management Plans”).

Section 5 of the Existing Agreement is hereby
amended by inserting after section 5.10 the following:
5.11. Annual Risk Management Plans. Not
later than December 15, 2012, and not later than
December 15 of each year thereafter while Seller
remains in conservatorship pursuant to Section
1367 of the FHE Act, Seller shall, under the direction of Conservator, deliver a risk management plan to Purchaser. Each annual risk management plan shall set out Seller’s strategy for
reducing its enterprise-wide risk profile and shall
describe, in reasonable detail, the actions Seller
will take, to reduce both the financial and operational risk associated with each reportable business segment of Seller. Plans delivered subsequent to December 15, 2012 shall also include an

257
assessment of Seller’s performance relative to
the planned actions described in the prior year’s
plan. The submission of annual risk management plans under this section shall not in any way
limit or affect the Agency in any of its capacities
to carry out its statutory responsibilities, including but not limited to providing direction to and
oversight of Seller.”
8.

Existing Agreement to Continue, as Amended.

Except as expressly modified by this Third Amendment, the Existing Agreement shall continue in full
force and effect.
9.

Effective Date.

This Third Amendment shall not become effective
until it has been executed by both of Purchaser and
Seller. When this Third Amendment has been so executed, it shall become effective as of the date first above
written.
FEDERAL NATIONAL MORTGAGE
ASSOCIATION, by
Federal Housing Finance Agency,
its Conservator
/s/

EDWARD J. DeMARCO
EDWARD J. DEMARCO
Acting Director
UNITED STATES DEPARTMENT
OF THE TREASURY

/s/

TIMOTHY F. GEITHNER
TIMOTHY F. GEITHNER
Secretary of the Treasury

